<html>
<title> - AVIATION SAFETY</title>
<body><pre>[Senate Hearing 109-434]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-434
 
                            AVIATION SAFETY

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON AVIATION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                    U.S. GOVERNMENT PRINTING OFFICE
27-672                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                

                        SUBCOMMITTEE ON AVIATION

                    CONRAD BURNS, Montana, Chairman
TED STEVENS, Alaska                  JOHN D. ROCKEFELLER IV, West 
JOHN McCAIN, Arizona                     Virginia, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          BYRON L. DORGAN, North Dakota
OLYMPIA J. SNOWE, Maine              BARBARA BOXER, California
GORDON H. SMITH, Oregon              MARIA CANTWELL, Washington
JOHN ENSIGN, Nevada                  FRANK R. LAUTENBERG, New Jersey
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        E. BENJAMIN NELSON, Nebraska
JIM DeMINT, South Carolina           MARK PRYOR, Arkansas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 17, 2005................................     1
Statement of Senator Burns.......................................     1
Statement of Senator Lautenberg..................................     2
Statement of Senator Lott........................................     3
Statement of Senator Rockefeller.................................     4
    Prepared statement...........................................     4

                               Witnesses

Barimo, Basil J., Vice President, Operations and Safety, Air 
  Transport Association of America, Inc..........................    43
    Prepared statement...........................................    45
Blakey, Hon. Marion C., Administrator, Federal Aviation 
  Administration.................................................     5
    Prepared statement...........................................     7
Carr, John S., President, National Air Traffic Controllers 
  Association....................................................    37
    Prepared statement...........................................    39
Klein, Christian A., Legislative Counsel, Aeronautical Repair 
  Station Association............................................    52
    Prepared statement...........................................    54
Mead, Hon. Kenneth M., Inspector General, Department of 
  Transportation.................................................    11
    Prepared statement...........................................    16
Roach, Jr., Robert, General Vice President, Transportation 
  Department, International Association of Machinists and 
  Aerospace Workers..............................................    49
    Prepared statement...........................................    50

                                Appendix

Airline Pilots Association, prepared statement...................    84
Dillingham, Gerald L., Ph.D., Director, Physical Infrastructure 
  Issues, United States Government Accountability Office, 
  prepared statement.............................................    67
Response to written questions submitted to Hon. Marion C. Blakey 
  by:
    Hon. Daniel K. Inouye........................................    86
    Hon. Frank R. Lautenberg.....................................    90
    Hon. John D. Rockefeller IV..................................    88
    Hon. Gordon H. Smith.........................................    85


                            AVIATION SAFETY

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2005

                               U.S. Senate,
                          Subcommittee on Aviation,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Conrad Burns, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. We will call the Committee into session this 
morning. The hour is here, and I know we have other Members 
coming. The Ranking Member, Senator Rockefeller, will be here 
pretty shortly, I would imagine. And I appreciate Senator 
Lautenberg being here. And I think we can start with some of 
the opening statements and get on with the business at hand.
    It's needless to say, to this group of people, who have 
been around Washington for a while, that when you come to the 
end of a session, it becomes a bear. That's b-e-a-r. And so, I 
know we all have other places to be and other business to 
perform. And so, I appreciate your being here this morning.
    I'd like to thank the panel, also, everybody that will 
testify here today. We're conducting this oversight hearing to 
examine the most important mission of this Subcommittee and of 
the FAA, and, of course, that's aviation safety. We all, most 
of us here, fly almost daily, it seems like. When you live in 
Montana and work here, you feel like that you wear out 
airplanes and the seat of your britches. It's not like living 
here among the East-Coasters, where they don't have anywhere to 
go. But----
    [Laughter.]
    Senator Lautenberg. We do it quickly.
    Senator Burns. Yes, you do it quickly, that's right.
    Currently, the U.S. commercial aviation industry is 
experiencing the safest period in the history of aviation. For 
the past 3 years, the U.S. commercial aviation industry has had 
less than one fatal accident per five million flights. That's 
almost unbelievable. This is a staggering stat that I commend 
the Administrator that's here today and Administrator Blakey 
and her role and leadership in--at the FAA in past years. Every 
time you talk to the Administrator, I will tell you that safety 
is the number-one mission, and she's taken that very, very 
seriously.
    The safety workforce should also be commended for their 
hard work in making our skies safe. The FAA system is one of 
the layers, but it could not be effective without the 
coordination of many that are in the industry, including air 
traffic controllers, inspectors, manufacturers, repair 
stations, pilots, and many others.
    The industry, as a whole, takes great pride in its safety 
record, along with the products and services that it provides. 
Everyone involved knows the stakes, and the loss of even one 
life is too many.
    This is one area where there is always room for 
improvement, however. We learn by experience, and we try to 
apply those methods and new technologies to make sure that we 
stay where we are today.
    The public policy and economic necessity of public trust 
is--in flying--is essential to maintain the U.S. and global 
economy. Aviation is estimated to be a $1.4 trillion business 
globally. Here in the U.S. alone, more than 700 million people 
flew in 2004, with the number of passengers expected to reach 
one billion by the year of 2015.
    However, increased passenger levels, rapidly growing 
capacity demand, workforce challenges, aging air traffic 
control infrastructure and financial turmoil in the commercial 
airline industry will prove to be a challenge to the FAA and, 
of course, us here, as policymakers. We need to continue 
effective utilization of the safety workforce and the resources 
as we move forward.
    As in most any other industry, technology will play a key 
role in modernization of safety systems, but it is the 
institutional knowledge that many people bring to the table 
that is probably our best resource. Through improved runway 
detection systems to onboard avionics and satellite air-traffic 
systems, we expect our skies to become more efficient, and we 
expect them to be safer.
    So, I thank everyone for coming this morning. I welcome our 
witnesses, and I look forward to their testimony.
    Senator Lautenberg, thank you for coming this morning. And 
if you have a statement, we'd sure like to hear it.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. And I commend you 
for this timely review.
    One just needs to travel by air--and even though New Jersey 
is fairly close to Washington, we do try to fly. The problem is 
that very often we spend more time on the ground than we do in 
the air. And that's the kind of anomaly that tells us that 
we're very crowded in the skies. And, as the Administrator 
knows only too well, we've had to find new ways to accommodate 
the traffic. The sky is not infinite in terms of airspace, and 
it gets crowded, and we see all kinds of glitches when an 
airplane can land in a particular airport and find out that the 
gate's not available, or that you can't take off from one 
destination to go to another because it's already too crowded. 
So, these things describe the airspace capacity problem that we 
have to deal with.
    The deregulation of the industry back in 1978 set in motion 
the enormous changes that affect every air traveler. Airlines 
had been told what routes they could fly, and they were 
suddenly free to compete for passengers. Now, this competition 
led to a distinct advantage for travelers: lower prices. But as 
the airlines looked for new ways to be competitive and cut 
costs, every expense came under scrutiny, including maintenance 
and safety measures. And that was a mixed blessing for 
travelers.
    Many people are happy to forego the frills if it means 
saving money when they fly, but safety isn't a frill. And while 
it's OK to cut corners on meals and movies, it is not 
acceptable to skimp on aircraft maintenance. Things are well 
done, generally, in the industry, with few serious glitches, as 
our Chairman has noted, but we shouldn't count on luck.
    The National Transportation Safety Board reports that there 
were at least 325 near collisions last year, as they define 
them. That doesn't mean that they were wing to wing, but it 
does mean that the space was used almost too efficiently, in 
terms of the risk involved.
    Some of the Nation's busiest airports have recently 
reported an increased number of runway incursions; and the 
numbers on operational errors, 30 percent higher than last 
year. The question is, are these simply due to new reporting 
standards? The incidents have raised concerns about the FAA's 
air traffic control staffing levels and the proper deployment 
of technology. The FAA currently has a thousand fewer air 
traffic controllers than it did 2 years ago. And over the next 
decade, a wave of retirements is expected to significantly 
burden the air traffic controller workforce. So, I hope we'll 
be able to get an update today from FAA on the status of the 
new controller contract, to learn how that's going.
    Last, I'd like to know how so many airports can fail to 
meet the FAA standards for runway safety areas. I'm concerned 
that there are hundreds of major airports in our country 
without these adequate safety areas. Mr. Chairman, we all 
appreciate the competitive pressures in the airline industry, 
but the first obligation of a common carrier is to ensure safe 
flight. The duty must never be compromised on behalf of 
monetary gains. And we rely on the FAA to prevent such 
compromises.
    And so, I look forward to hearing from our witnesses. 
Welcome, the Administrator and Inspector General Mead, who 
we've seen many places on many subjects related to 
transportation. We look forward to hearing from you.
    Thanks, Mr. Chairman.
    Senator Burns. Thank you, Senator Lautenberg.
    And now, the former Chairman of this Subcommittee, Senator 
Lott.

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Thank you, Mr. Chairman. Thank you and the 
Ranking Member, for having this hearing.
    Obviously, aviation safety is very important, something 
we're all very much concerned about. I'm pleased that the 
record over the last 3 years has been pretty impressive, but I 
want to make sure it stays that way in the future.
    We've got two very good witnesses here in this first panel, 
and I'm looking forward to hearing from them again. Thank you 
for being here.
    Senator Burns. Thank you.
    And now the Ranking Member and good friend from West 
Virginia, Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. I would echo what others have said, 
and we can proceed.
    And good morning, to our witnesses.
    [The prepared statement of Sen. Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    I want to thank Chairman Burns for agreeing to hold this hearing 
this morning. Although my request was originally scheduled for last 
month, I think it is even more timely as we approach the busy holiday 
travel season and when millions of Americans will take the to air, our 
skies will be filled with planes, and the entire aviation system comes 
under extraordinary stress.
    As always. it is a pleasure to have Administrator Blakey before the 
Committee. I would like to thank our other witnesses for coming today 
as well. Mr. Chairman, I will be brief and I ask that my formal 
statement be submitted for the record.
    First, I want to state that I firmly believe that the United States 
has the safest and best air system in the world. I do not want to give 
anyone the impression that I believe it is unsafe to fly.
    However, given the increasing number of news stories about near 
misses on runways, inadequate radar facilities at major airports, and 
the public's general concern about the safety of bankrupt carriers, 
this hearing will provide an opportunity for our witnesses today to 
reassure people that we still have the safest aviation system in the 
world, but also outline our challenges for maintaining the highest 
level of safety possible.
    I am concerned that the quickly changing nature of the commercial 
aviation industry coupled with the FAA's declining level of resources 
threatens the agency's ability to maintain the necessary level of 
oversight of air carriers, foreign repair stations, and upgrade the 
existing safety infrastructure at our airports.
    Over the last several months, the aviation industry worldwide has 
had a number of fatal accidents. Although none of the tragic accidents 
have involved U.S. carriers or have occurred in the U.S., our aviation 
system has experienced a disturbing number of significant safety 
lapses. We have been able to avoid a tragic accident thus far, but if 
this trend continues. I believe that we may not be so fortunate in the 
future.
    As the Administrator will testify, the FAA is reporting a dramatic 
spike in the number of reported operational errors. We need to find out 
the reason for this increase and determine what steps must be taken to 
reduce these errors before a major accident occurs.
    I know that our witnesses may have very different explanations for 
this spike and who is to blame for it. but I hope our witnesses will 
offer constructive solutions rather than assigning blame. Our aviation 
system is fragile enough at the moment that we all need to be working 
together to make sure we maintain the world's finest aviation system 
rather than tearing one another apart.
    I am also very concerned regarding the aviation industry's trend of 
outsourcing major maintenance work to foreign countries where 
governmental oversight from both the home nation and FAA is weak or 
non-existent. I strongly believe that the Committee must review the 
evolving nature of the airline business to make sure decisions based on 
finances do not adversely affect safety.
    Compounding the industry's trend to outsource much of its 
significant maintenance work is the inability of the FAA to certify and 
closely monitor an ever increasing number of foreign repair stations. 
This is due mainly to a lack of resources. I am deeply concerned that 
the FAA is losing a number of its most senior safety inspectors and 
does not have the ability to replace them. This Committee. as it begins 
evaluating the future of the FAA, should be spending a considerable 
amount of its time making sure that the agency is able to meet its 
foremost mission--the safety of the traveling public.
    Thank you. I look forward to hearing from our panelists.

    Senator Burns. Well, we thank you. That's the shortest 
statement I think I've ever heard you put forth. Here it is 10 
minutes after the starting time, and we're ready for our 
witnesses. That has to be a record.
    [Laughter.]
    Senator Burns. We welcome, this morning, the Administrator 
of the FAA, the Honorable Marion Blakey. And I know the work 
that she's done. We talk in spaces, almost--in cyberspace, 
but--and we were supposed to have a little meeting, and I want 
to apologize to her for not making it. But, just like I said, 
this is--when you try to close down a session, it's easier said 
than done. And we appreciate you coming this morning and 
sharing your views on this oversight hearing.
    Thank you for coming. Look forward to your statement.

  STATEMENT OF HON. MARION C. BLAKEY, ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

    Ms. Blakey. Good morning. Thank you for having me----
    Senator Burns. Pull your microphone up.
    Ms. Blakey. Hit the button? Did that do it? There we are.
    Well, good morning, Chairman Burns, Senator Rockefeller, 
Senator Lautenberg. I'm delighted to be here before you and 
other Members of this Subcommittee to address some of the most 
important challenges we have in aviation. And those are on the 
safety front.
    Safety always, with the FAA, comes first. There is no Plan 
B. We strive to achieve the highest levels of safety for the 
traveling public, working in tandem with our stakeholders and 
the industry. And we now find ourselves in the safest period in 
the history of aviation. It's truly remarkable. The fatal-
accident rate for commercial aircraft is .017. Plain terms, 
that's one fatality for every 15 million flights. It's 
absolutely extraordinary.
    The challenge, however--the challenge is still before us. 
Over the years, most of the low-hanging fruit, from a forensics 
approach to accidents, is gone. We're now having to focus on 
what literally amounts to heading accidents off at the pass, 
anticipating what hasn't happened, and preventing it.
    It's a program called the Air Transportation Oversight 
System, ATOS, and it's paying real dividends. And we created 
ATOS back in 1998. And it goes beyond simply ensuring 
regulatory compliance. Instead, ATOS fosters a higher level of 
air-carrier safety using a systematic risk-management process 
to identify safety trends and prevent accidents. ATOS 
identifies and helps manage risks before they cause problems. 
With ATOS, carriers have safety standards that are built into 
their operating systems.
    Now, why does it work? Because the carrier's own oversight 
leverages the FAA's inspector workforce by reducing the 
likelihood of repeating inspections of the same aircraft, 
repeating inspections of the same function. Of course, 
inspectors step up whenever we see deficiencies that they've 
identified in previous inspections.
    The bottom line is that our inspectors develop safety 
surveillance plans for each carrier based on data analysis. 
They subsequently adjust these plans on a periodic basis, based 
on the risks that are identified.
    This is especially effective for financial difficulty. When 
air carriers find themselves in financial difficulty, that's 
when we really bore in.
    As the chart that I have just put here will illustrate, we 
are looking at our work, in this chart, on one of our airlines 
in which you can see that long before the triggering event of a 
bankruptcy occurred--and that's marked down there at the very 
end of the chart on those bar curves--but you're looking at 
inspections quarter by quarter, and you can see that the FAA, 
when certain kinds of triggers having to do with financial 
difficulty--whether it was changes in management, mergers, or 
takeovers, closing facilities; sometime we're looking at the 
question of lowering staff--when we see those triggers, we 
immediately step in and start ratcheting up the inspections. 
And you see it very clearly in this instance. I have another 
chart that shows another carrier, if you're interested in 
seeing this in more detail.
    But I think the main thing is to illustrate that we do 
focus our work where we believe the most risk is due to 
financial difficulty. And we look specifically at things we 
think are most important under those circumstances: training, 
quality assurance, quality control processes. These are all 
very critical.
    This approach has received high marks, I'm pleased to say, 
from not only the airlines themselves but the Department of 
Transportation's inspector general. Our new approach to 
oversight is a better way to make the best use of agency 
resources, as well as to improve safety.
    We agree that, by focusing on risk, the FAA can determine 
how well an airline is managing its processes and whether or 
not these processes are performing as designed to meet safety 
standards. In short, it's a better way to operate, it enhances 
safety, and the numbers prove it.
    You'll also be pleased to know that we're making similar 
advances with runway incursions. Now, let me state up front 
that these events are relatively rare. Our pilots, controllers, 
airport personnel do a wonderful job, and they're highly 
trained. But our goal, as always is to take what is 
statistically very safe and make it much safer still.
    As you know, our system handles 173,000 takeoffs and 
landings every day. From 2001 to 2004, there were 257 million 
takeoffs and landings. During that time, we had 1,395 runway 
incursions, a little more than five per million operations. 
Over that same period, the most serious type of runway 
incursions--we classify those as category A and B incursions--
they dropped from more than about--around 50 to less than 30 
per year. That's a reduction of about 40 percent in the most 
serious incursions.
    You'll also be pleased to know that we are deploying 
advanced technology. A newer warning system, called ASDE-X, the 
Airport Surface Detection Equipment Model X, uses state-of-the-
art oral and visual alarms to notify controllers of the 
potential for collision. It's already in place at four 
airports. We have plans to place it at another 31.
    We've also made significant strides in implementing a 
safety management system. Enhanced oversight of our own 
facilities led to an increase in the identification of 
operational errors. In 2005, we had 1,489 operational errors, 
compared to 1,149 in 2004. So, they were up. The most serious 
types of operational errors, category A and B, have also 
increased from 638, the previous year, to 680 in 2005.
    Now, the review and level of oversight we have applied is 
unprecedented, in terms of operational errors. We've issued a 
general notice instructing all air traffic control facilities 
to implement a incident audit process. We're conducting reviews 
of radar and voice data using playback tools to capture 
operational errors. To automate this review process, we are 
evaluating a software prototype that monitors radar data to 
determine whether aircraft separation standards are maintained. 
This detection technology will help to further ensure that 
operational errors are identified.
    Mr. Chairman, the bottom line is that better data will 
improve the way we manage safety.
    Beyond each of these steps, we're working diligently to 
increase the staffing in our controller and inspector 
workforces. We have 3,456 safety inspectors, which is about 150 
fewer than the previous year. This year, we plan to hire an 
additional 80 inspectors. And I'm pleased to say that action by 
the Senate and House Appropriations Committees indicates that 
we may be able to do better than that.
    On the air-traffic front, we've got 1,000--I'm sorry, we've 
got 14,540 controllers. Our plan this year is to hire an 
additional 1,249. Because of impending retirements, the goal of 
our long-range plan is to hire 12,500 controllers between 2004 
and 2014, a 10-year period. And I can tell you right now, it 
will be very important to hit those hiring targets.
    So, in closing, let me simply emphasize, we've been able to 
establish the safest aviation system in the history of the 
world. I'm confident we're going to continue to meet the 
challenges of increasing that safety.
    Thank you.
    [The prepared statement of Ms. Blakey follows:]

      Prepared Statement of Hon. Marion C. Blakey, Administrator, 
                    Federal Aviation Administration

    Chairman Burns, Senator Rockefeller, Members of the Subcommittee:
    I am pleased to appear before you today to discuss some of the 
Federal Aviation Administration's (FAA) many important safety 
initiatives and how they contribute to extending this unprecedented 
aviation safety record. In the United States, the three year average 
commercial accident rate is .017 accidents per 100,000 departures. To 
put that in more understandable terms, that accident rate is the 
equivalent of one fatal accident for every 15 million passenger 
carrying flights. This means that we are living in the safest period in 
aviation history. All of us who work for and with aviation safety 
professionals take pride in the results of our collective efforts, 
especially given the economic turbulence being experienced by U.S. 
carriers. But even as we recognize how safe it is to travel in 
commercial air transportation, we must look beyond to face the 
challenge of how to make the system safer. How can we continue to 
improve aviation safety as demand and complexity increase? We are 
facing record setting passenger numbers, new light jets, UAVs, . . . 
even space travel is not as far away as it once was. We cannot afford 
to rest on our laurels.
    Since it would be impossible for me to cover in any significant 
detail the extremely broad range of FAA safety initiatives, I will 
focus my remarks on two areas that I know are of interest to this 
Subcommittee, our oversight of aircraft maintenance and our efforts to 
reduce runway incursions. I think you will find our efforts in these 
areas to be innovative and effective.
    Over the last several years, FAA has changed the way we oversee 
aircraft maintenance. In the past, FAA's inspectors were required to 
complete a prescribed number of oversight activities focused on 
compliance with FAA regulations. In 1998, FAA began overseeing the ten 
largest airlines using the Air Transportation Oversight System (ATOS) 
model which goes beyond simply ensuring regulatory compliance. The goal 
of the oversight model is to foster a higher level of air carrier 
safety using a systematic, risk-management-based process to identify 
safety trends and prevent accidents. ATOS has improved safety because 
it identifies and helps manage risks before they cause problems by 
ensuring that carriers have safety standards built into their operating 
systems.
    This oversight approach leverages FAA's inspector workforce by 
reducing the likelihood of repeating inspections of the same aircraft 
or function, unless deficiencies were found in prior inspections of the 
aircraft or function. Our inspectors develop safety surveillance plans 
for each air carrier based on data analysis, and adjust plans 
periodically based on identified risks. For example, with so many of 
our legacy carriers in financial distress, FAA inspectors can adapt 
their surveillance plan to increase their focus on areas that might be 
at risk due to financial cut-backs, such as training, quality assurance 
and quality control processes, and to ensure that discrepancies 
reported by pilots are properly addressed. I know it is important to 
the Inspector General (IG) that our inspectors have the tools and 
information necessary to be flexible in our oversight of carriers as 
their financial and operational situation changes.
    I also know that the IG agrees with us that our new approach to 
oversight is a better way to make the best use of agency resources as 
well as to improve safety. We are currently moving all air carriers to 
this oversight system. In the interim, we created the Surveillance and 
Evaluation Program (SEP) to bridge between the old system--where 
inspectors went out and ``kicked the tires''--and this new oversight 
approach. SEP inspectors use data and risk analysis in targeting their 
inspections to areas within the air carrier's operation that pose a 
greater safety risk. Both inspection approaches use the Safety 
Performance Analysis System (SPAS), a computer based system that 
analyzes inspection and air carrier data to help inspectors identify 
safety problems. The IG would like to see us move more carriers more 
quickly from the interim inspection approach to the new approach, and 
we are working within our existing resources to do that.
    This change in oversight recognizes that FAA cannot be expected to 
provide quality control for every airline or effectively police 
millions of flights. The laws you passed and the regulations we 
implement all place the responsibility for safety on the airlines. 
FAA's role is an important one, and we see this new approach as making 
better use of our resources. By focusing on risk we can determine how 
well the airline is managing its processes and whether or not the 
processes are performing as designed to meet the safety standards. Our 
inspection tools are designed to collect data for these purposes. Our 
oversight systems engage air carriers in the management of their safety 
issues.
    I am very aware of your concern with U.S. carriers having more of 
their maintenance performed by repair stations, both foreign and 
domestic. Oversight of repair stations is a good example of why our 
current focus on risk management is preferable to compliance based 
oversight. We know FAA inspectors cannot oversee all maintenance 
performed on U.S. aircraft, but if some maintenance component is 
identified as a risk, our oversight focus would be triggered, 
regardless of who or where the maintenance is performed.
    That having been said, we continue to work to improve our process 
for targeting inspector resources for oversight of repair stations 
based on risk assessment or analysis of data collected on air carrier 
outsourcing practices. We are also working on improving our automated 
data basis to more thoroughly document repair station inspections in 
order to provide the most helpful guidance to our Flight Standards 
Field Office inspectors. I know our efforts in these areas have been 
identified by the IG as being very important. The intent of our current 
policy is to standardize repair station inspections to provide better 
consistency and thorough oversight. As we consider different models of 
repair station oversight, we are mindful that our goal is to obtain 
data that is useful in our ongoing risk analysis.
    I know there has been particular sensitivity to U.S. carriers' use 
of repair stations outside the U.S. The concern has been that such 
practices, done solely to reduce maintenance costs, could have 
unintended safety consequences. The reality is that FAA only 
certificates repair stations abroad if U.S. carriers want to use the 
repair station and if the station meets our certification standards. 
FAA performs periodic inspections of these foreign repair stations. In 
addition, many of them hold certificates from their own countries who 
also perform audits and inspections. In several countries where we have 
Bilateral Aviation Safety Agreements (BASA), we have outlined 
maintenance information procedures (MIP) to ensure that foreign 
inspectors are placing appropriate emphasis on the Federal Aviation 
Regulations when conducting reviews of work done on U.S. aircraft. In 
these countries, we rely on the oversight of the aviation authority in 
addition to our periodic inspections. We are also working to ensure 
that these foreign aviation authorities inform and seek FAA approval of 
changes to repair stations operations if they directly impact FAA 
requirements.
    It is also worth noting that a recent regulatory change has 
increased the accountability of all repair stations for maintenance 
that they contract out to third party providers. The repair station is 
required to be directly in charge of the work performed by third party 
providers and FAA now has the authority to inspect contract work 
performed for repair stations.
    I am confident that the changes we have made in our oversight 
philosophy and the work we continue to do with input and assistance 
from the aviation community, Congress, and the international community 
has contributed to this historically safe period of commercial aviation 
safety. Our safety oversight must keep pace with the industry as it 
changes and I think we are well positioned to accept that challenge.
    Turning to another of the FAA's top priorities, I would like to 
discuss agency efforts to reduce the number and risk of runway 
incursions. As outlined in the FAA Flight Plan 2006-2010, the FAA is 
developing a range of initiatives from airport design concepts to 
surface movement procedures. Related efforts address the errors 
committed by pilots, air traffic controllers, and airport-authorized 
vehicle operators and pedestrians. We have set performance targets and 
we are holding ourselves accountable for meeting those targets. We are 
working hard and making progress, but we are not there yet.
    Let me start with where we are today. The United States National 
Airspace System (NAS) has nearly 500 FAA and contract tower staffed 
airports that handle more than 176,000 aircraft operations--takeoffs 
and landings--a day, averaging approximately 64 million airport 
operations per year. Of the approximately 257 million aircraft 
operations at U.S. towered airports from FY 2001-2004, there were 1,395 
reported runway incursions. This translates into approximately 5.4 
runway incursions for every one million operations and less than one 
serious runway incursion for every one million operations. There were 
five collisions during this period, none of which resulted in a 
fatality. So when viewed in the context of the total number of 
operations, the number of incursions is low which means that further 
reducing the rate is quite a challenge, but a challenge we are 
undertaking.
    Because we are taking it seriously, the FAA reconstructs each 
runway incursion using the available information and plots the 
approximate location of each event on airport diagrams. During this 
exercise, we systematically categorize each runway incursion in terms 
of its severity. Severity Categories A through D (A being the most 
serious, D the least) consider factors such as the speed and 
performance characteristics of the aircraft involved, the proximity of 
one aircraft to another aircraft or vehicle, and the type and extent of 
any evasive action by those involved in the event. Aircraft involved in 
runway incursions are grouped into either commercial or general 
aviation operations. Incidents are further categorized into three error 
types: pilot deviations, operational errors/deviations, and vehicle/
pedestrian deviations. It is important to remember that runway 
incursions do not occur in a vacuum. The actions of pilots, air traffic 
controllers and vehicle drivers are intermingled and can significantly 
impact one another.
    We have made important progress over the last few years, especially 
in reducing serious Category A and B runway incursions by more than 40 
percent since FY 2001. In FY 2005, we had a total of 324 runway 
incursions. Twenty-nine of those were Category A and B incursions, 
which is less than 10 percent of the total. In terms of error types, 
there were 167 pilot deviations, 105 operational errors/deviations, and 
52 vehicle/pedestrian deviations. While pilot deviations are the most 
common type of runway incursion, they accounted for only 31 percent of 
serious incursions in the past fiscal year. Operational errors/
deviations, on the other hand, accounted for only 32 percent of total 
deviations, but 55 percent of serious deviations which represents a 
notable change in the distribution of runway incursion types with 
respect to severity. Unfortunately, in the last fiscal year we had 
three Category A runway incursions between two commercial jets, an 
event that had not occurred for the previous three years. These are the 
types of statistics our runway incursion safety team continuously 
analyzes in order to understand where our efforts will have the 
greatest impact in reducing risk.
    During their most wanted meeting, the National Transportation 
Safety Board (NTSB) highlighted the Category A incursion that took 
place at Boston Logan International Airport in which two commercial 
aircraft almost collided. We certainly share the NTSB's concern about 
this incident, so I would like to describe what we have done in 
response. We have imposed temporary procedural restrictions until such 
time as controllers receive additional training to result in improved 
coordination within the tower. Increased runway incursions at Logan are 
also attributable to construction on the airfield that has caused some 
pilots to inadvertently cross over a runway hold short line instead of 
stopping. We are improving taxiway centerline markings and surface-
painted holding position signs to better define hold short locations 
for pilots. We expect completion of this paint enhancement by mid-year 
2006. Further, in October we put together a ``Tiger Team'' to develop 
other short- mid- and long-term initiatives to further reduce risk on 
the airport surface. Additionally, we have developed a software 
enhancement to the Airport Movement Area Safety System (AMASS) that 
adds alert capability for intersecting runways. Installation at Logan 
was completed last week.
    FAA is also working closely with other airport sponsors to address 
runway incursions. Just last week, I met with the City of Los Angeles 
and discussed the chronic runway incursion problem at Los Angeles 
International Airport (LAX). Roughly 80 percent of runway incursions at 
LAX occur on the south side of the airport. It is important to note the 
current airfield layout was designed to accommodate jetliners that were 
in service over 40-years ago. The City's recently completed Master Plan 
for LAX identifies changes in the airfield layout to resolve this 
problem.
    On May 20, 2005, FAA issued its Record of Decision for the City's 
Master Plan. In August FAA issued a grant to the City for approximately 
$38.8 million for the relocation of the southern most runway and the 
addition of a new parallel taxiway at LAX. This project is expected to 
significantly reduce runway incursions at LAX. The City has an 
aggressive schedule to begin the project in January 2006 and complete 
it in about 26 months. We also stressed the importance of addressing 
runway incursions on the north side of LAX. The City plans to 
reconfigure the north airfield with a parallel taxiway as well to 
reduce runway incursions on that side of the airport. This project is 
currently scheduled to begin in six to eight years.
    Overall, we are taking a proactive approach to address operational 
vulnerabilities through awareness, education, procedures, airport 
infrastructure, and surface technology initiatives. The FAA has worked 
with external organizations, airport officials, and safety experts to 
increase surface safety awareness on a national level. We have 
developed and promoted runway safety training material in conjunction 
with organizations such as the Aircraft Owners and Pilots Association 
(AOPA) Air Safety Foundation. Efforts have included the creation of an 
interactive Web-based program to inform pilots about preventing runway 
incursions. The program, accessible from both the FAA and AOPA 
websites, provides an introduction to runway incursion risk, 
information about airfield signs and markings, and strategies for 
enhanced position awareness and improved cockpit management. Throughout 
the program, various quizzes, tasks, and information visualization 
tools offer an interactive learning experience. Since its inception, an 
average of 1,800 pilots a month have completed the training program.
    We have also created a brochure, Runway Safety--A Pilot's Guide to 
Safe Surface Operations which highlights the importance of pre-taxi 
planning and properly identifying aircraft signs and markings. Over 
500,000 brochures have been distributed to pilots through the AOPA 
magazine, AOPA Pilot and in a direct mailing to certified flight 
instructors and designated pilot examiners to supplement their training 
materials. Additionally, we collaborated with famed aerobatic pilot 
Patty Wagstaff and influential aviator Dick Rutan to produce 
educational DVDs. These DVDs review the fundamentals of airport 
operations through a series of common sense rules and standard 
communication procedures. Since the first DVD, Heads Up, Hold Short, 
Fly Right was released last year, flight instructors and pilots alike 
have consistently praised it. We believe the second film, Listen Up, 
Read Back, Fly Right, will merit the same response. Producing effective 
resource materials is a vital part of our continued outreach.
    In addition to the work we are doing with Boston Logan and LAX, we 
have identified what we refer to as the Focus-35 airports, those 
airports that reported the most runway incursions from FY 2001 to 2004. 
For example, of those 35 airports, 30 airports reported more than 10 
runway incursions during the four-year period. During that period, the 
Focus-35 airports handled 20 percent of all NAS operations yet 
accounted for 41 percent of all runway incursions (565). Through 
airport infrastructure and safety management programs, some of these 
airports have successfully reduced the number of runway incursions in 
the last year or two. The Focus-35 airports accounted for 39 percent of 
the Category A and B runway incursions. However, the number of such 
incursions decreased by 71 percent, from 24 to seven, from FY 2001 to 
2004. Continued implementation of risk mitigation strategies at the 
Focus-35 airports offers the most immediate opportunity to continue to 
reduce the severity, number, and rate of runway incursions in the NAS.
    As presented in the FAA Flight Plan 2006-2010, the FAA's 
performance target is to reduce the number of Category A and B runway 
incursions to an annual rate of no more than 0.450 per million 
operations by FY 2010. Analysis of the trend of runway incursions from 
2001 through 2004, shows that the rate of reduction flattened, 
suggesting that the runway safety management strategies that have been 
implemented early in that period had achieved their maximum effect. 
Therefore, in order to achieve our stated targets, the FAA must 
identify new strategies and re-prioritize their application.
    That is why we are currently deploying a newer warning system 
called Airport Surface Detection Equipment-Model X (ASDE-X) to further 
enhance safety and improve ``error tolerance''--as human error is 
inevitable. ASDE-X capabilities will be added to some of the sites that 
already have AMASS, as well as being deployed to additional busy 
airports. The FAA is also evaluating Runway Status Lights, an automatic 
system designed to improve the situational awareness of pilots and 
vehicle drivers through visual alerts. Red in-pavement runway entrance 
lights are illuminated if the runway is unsafe for entry or crossing, 
and red in-pavement takeoff hold lights are illuminated if the runway 
is unsafe for departure. The operational evaluation of runway entrance 
lights using ASDE-X surface surveillance occurred at Dallas/Ft. Worth 
International Airport and the system showed promising initial results. 
The lights were compatible with the tempo and style of operations at a 
busy airport, there was no increase in air traffic controller workload, 
and the lights proved useful to pilots. In the future, Runway Status 
Lights could help mitigate runway incursions like the one at Boston 
Logan to which I referred. Unfortunately, this program is still in the 
research and development stage and will not be ready for fielding for 
several years. Another effort worth mentioning is a change to the 
airfield paint markings standard for taxiway centerlines at 72 large 
airports, based on enplanements. We are requiring the new markings as 
another proactive way to alert pilots when they are approaching hold 
short lines so they do not inadvertently enter a runway without 
authorization. We will continue to pioneer work that offers the 
greatest opportunity for improving NAS-wide runway safety.
    Mr. Chairman, the FAA's commitment to improving safety and 
extending the excellent safety record we are currently experiencing is 
our number one priority. I hope some of what I have shared with you 
today exemplifies that commitment. Of course, as I stated at the 
outset, FAA is involved in hundreds of important safety initiatives and 
what I have highlighted represents only a small fraction of what we are 
doing and what has contributed to today's impressive safety record. So, 
while this concludes my prepared statement, I will be happy to answer 
your questions on any of our important safety initiatives.

    Senator Burns. Thank you.
    And we'll now hear from the Honorable Kenneth Mead, 
Inspector General, United States Department of Transportation. 
Thank you for coming today.

     STATEMENT OF HON. KENNETH M. MEAD, INSPECTOR GENERAL, 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Mead. Thank you, Mr. Chairman, Administrator Blakey.
    I'm glad you're having this hearing today. It's been a 
while since we've had a hearing anywhere in the Congress on 
aviation safety. So, I think the Committee is to be commended.
    Everything I say today is against a backdrop of the 
recognition that we have the safest aviation system in the 
world. We all want to keep it that way.
    It's been 4 years since we've had a large commercial fatal 
accident in this country. The same can't be said 
internationally. There actually have been six foreign air-
carrier-hull losses since August, 586 fatalities there.
    General aviation is an area--domestic general aviation is 
an area where I'd like to see the numbers come down. It's about 
600 fatalities a year, give or take. And just as a frame of 
reference, in grade-crossing accidents in this country, the 
fatalities are way down, 368 a year. And not too many years 
ago, they were up in the 600 neighborhood.
    So, why the safety record? Why the good safety record in 
the commercial area? I think newer aircraft, better technology, 
overlapping safety systems, improved procedures all play a role 
in what I think is a remarkable record. Also, without question, 
FAA's oversight and air-carrier internal controls that they've 
put in place have been factors. But I think everybody knows 
there's a sea change occurring in this industry. Actually, it's 
already occurred, and there are more changes afoot.
    Some of the metrics: network carriers have reduced their 
in-house maintenance staff, renegotiated or vacated labor 
agreements, and increased use of outside repair facilities. 
This is occurring at a time where both operations and 
enplanements are back to, or exceeding year 2000 levels. I 
mention the year 2000; that's commonly known as the year of 
gridlock. That was the highwater mark.
    There are four safety areas I'd like to speak to. One, 
Administrator Blakey, I thought, did a good job, describing 
these--advancing risk-based systems for inspecting air 
carriers. Two, strengthening oversight of repair stations. 
Three, reducing collision risks in the air and on the ground. 
And, four, I'd like to highlight a couple of emerging issues 
that I believe you should be aware of.
    First, advancing risk-based systems. The fact is, you're 
never going to have enough FAA inspectors to inspect every 
airline, inspect every aircraft, as often as you would like. 
So, beginning in about 1998, that timeframe, FAA introduced the 
Air Transportation Oversight System. The acronym for that is 
ATOS. The design of this system is very, very sound. ATOS 
essentially requires the inspectors to use computers and data 
analysis to focus their inspections on the highest-risk areas. 
And that should help in targeting resources to the areas of 
risk.
    These inspectors, I think, are spread thin. FAA has come a 
very long way in this new oversight approach. The system, 
though, is not yet at an end state. In June of this year, we 
reported that inspectors had some difficulties in using the new 
system to respond to the changes network carriers were making.
    Some examples: inspectors didn't complete 26 percent of 
their planned inspections; half of those inspections were in 
areas that the inspectors themselves had designated as areas of 
high risk.
    In another instance, the third-largest carrier in the world 
cut its staff by about 14,000 employees, and the inspectors 
didn't know in which departments or locations those cuts 
occurred.
    So, I don't take any issue with this chart. I just mention 
these examples to show that we have a ways to go before we're 
going to be anything approaching an end state.
    ATOS is really a cultural change for inspectors. They 
weren't accustomed to using computers, entering their findings 
in a computer database, or using data analysis to find safety 
problems. So, that was a pretty big change for them.
    We got involved along with FAA in a review of Northwest 
Airlines, and I think that situation showed that FAA does have 
a ways to go in implementing ATOS. During the strike, the FAA 
inspectors stopped using ATOS, essentially. They had several 
ATOS protocols of about ten pages each. Those were put aside in 
favor of a one-page checklist by the certificate office manager 
there. And he said he did that because he thought it would be 
faster and it would capture the data more specifically. And I 
think that suggests that there are further refinements needed 
to ATOS. FAA more than recognizes this. They've committed to 
making a number of improvements this year. And they're to be 
commended for that. The key is going to be follow-through.
    Second, repair stations. A lot of attention is focused on 
this issue. I think you know air carriers have significantly 
increased the use of outside repair stations to reduce their 
costs. You have a handout, the one with yellow and red bars. 
It's on page 5 of my prepared statement. And if you look at 
this chart, what it shows is that air carriers have lowered 
their overall maintenance costs fairly substantially. But it 
also shows an upward trend in the percentage of outsourced 
maintenance expense from about 37 percent, 10 years ago, to 
about 54 percent in 2004. And I think you can expect that trend 
to continue for a while.
    That increased use, though, is not really the issue. I 
think the issue is that maintenance, wherever it's done--
whether it's done in-house or whether it's done at a repair 
station or a third-party repair facility--it still requires 
oversight. In July of 2003, we reported that FAA's oversight 
hadn't shifted to where the maintenance was actually being 
done. Instead, inspectors continued to focus on in-house 
maintenance.
    For example, inspectors completed about 400 inspections of 
in-house maintenance at one air carrier, but only seven 
inspections of repair stations. And that occurred, even though 
that airline had contracted out nearly half of its maintenance 
during that year.
    Also, there are two different groups that do repair-station 
oversight. One group does oversight of the major air carriers, 
but their reviews of the repair stations' activity with respect 
to their carrier were infrequent. They didn't visit the repair 
station that often. And when they did visit the repair station, 
their work was limited, of course, to the work that was done on 
their particular carrier's aircraft.
    There's a second group that is directly responsible for 
oversight of various types of aviation operators located within 
their region. And that includes repair stations. But their 
workload is, to understate things, extensive. For example, one 
inspector was responsible for oversight of 21 repair stations, 
21 agricultural operators, 12 service-for-hire operators, three 
general aviation operators, two helicopter operations, and one 
maintenance school.
    We also found that 138 FAA-certificated repair stations in 
France, Germany, and Ireland weren't inspected at all by FAA. 
In those cases, FAA was relying on the civil aviation authority 
in those countries to do the inspections. We looked at the 
inspection files of the repair stations in these countries, in 
a lot of cases, we couldn't make hide nor hair of them. Part of 
the reason for that was, they were in a foreign language.
    In July of 2003, we recommended improvements to FAA's 
oversight of repair stations, including identifying repair 
stations used for critical maintenance and targeting 
surveillance based on risk assessment. FAA is working on these. 
It's going to take a while. Initially, the FAA thought they 
could complete the recommendations by 2005, by the end of this 
year. And they've slipped that to 2007. So, there's a lot of 
work to do there.
    The third area I'd like to cover is reducing collision 
risks in the air and on the ground. Two primary indicators of 
system safety are runway incursions--those that present 
potential collision risks on the ground; and operational 
errors, which present potential collision risks in the air. 
From 1998 to 2001, runway incursions were increasing at 
alarming levels. I testified numerous times before this 
Committee about that. It was getting very, very scary.
    To its credit, FAA took some decisive action in this area, 
and runway incursions are now down significantly, from a high 
of 407 in 2001, to 324 in 2005. Still too high, but there's 
been quite a bit of progress there.
    In July of this year, at JFK, two aircraft missed one 
another by less than 100 feet. I saw a video of a computer 
replication of this yesterday. This is truly pretty scary. One 
commercial airliner mistakenly crossed a runway as a cargo jet 
was just taking off on that same runway, and they came within 
100 feet of each other.
    The Administrator spoke about FAA's plans for implementing 
ASDE-X at major airports. ASDE-X should help controllers 
identify potential collisions. Essentially, what it does is, it 
not only has a display of the runway, so you can visually see 
where the different objects are that could pose a potential 
collision risk on the runway, but it also will provide audible 
alerts to the controllers that they can rely on. One reason FAA 
is fielding ASDE-X is because the existing system is most 
problematic in bad weather. They give out false alarms to the 
controllers, and sometimes the controllers find it necessary to 
turn off that feature of it. Well, ASDE-X should take care of 
that.
    It's still important to point out--you'll hear something 
from NTSB on this issue--that the technology that's being 
fielded will not alert the pilot. It will alert the controller. 
NTSB feels that the pilot should be notified, as well, 
automatically. And that's because a lot of these runway 
incursions are pilot deviations.
    FAA has reduced the runway incursions. It hasn't had the 
same success with operational errors. This past year, there 
were almost 1,500 operational errors. That was up from 1,150 in 
2004, and that is the highest number of reported--and I 
underscore ``reported''--errors in the last 6 years.
    FAA gradates these errors into different categories, 
running from one that does not produce significant risk to one 
that is very serious. There are 73 of these errors that were 
classified as serious incidents this past year, compared to 
only 40 last year.
    Now, these operational errors, especially the serious ones, 
are cause for concern. But I have to urge all of you to 
exercise caution before drawing year-over-year comparisons. I 
used the word ``reported.'' And I used it on purpose--our 
office has done a number of audits and investigations and we've 
seen evidence that a lot of these prior-year numbers were 
subject to gross under-reporting and, in some cases, 
systematically and intentionally ignored. Recent investigations 
by our office, as well as FAA, found multiple instances of 
unreported operational errors.
    Example: At Dallas/Fort Worth TRACON, we found operational 
errors were systematically ignored--some might go as far as to 
say ``covered up''--as a result of local management policy.
    Prior to our investigation, for example, the facility 
reported just two operational errors during the six-month 
period running from January 1st to the end of June of 2004. 
After instituting appropriate use of playback tools, like 
radar, the facility reported 36 operational errors during the 
next six months.
    At the New York TRACON--you've heard a lot about that--FAA 
undertook an investigation in response to a rash of hotline 
allegations that identified 147 unreported operational errors 
during a two-month period alone. The number of reported 
operational errors for the New York TRACON increased from 24 
reported ones in Fiscal Year 2004, to 233 in 2005.
    We're of the view that--again, I caution year-over-year 
comparisons--I think FAA is taking corrective action. They now 
require towers and TRACONs to conduct random audits, as 
Administrator Blakey pointed out. And we know that at Dallas/
Fort Worth and the New York facility, those actions are having 
a real effect.
    Once FAA is sure the operational errors are being 
accurately reported at all of its facilities, they'll have a 
good baseline with which to compare. But there's one additional 
major step that FAA is going to have to take. FAA needs 
accurate, reliable staffing numbers for each of its air-traffic 
facilities. They've got over 300 of them. We need a number for 
each one of those facilities as to what will constitute, in 
FAA's judgment, adequate staffing. We don't just need a system-
wide number. Why is that? I think you know that there's a very 
substantial issue between the controllers and FAA. The 
controllers feel they're understaffed. They point to the New 
York TRACON facility, for example. They said, ``Well, one 
reason these operational errors are going up is because we 
don't have enough staff.'' This isn't the right forum to 
discuss the staffing at the New York TRACON, but FAA does need 
to come up with a number that it's prepared to stand behind as 
to the number of staff that it feels are needed there.
    I'd like to close by mentioning a couple of emerging issues 
that you'll hear more about, I think, as early as mid next 
year.
    First are microjets. Microjets are small, ``affordable,'' 
aircraft with a price tag of about $1-1.2 million apiece. The 
next comparable model up on the market is about $6 million. FAA 
is forecasting that there could well be 4,500 microjets in the 
air in less than 10 years. Frame of reference? Today, there are 
13,000 jets in operation. That's a fairly substantial increase. 
These things are very small. They're going to be sharing the 
air--same airspace as commercial jetliners.
    The second one is fractional aircraft ownership. This is 
where a number of people, sometimes as many as eight/ten 
people, own the plane. I think there are some questions as to 
how you hold eight to ten people accountable for safety 
problems.
    Finally, Administrator Blakey alluded to FAA's inspector 
staffing. I'd just like to say that we see, on national TV, 
there's a lot of attention paid to hiring the controller 
workforce, preparing for all this attrition. But there's the 
inspector workforce out there, too. And I have attached a 
chart. The second chart in your package there shows that we've 
gone from 3,400 field inspectors in 2003 to 3,200 in 2005. 
Administrator Blakey pointed it out, and both the House and 
Senate marks are restoring funding to increase that number by 
80 or 90, maybe a bit more. But let's not lose sight of the 
need to adequately staff the inspector workforce, as well.
    Thank you.
    [The prepared statement of Mr. Mead follows:]

    Prepared Statement of Hon. Kenneth M. Mead, Inspector General, 
                      Department of Transportation

    Mr. Chairman and Members of the Subcommittee,
    We appreciate the opportunity to testify on the safety of the U.S. 
aviation system--the safest aviation system in the world. Our statement 
today is based on a number of previous reports and investigations as 
well as ongoing work. Overall, our work shows there is a sea change 
occurring in the industry that has important implications for the 
Federal Aviation Administration's (FAA) safety oversight. A common 
thread needed to improve the effectiveness of FAA's safety oversight 
programs is better collection and use of safety data. Today, I would 
like to discuss four areas that are important to enhance the margin of 
safety and make a safe system even safer:

  <bullet> Advancing risk-based systems for safety oversight to 
        identify potential safety risks at air carriers experiencing 
        major change, such as financial distress or growth;

  <bullet> Following through on commitments to improve oversight of 
        domestic and foreign repair stations by identifying trends and 
        effectively targeting FAA's surveillance resources;

  <bullet> Reducing collision risks and improving operational error 
        reporting systems to ensure the Agency has accurate data on the 
        number and causes of these incidents; and

  <bullet> Addressing emerging issues, such as preparing for the 
        introduction of microjets and ensuring that staffing levels for 
        aviation safety inspectors are adequate.

    At the outset, it is important to recognize that FAA and the 
aviation industry continue to maintain the safest aviation system in 
the world. We have not experienced a large commercial air carrier fatal 
accident in 4 years. The last fatal accident was the January 2003 crash 
of an aircraft operated by a small passenger air carrier, Air Midwest. 
General aviation accidents are also a concern. Although the number of 
general aviation accidents has declined slightly over the last few 
years, the number is still too high--in 2004 there were 1,614 general 
aviation accidents that resulted in 556 fatalities. \1\
---------------------------------------------------------------------------
    \1\ Based on National Transportation Safety Board data.
---------------------------------------------------------------------------
    Internationally, there has been a series of aircraft accidents--
since August there have been 6 accidents in other countries that 
resulted in 586 fatalities. FAA is to be commended for its efforts on 
the international front. Safety is a global issue and FAA recently held 
its second annual International Aviation Safety Conference to focus on 
the increasingly global nature of the aviation industry.
    The safety record of U.S. commercial air carriers is remarkable 
given all the changes that have occurred in the industry, including 
financial uncertainty, competition from low-cost carriers, and 
rebounding air traffic. Both enplanements and operations are close to 
or exceeding their high-water mark of 2000 levels. Enplanements in 2004 
were 698.7 million, roughly 250,000 short of 2000 enplanements. Flight 
operations for the first 10 months of 2005 exceeded flight operations 
during the same period of 2000 by 3 percent.
    Along with the growth in operations, passenger demand for lower air 
fares have resulted in a shift in market share. Network air carriers, 
who once dominated the market, have lost almost $40 billion since 2001. 
As the following chart shows, these carriers have seen their market 
share substantially reduced.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We now have a very different and still evolving aviation 
environment. Currently, eight commercial air carriers are in 
bankruptcy--35 percent of available capacity. Network carriers are 
working aggressively to move away from high-cost structures by reducing 
in-house staff, renegotiating labor agreements, and increasing the use 
of outside repair facilities.
    Despite these changes, the aviation system has remained safe--we 
all want to keep it that way. There are several possible reasons for 
this safety record, and they include newer aircraft with better 
technology, improved procedures, redundant systems, and better flight 
monitoring processes, such as flight operational quality assurance 
systems. Without question, credit must also be given to FAA's oversight 
efforts, as well as internal controls air carriers have put in place 
over the years. Nevertheless, our work has shown that FAA needs to take 
additional steps to improve its risk-based systems and keep pace with 
current and anticipated changes in the industry.
    Now, let me turn to the four key areas I would like to discuss this 
morning.
Advancing Risk-Based Systems for Safety Oversight
    In 1998, FAA introduced the Air Transportation Oversight System 
(ATOS). We have always supported ATOS--the essential design of the 
system is sound. ATOS requires FAA inspectors to use data analysis to 
focus their inspections on areas that pose the greatest safety risk and 
to shift the focus of those inspections in response to changing 
conditions within air carriers' operations. If used properly, ATOS 
should allow FAA to be nimble in deploying its resources to the areas 
of greatest risk. This is key because there will never be enough 
inspectors to inspect every aircraft.
    ATOS was a major cultural change for inspectors who were not 
accustomed to relying on data analysis to find safety problems. The 
former oversight system did not promote effective use of resources--
inspectors were required to perform a specified number of inspections 
rather than identifying and focusing limited resources on the most 
critical risks.
    Today, FAA uses ATOS for oversight of 17 air carriers. The 
remaining 110 air carriers are under a system that is designed to be a 
bridge between the old and new oversight systems until ATOS is used for 
all air carriers. This interim system combines FAA's old system with 
some of the data and risk analysis elements of ATOS.
    In April 2002, we reported \2\ that ATOS was conceptually sound, 
but improvements were needed to ensure the system was fully 
implemented. FAA agreed and took steps to complete the last two parts 
of ATOS: the processes for analyzing inspections and following up on 
problems inspectors identified. FAA also provided training to its 
inspectors on how to better evaluate air carriers' systems using ATOS.
---------------------------------------------------------------------------
    \2\ Report Number AV-2002-088, ``Air Transportation Oversight 
System,'' April 8, 2002.
---------------------------------------------------------------------------
    Earlier this year, we reported \3\ that the magnitude of changes 
air carriers are making and the rapid pace at which they are occurring 
presented challenges for FAA's oversight systems. FAA has come a long 
way in its new oversight approaches, but the systems are not at an end 
state. Inspectors had difficulties using FAA's risk-based oversight 
systems to respond to the changes network carriers were making to 
reduce costs. For example, FAA inspectors did not complete 26 percent 
of their planned inspections when air carriers were at the height of 
streamlining operations and reducing costs. This is neither an adequate 
response to these changes nor reflective of a more agile approach, 
given that more than half of the inspections that were not completed 
were in areas where inspectors had identified risks.
---------------------------------------------------------------------------
    \3\ Report Number AV-2005-062, ``Safety Oversight of an Air Carrier 
Industry in Transition,'' June 3, 2005.
---------------------------------------------------------------------------
    For example, FAA inspectors for a network air carrier that had 
filed bankruptcy and laid off a number of its mechanics determined that 
there might be a risk in the qualifications of remaining maintenance 
personnel. Despite this determination, inspectors did not finish 
inspections that had been planned as a result of the risks they had 
previously identified. Ten months later, they found out that mechanics 
at two of the air carriers' maintenance facilities had been making 
repairs on parts that they were not qualified to perform.
    Recent events during the mechanics strike at Northwest Airlines 
underscore the need for FAA to strengthen the flexibility and 
comprehensiveness of its oversight system. FAA inspectors abandoned 
ATOS in favor of another checklist they believed could be used to 
quickly gather the information needed to identify risks associated with 
the strike. The FAA office manager told us the ATOS inspection 
checklists were not specific enough to capture the data they needed. In 
addition, he believed parts of the ATOS process, such as evaluating 
data quality, would be too time-consuming. This suggests to us that FAA 
needs to further refine its oversight system, so that inspectors gain 
confidence in using ATOS when responding to major air carrier changes.
    FAA's practice of shifting resources for increased surveillance at 
bankrupt carriers may not be a viable option, given the number of 
carriers now in bankruptcy. The current state of the industry makes it 
imperative that FAA improve its risk-based oversight system so 
inspectors focus their efforts on areas of greatest risk. FAA 
recognizes this and, in response to our June 2005 report, committed to 
take the following actions during FY 2006:

  <bullet> Strengthen the role of its national ATOS program office, 
        provide data analysis assistance to field offices, and improve 
        field office managers' oversight of risk assessment and 
        inspection planning processes;

  <bullet> Develop procedures to ensure inspectors are continually 
        monitoring the effects of industry changes, such as financial 
        distress and air carrier growth; and

  <bullet> Ensure that inspections are prioritized so high-risk areas 
        are inspected before lower-risk areas and that inspectors are 
        able to effectively change inspection plans when new risks are 
        identified.

    We also encouraged FAA to establish a schedule for transitioning 
the remaining carriers to ATOS. FAA plans to complete this process by 
the end of FY 2007.
Following Through on Commitments To Improve Oversight of Repair 
        Stations
    Mr. Chairman, FAA also needs to follow through on its commitment to 
improve its oversight of the use of contract maintenance facilities.
    Increasing the use of contract maintenance facilities (i.e., repair 
stations) to complete aircraft maintenance has been a prominent aspect 
of air carrier efforts to restructure their operations and reduce 
costs. The transition to increased use of outside repair facilities is 
not the issue--it is that maintenance, wherever it is done, requires 
oversight. The following chart illustrates that air carriers have 
lowered their maintenance costs, most likely as a result of their focus 
on controlling costs. It also shows the upward trend in the percentage 
of use of outside repair facilities.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In July 2003, we reported \4\ that FAA's oversight had not shifted 
to where the maintenance was actually performed--rather it remained 
focused on air carriers' in-house maintenance procedures. For example, 
inspectors for 1 air carrier completed 400 inspections of in-house 
maintenance operations 1 year while only completing 7 inspections of 
repair stations--but this air carrier contracted out nearly half of its 
maintenance that year.
---------------------------------------------------------------------------
    \4\ Report Number AV-2003-047, ``Air Carriers' Use of Aircraft 
Repair Stations,'' July 8, 2003.
---------------------------------------------------------------------------
    We also found that two different groups of inspectors performed 
repair station oversight, but neither group performed comprehensive 
repair station inspections. One group was responsible for oversight of 
major air carriers' operations and maintenance activities. These 
inspectors conducted reviews of repair stations used by their assigned 
air carrier; however, the number of repair station inspections was 
limited and the visits infrequent. In addition, this group of 
inspectors only reviewed the work the repair station completed for 
their air carrier--they did not assess the entire repair station 
operation.
    FAA has a second group of inspectors that is responsible for 
oversight of various types of aviation operators located within their 
region--including repair stations. Although they have primary 
responsibility for repair station oversight, they are only required to 
perform one inspection per year. Due to their workload, we found that 
these inspectors spent a limited amount of time on repair station 
surveillance. For example,

        --One inspector was responsible for oversight of 21 repair 
        stations, 21 agricultural operators, 12 service-for-hire 
        operators, 3 general aviation operators, 2 helicopter 
        operations, and 1 maintenance school.

        --Another inspector was responsible for oversight of 32 
        agricultural operators, 19 repair stations, 7 on-demand 
        operators, 2 helicopter operators, and 1 maintenance school.

    When the two groups of inspectors did perform surveillance at the 
same repair station, they frequently did not share the inspection 
results with each other. This was due in part to the fact that these 
inspectors were located in separate offices and used two separate 
inspection data bases.
    In addition, we found that 138 FAA-certificated repair stations in 
France, Germany, and Ireland were not inspected by FAA at all because 
the civil aviation authorities in these countries reviewed these 
facilities for FAA. Yet, FAA had not developed an adequate system to 
monitor this surveillance to ensure FAA-certificated foreign repair 
stations continued to meet FAA standards. For example, foreign 
inspectors did not provide FAA with enough information to understand 
the results of their inspections--14 of the 16 inspection files we 
reviewed were incomplete or incomprehensible (many were written in a 
foreign language).
    In July 2003, we recommended several improvements to FAA's 
oversight of repair stations, such as: (1) identifying repair stations 
used for critical maintenance; (2) targeting surveillance based on risk 
assessments; (3) implementing data-sharing mechanisms for FAA 
inspectors; (4) developing a more standardized, comprehensive approach 
to oversight; and (5) implementing new procedures for monitoring the 
oversight conducted by foreign authorities on FAA's behalf. FAA agreed 
to develop a new risk-based oversight process for repair stations that 
would make their inspections more consistent and comprehensive. FAA 
also agreed to develop procedures to improve its oversight of repair 
station inspections performed by other aviation authorities. FAA 
committed to implement these actions in FY 2005.
    However, in July 2005, \5\ when we checked the status of FAA's 
efforts in implementing these recommendations, we found that FAA's 
progress had been slow. Specifically, we found that FAA's planned 
implementation dates have now slipped to FY 2007.
---------------------------------------------------------------------------
    \5\ Letter to Ranking Member, Committee on Transportation and 
Infrastructure, on the status of repair station recommendations, 
Control Correspondence Number 2005-035, July 27, 2005.
---------------------------------------------------------------------------
    A key part of the work that remains is the completion of its new 
risk-based oversight system for repair stations. FAA has developed the 
framework for this system--which is a good first step--but still needs 
to train its inspectors and develop new software for data analysis 
capabilities. FAA needs to expedite improvements to its process for 
oversight of repair stations, especially given the continued trend in 
air carriers shifting maintenance to outside repair facilities.
    A portion of the maintenance that is being contracted out is being 
performed by repair facilities that have not been certificated by FAA, 
meaning FAA has not verified that they have the staff, facilities, or 
equipment to perform the work. At the request of the Ranking Member, 
Committee on Transportation and Infrastructure, we are conducting a 
review of air carriers' use of non-certificated repair facilities. We 
plan to issue a report on this matter later this year.
    FAA must follow through on the commitments it made in response to 
our reports and advance its risk-based oversight systems for air 
carriers and repair stations, particularly in light of the magnitude of 
changes in the aviation industry and the pace at which they are 
occurring. Aircraft maintenance, no matter where it is performed, 
requires oversight. FAA must ensure it is shifting its resources toward 
the organizations actually performing the maintenance.
    Now, I would like to shift gears and talk about two other safety 
indicators with respect to the air traffic control system.

Reducing Collision Risks and Improving Operational Error Reporting 
        Systems
    Two primary indicators of system safety are runway incursions 
(potential collisions on the ground) and operational errors (potential 
collisions in the air). Reducing these incidents are key performance 
goals for FAA that require heightened attention at all levels of the 
Agency.
    With the rebound in traffic comes the increased potential for 
collision errors. From 1998 to 2001, we reported that runway incursions 
were increasing at alarming levels. To its credit, FAA took decisive 
action--it established regional runway safety offices, conducted 
numerous safety evaluations at problem airports, initiated aggressive 
educational programs for pilots, and implemented technologies at major 
airports that alert controllers of potential runway accidents. As shown 
in the charts below, the total number of runway incursions decreased 
from a high of 407 in FY 2001 to 324 in FY 2005, and the most serious 
incidents have decreased from a high of 69 in FY 1999 to 29 in FY 2005.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    However, serious runway incursions still occur today. Recent runway 
incidents at several large airports have highlighted the potential 
safety risks associated with runway incursions. For example, in July 
2005 at John F. Kennedy International Airport (JFK), two aircraft 
missed one another by less than 100 feet when a commercial airliner 
mistakenly crossed a runway as a cargo jet was departing the same 
runway.
    FAA has a system, known as the Airport Movement Area Safety System 
(AMASS), \6\ that provides audible alerts to controllers of potential 
runway collisions. However, during heavy rain storms, AMASS can produce 
false alerts. When the serious runway incursion occurred at JFK, heavy 
rain storms were occurring at the airport and AMASS' alert function was 
not operational.
---------------------------------------------------------------------------
    \6\ AMASS is installed at the 34 busiest airports in the U.S.
---------------------------------------------------------------------------
    FAA has recognized the shortcomings of AMASS and is installing new 
equipment called the Airport Surface Detection Equipment--Model X 
(ASDE-X). ASDE-X will upgrade the existing software of AMASS and should 
address the false alerts currently experienced by AMASS. We have just 
begun a review of FAA's ASDE-X deployment strategy and will report on 
this issue next year.
    However, ASDE-X and AMASS do not provide alerts to pilots of 
potential ground collisions. For this reason, the National 
Transportation Safety Board considers FAA's actions to reduce runway 
incursions insufficient because over 50 percent of runway incursions 
are caused by pilot errors.
    While FAA has reduced the number of runway incursions and met its 
goal in this area, FAA has not had the same success with operational 
errors--where aircraft come too close together in the air. Not only are 
these incidents continuing to increase, but shortcomings in FAA's 
reporting system for operational errors have indicated that the true 
number of these incidents is not yet known.

        --This past year, there were 1,489 operational errors (up from 
        1,150 in FY 2004), which is the highest number of errors 
        reported in the past 6 years.

        --Seventy-three of those errors were classified as serious 
        incidents (those rated as ``high'' severity), compared to 40 
        serious incidents reported in FY 2004.

    The increase in the number of reported operational errors is a 
significant concern that FAA will need to address. However, we urge 
caution in drawing conclusions about the increase because prior-year 
numbers are most likely considerably understated. Therefore, it is 
important to recognize that the number of errors reported in prior-
years may not be an accurate benchmark to measure FAA's current level 
of performance.
    In September 2004, we reported \7\ that only 20 of FAA's 524 air 
traffic control facilities have an automated system that identifies 
when operational errors occur. At its towers and terminal radar 
approach control (TRACON) facilities, FAA depends on an unreliable 
system of self-reporting operational errors.
---------------------------------------------------------------------------
    \7\ Report Number AV-2004-085, ``FAA Controls Over the Reporting of 
Operational Errors,'' September 20, 2004.
---------------------------------------------------------------------------
    Recent investigations by our office and FAA at two locations found 
multiple instances of unreported operational errors. Specifically, at 
the Dallas/Fort Worth TRACON, we found operational errors were 
systematically ignored as a result of management policy. We identified 
multiple operational errors that had not been reported. Prior to our 
investigation, the facility reported just two operational errors during 
the 6-month period from January 1 to June 24, 2004. During our 
investigation, we identified five unreported operational errors that 
occurred during May and June alone.
    After instituting appropriate use of playback tools \8\ in June 
2004, the facility reported 36 operational errors during the next 6 
months. Facility managers also took actions to improve operations by 
training all personnel on proper procedures for reporting and 
investigating operational errors, redesigning facility-specific air 
traffic procedures, and conducting refresher training to improve 
controller performance.
---------------------------------------------------------------------------
    \8\ Playback tools are software programs and other electronic 
instruments for recreating air traffic incidents by replaying recorded 
radar and voice data.
---------------------------------------------------------------------------
    At the New York TRACON, FAA initiated an internal investigation in 
response to a rash of allegations that operational errors were 
increasing. That review identified 147 unreported operational errors 
during a 2-month period. The number of reported operational errors for 
the New York TRACON increased from 24 in FY 2004 to 233 in FY 2005. 
Again, it is important to note that prior to FY 2005, the number of 
operational errors are most likely understated.
    A number of these errors were serious and indicated the need for 
immediate corrective action. Managers at the facility responded by re-
training all personnel and redesigning certain facility-specific air 
traffic procedures.
    This past year, FAA has also taken steps to improve operational 
error reporting.

        --FAA recently implemented procedures that require towers and 
        TRACONs to conduct random audits of radar data to identify 
        operational errors.

        --FAA Headquarters is also conducting random audits at selected 
        facilities and is evaluating its severity rating system in an 
        effort to more accurately capture the collision risk that 
        operational errors pose.

    Clearly, these actions are steps in the right direction, but FAA 
will need to remain committed to following through on those efforts--
the number of unreported errors identified just at New York TRACON 
underscores the need for top management attention to this issue.
    Mr. Chairman, we see two key steps FAA needs to take to reduce the 
collision risk of operational errors. First, FAA needs to identify an 
accurate baseline of the number of operational errors that are actually 
occurring. That is, FAA must ensure that operational errors are 
accurately reported and ascertain the cause of each.
    Second, FAA must address the issue of staffing at each facility. 
The controllers have repeatedly stated that staffing is a primary cause 
of operational errors. FAA needs reliable and accurate staffing 
standards for each of its air traffic facilities (over 300 nationwide). 
This is particularly important in light of the fact that FAA expects 
over 70 percent of its controllers to retire in the next 10 years. 
During FY 2005, FAA began an evaluation of its air traffic facility 
staffing standards. However, until the agency completes its evaluation 
at all facilities, particularly at TRACONs and terminals, questions 
will persist about the appropriate level of staffing at each location 
and the effect current staffing levels have on facility operations.
Addressing Emerging Issues
    Mr. Chairman, now I would like to turn to a number of issues that 
may well have significant safety implications in the future. Some air 
carriers are emerging from bankruptcy, while others are already 
bankrupt or are on the verge of bankruptcy. Just last week, 
Independence Air declared bankruptcy. The cost structures of network 
air carriers are converging with those of discount air carriers. We 
would not be surprised if there were more consolidations like the 
recent merger of US Airways and America West. These changes could have 
a profound impact on the industry, as well as FAA. Some of the other 
issues we see include:
    Microjets. One of the new challenges we are likely to encounter 
within the next year is operations of a new class of aircraft called 
microjets. These are small ``affordable'' aircraft that will carry up 
to six passengers. Priced as low as $1 million per aircraft, microjets 
may be more attractive to the business market than the currently 
available comparable aircraft priced at about $6 million.
    Microjet manufacturers anticipate that these aircraft will find a 
niche among a variety of corporate and private owners and as on-demand 
air taxi services. According to FAA's annual 12-year forecast, 4,500 
microjets will be vying for airspace by 2016--these aircraft will be 
flying in the same airspace as passenger aircraft. Microjets could lead 
to the influx of a new class of pilots, which could lead to human 
factors issues, and there could also be maintenance issues. In 
addition, microjets could have an impact on the workload of air traffic 
controllers and FAA's aviation safety workforce.
    Fractional ownership. According to FAA, aircraft that have multiple 
owners and operators, referred to as fractional ownership, are growing 
at a rapid rate. From 1999 to 2003, the number of fractional ownership 
shares grew by 138 percent, from 2,607 to 6,217. FAA requires aircraft 
owners and operators to be responsible for the maintenance of their 
aircraft. FAA will have to make some decisions on how they will hold 
multiple owners responsible for safety and maintenance of aircraft 
purchased in this fashion.
    Foreign manufactured aircraft parts. In the 1960s, when Boeing 
manufactured its 727 aircraft, 98 percent of the parts were built in 
the United States. Only 35 percent of the parts on Boeing's new 787 
aircraft will be built by U.S. suppliers. Aircraft manufacturing has 
become a global operation. Large sections of aircraft are now built by 
industry partners and shipped to the aircraft manufacturer for 
assembly. FAA and the industry will have to ensure that the suppliers' 
quality assurance systems are effective and that parts the suppliers 
produce meet industry specifications.
    FAA inspector staffing. FAA currently has 3,200 aviation safety 
inspectors in its field offices. Approximately 1,100 of these 
inspectors provide oversight of commercial air carriers. The remaining 
2,100 oversee aircraft repair facilities, general aviation operators, 
mechanics, pilots, and training facilities.
    Like many of the airlines, FAA is facing its own budgetary 
challenges. In FY 2005, FAA lost 144 aviation safety inspectors from 
its Flight Standards field offices.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Much attention has been paid to controller staffing--FAA plans to 
hire 12,500 controllers in the next 10 years. While that is a critical 
issue for the agency, it is also important to maintain a safety 
inspector workforce that is sufficient to achieve its mission of safety 
oversight. The Senate and House have recommended an increase in FAA's 
inspector staffing in the agency's FY 2006 budget. It is important that 
FAA not lose sight of the need to adequately staff its inspection 
workforce.
    The magnitude of the changes that have already occurred underscores 
the importance of FAA having a system that is nimble enough to help it 
confront these changes. The collection and analysis of safety data is 
critical--it is the only way to identify safety precursors and leverage 
limited resources.
    Mr. Chairman, this concludes my statement. I would be pleased to 
address any questions you or other Members of the Subcommittee might 
have.

    Senator Burns. Thank you.
    I have one question. And I thank you for your testimony 
this morning. Some of them very enlightening, and some of them, 
we've--it looks like we've got a hole or two to fill. But I 
think a good portion of today's hearing will probably revolve 
around contract maintenance. More and more carriers are taking 
advantage of outside services, which were covered in your 
report. And I have a couple of questions.
    Does the report call into question the safety of contract 
maintenance, or just oversight of that maintenance? And either 
one of you can take a shot at that. Then I have a follow-up 
question to that.
    Mr. Mead. Well, it's our report. And the answer is, it does 
not call into question the quality or adequacy of contract 
maintenance. It does suggest that the oversight of the repair 
stations needs to be beefed up. And the reason for that is 
because so much of the maintenance has gravitated from in-house 
to outside repair facilities.
    Senator Burns. Well, when I go down and get on an airplane, 
and I think I've bought a flight, a seat on Delta, let's say, 
from here to Salt Lake City, and then when I get to Salt Lake 
City, I've still got a Delta flight number, but it's operated 
by another company that's owned by a holding company. And I'm 
wondering, do we have enough people or a way to audit and to 
track who is responsible for the maintenance and how it's done?
    Ms. Blakey. Well, certainly we know the contractual 
arrangements that all of the carriers have for their 
maintenance. These are arrangements that are well established. 
They have quality-control systems built into them. And since 
the time of the report that the inspector general was 
referencing, many, many things have changed. That report came 
out in the spring of 2003. It was based on interviews and 
information that went back a year. So, we're talking about 
roughly 3 years ago, at this point, in terms of the situation. 
So much has changed since then. We have substantially shifted 
the kind of oversight that the FAA has provided our carriers to 
take into account these relationships; and, therefore, have 
inspector workforces that are working with the repair stations 
in the same way we work with the in-house maintenance 
facilities that the carriers maintain.
    Remember that there is also a number of circumstances 
having to do with contract maintenance, which really do go to a 
very safe system, because, to address your central point, Mr. 
Chairman, we do not have any data that would suggest that 
contracted-out maintenance is any less safe than maintenance 
that is done in-house. Remember, much of it is done by the 
original equipment manufacturers. Who better to do maintenance 
on an engine that's a Pratt & Whitney engine than Pratt & 
Whitney, regardless of whether it's on a Delta or United 
aircraft?
    Much of it is done by specialized repair stations. Again, 
with high skills, in terms of the computerized systems that are 
now onboard with avionics, et cetera. So, those circumstances 
really have shifted as airplanes have become more 
sophisticated.
    But it's also the case that the FAA now maintains an 
inspector workforce that looks at repair stations in the same 
way we look at carriers. And, at the same time, remember that a 
repair station is often used by multiple carriers. When that is 
the case, each one of those carriers is also responsible for 
auditing the work of that repair station, coming in on a spot 
basis and checking the work of that repair station. And, in 
fact, that is done on a regular basis.
    One of the interesting ones that we might look at, for 
example, is a repair station that's used by JetBlue and five 
other carriers in El Salvador. We spend a tremendous amount of 
time down there overseeing that repair station, but so do those 
five other carriers. And when you look at the number of audits 
and the number of inspections and the number of days onsite, I 
would challenge anyone to say that that's inadequate oversight. 
And the safety track record would also substantiate that.
    Senator Burns. Do you have the manpower to monitor foreign 
contract services?
    Ms. Blakey. Well, one might look at it this way. There are, 
right now, 675 foreign repair stations that we have 
certificated. And, remember, they come up every 2 years, at a 
minimum, to have that certificate reviewed. Which means we go 
in on a very intensive basis and audit those repair stations. 
But they also have to be certified by the country in which 
they're housed. So, there are two countries overseeing these. 
And then you have the carriers, again, that use them, that are 
required, themselves, through their own quality control and 
audit processes, to go in and check.
    But the question of manpower, for those 675 foreign repair 
stations, I have 988 domestic FAA inspectors who go out and are 
specifically assigned to those repair stations to oversee them.
    Senator Burns. Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman. You've just 
talked about the numbers of inspectors that you have, 988. Was 
that the number you----
    Ms. Blakey. 988. I might add to that, that they performed, 
that year, 2,604 inspections, so it's a lot of----
    Senator Lautenberg. I see. But when we listened to Ken 
Mead's presentation, he described a variety of functions that 
are supervised, or at least reviewed, by some of these 
inspectors, that go way beyond just looking at this particular 
repair or maintenance facility. Is that not then extending the 
responsibility, or the assignments, for these inspectors way 
beyond their capacities to keep up with the work? Now, for 
instance, you lose about 300 safety inspectors this year. Is 
that right?
    Ms. Blakey. Over 2 years, we lost 231.
    Senator Lautenberg. But you were only requesting 97 in the 
budget. Is that correct?
    Ms. Blakey. But now our budget has a additional--I think 
your figure may be close to right--we do believe that there 
will be money that will also augment that. So, I would expect 
that, in 2006, we'll actually have more than that.
    Senator Lautenberg. Well, there is some inconsistency here 
since this is a growing, I won't call it a phenomenon, but 
routine in the aviation business, don't we have to make certain 
that we are able to keep up to date? I think you said that it's 
up to the carriers themselves to review the work. But you're 
not content to just wipe your hands free of responsibility 
there and say, ``Well, the carriers should be doing that.'' You 
make sure in an audit process, you have to make sure that the 
people who are doing the work do it effectively and not walk 
away from the situation and say, ``OK, well, they'll review 
it.''
    Ms. Blakey. Absolutely. That's why I detailed all of those 
inspections that FAA personnel are doing. No one would suggest 
that we are walking away. What we are saying is that there are 
multiple layers of oversight, which is what I'm sure you would 
want. You would want to have that kind of oversight at several 
levels.
    Senator Lautenberg. But the buck stops someplace, and it's 
up to FAA, as I see it, to make certain that every one of these 
aircraft is properly maintained. And, when you said the air 
carriers themselves are responsible for the evaluation--yes. 
But that doesn't necessarily mean that it's done well. We used 
to have the air carriers in charge of their own security--or, 
rather, employing screeners for passengers and baggage and so 
forth. And we found out that this reliance on the airlines 
resolved itself into a case of less cost for less work. And the 
situation to me sounds like, ``Well, we're covering it, but we 
don't cover it all.''
    Ms. Blakey. I think probably you're not understanding what 
I'm trying to say.
    Senator Lautenberg. Perhaps that's true.
    Ms. Blakey. There are multiple layers of inspection.
    Senator Lautenberg. Perhaps what you're saying just is not 
consistent, but go ahead.
    Ms. Blakey. No, what I'm saying--let me be very clear--
there's nothing that says there's exclusive responsibility, 
it's an either or. That is not the case. The FAA has 
responsibility for ensuring a safe system. We have 
responsibility for setting in place requirements for the 
manufacturers, for the carriers, for the repair stations, all 
of which we do. We go out and inspect on all of those levels--
FAA personnel doing those kinds of inspections. But what I 
believe everyone should draw real encouragement from is, it is 
not solely the responsibility of the FAA. It is also the 
responsibility of the carriers who employ repair stations. They 
are required to do their own oversight, to do their own audits, 
as well.
    Senator Lautenberg. Well, as I said, the buck's got to stop 
someplace, and I don't hear that.
    What's the status in the negotiation over the air traffic 
controller contract?
    Ms. Blakey. The air traffic controller contract is under 
negotiation right now. In fact, I think we have a team, it's 
out--I believe it's in Albuquerque right now, in another round 
of discussions. It's going slowly. I'd love to see it go much 
more quickly, but they are at the table. And we are seeking a 
voluntary agreement.
    Senator Lautenberg. When might that be concluded? Do you 
have any idea?
    Ms. Blakey. I wish I did. We do believe this is going far 
too slowly. We've been at it since the summer. There are a 
number of articles that are on the table under discussion. 
Candidly, the parties are significantly apart when it comes to 
some of the significant articles.
    Senator Lautenberg. A couple of years ago--2 years ago--you 
told the NTSB that by 2007 all major airports would meet the 
FAA runway safety area standards. Do I understand you now to 
say that it's more like 2015?
    Ms. Blakey. I'll have to look at that year specifically for 
you, Senator. What I would say about runway safety standards is 
this, that we have been working to establish those, and 
establish the areas, which is, I think, specifically what we're 
talking about, that are required for runways around the 
country. These are difficult in the case of some airports, 
because there is simply not the geography. There isn't the 
space. There are environmental issues. There are a variety of 
obstructions in those areas that have to be removed. These are 
things that cost a lot of money for the airport. There are 
technologies. There's one in particular that I suspect you may 
be familiar with, because it's been employed in the New York 
area, called EMAS, which is a substance a little like concrete, 
but it's porous, that you can pour at the end of a runway and 
have that absorb the impact of an overrun.
    And it works.
    Senator Lautenberg. Forgive me, but we do know there are 
techniques. This letter that you sent to the NTSB--it was 
August 7, 2003--said that the FAA has established the goal to 
upgrade RSAs at all 14 CFR Part 139 Federally-obligated 
airports to meet the standards, or some alternative, by 2007. 
Now, it was projected out there in a fairly routine--or fairly 
organized fashion. But as you described the technologies and 
the techniques for stopping it, that, then, says that, ``Well, 
there are ways to do it, but we can't do it before 2015,'' 
which is a marked difference from the August 2003 prediction.
    Ms. Blakey. I'll get you a better figure on how long it 
will take.
    I will tell you this, these are very complex things to do. 
They do have contentious situations for some of the airports. 
It is not entirely in our control. I can give you one example. 
For example, Juneau has a very difficult situation, because 
they have a runway that does not have a runway safety area 
right now. The FAA would like to see them move ahead using 
EMAS. The airport authority does not want to do that. They want 
to go into the wetlands area, which will involve a very 
elaborate and contentious environmental process. Now, we do not 
have control over that. And I do not think it's appropriate for 
us to force them to take a solution that would be within a 
timeframe that it could be done, but that is not the choice of 
the local community.
    So, you have many situations like that in which we're 
working with airports around the country, because I think 
that's the appropriate way to go. And, in the meantime, we're 
looking to make sure that there are other mitigating factors 
for these runways.
    Senator Lautenberg. Mr. Chairman, thanks very much. I just 
take it that in 2003 we were unaware of the things that we now 
see, which is a surprise to me. Thank you, Mr. Chairman.
    Senator Burns. That's the reason we have oversight 
hearings, Senator.
    Senator Rockefeller. Good morning to both of you. And it 
strikes me as, kind of, an overwhelming problem that you have, 
Ms. Blakey, in the sense that your overall budget is about the 
same as it was last year, which means it's decreased by 
whatever the factor of inflation is. And I just want to say 
this for the record. Things like that--you know, not just 
safety, but things that have to be done, the removal, as you 
said, of impediments, planes flying into airports, the whole 
O'Hare question, which I want to discuss in a moment. All of 
these things depend upon your having the proper budget, as well 
as the inspection and the safety and all the rest of it.
    I'm on the Finance Committee, as is Trent Lott. And I just 
voted against a reconciliation bill yesterday--I think I was 
one of the--or 2 days ago--one of about four or five people to 
do it--on the basis that it just does not make sense to be 
doing $70 billion more worth of tax cuts, some of which I think 
are very good--tuition tax credits, et cetera, R&D tax credits. 
It doesn't make sense to be doing those when somewhere down the 
food chain it's you that's going to pay. Now, it's very popular 
for people not to like Government, but they depend upon 
Government far more than they think they do, and they depend 
upon Government almost wholly when it comes to flying.
    So, this would be my thought. What is the process that you 
go through when you're drawing up the budget within which you 
have to live? You have no choice. Once OMB has handed it down, 
it's there. You have to pretend that you love it, and all the 
rest. But what is the process, the actual process, by which you 
take a budget which is decreased, in real terms, by about 3 
percent or whatever and pick out priorities? How do you do 
that?
    Ms. Blakey. Well, you go from a variety of factors. FAA, 
every year, has a major effort, in terms of forecasting traffic 
and volume and what we know is coming at us. We also look at 
the pipeline of planes that need to be certified and all sorts 
of factors. Then we sit down, in the spring, and we try to take 
all those metrics and say, ``All right, how does that stack up 
against our responsibilities, our workforce, our resources, to 
be able to put in new technology, et cetera? '' And then you 
put together the list of things that you really do believe 
address those adequately to well. At that point, you also look 
to see whether the things that you have been doing--whether 
it's technologies or sometimes processes and procedures--
they're paying off or not. What are we seeing? How well is it 
working? Does it make sense to continue to deploy some things? 
And some things get moved to the bottom of the list, or off the 
list, at that point. So, there really is a fairly intensive 
period we go through in the spring and early summer, where 
we're reviewing all those things in great depth, and then come 
up with a budget that supports those. All of that is, of 
course, detailed through the review process, through the Office 
of the Secretary and our budget office at DOT, and then it goes 
to OMB, where they have to look at it relative to other 
priorities in Government. And we defend the choices that we've 
made. And I will also say that when choices still have to be 
made, we will work to say, ``All right, if this is the totality 
of our budget, we still have a priority over here we'd like to 
maintain and shift this.''
    But, Senator, sometimes things also happen that I think are 
unintended. I believe the cut in our inspector workforce was 
unintended, because what happened was, we came up to the Hill 
with a budget that was going to allow us to maintain, and, to a 
small degree, augment, our inspector workforce. And what 
occurred, of course, were the unfunded pay increases, which--
all of this is about our operating budget, plus earmarks that 
had to be supported. And, at the end of the day, there simply 
was not the money to do it.
    Now, I don't think anyone targeted the inspector workforce 
or thought that's--but when we look at the fact that the money 
isn't there, there really aren't choices. So, there are all of 
those dynamics that go into making hard choices up front, and 
then the kind of cuts that occur because, obviously, the 
Congress has competing priorities, as well.
    Senator Rockefeller. What's interesting to me about that is 
this--it's sort of double or triple jeopardy for you. In other 
words, you submit a budget which would presumably not be 
bloated. It would just simply reflect what you felt you needed. 
It does not fit into the overall OMB idea of what you can 
spend. They then take your final budget and then they fine tune 
it. And then there's no court of appeals. I mean, is it 
possible, let's say, with the inspectors, can you go back to 
them? I remember, I did this once, when Al Gore was Vice 
President, on a veterans matter, and I just kept chewing on him 
until he yielded. Well--though that was based upon a personal 
relationship and all the rest of it, but I don't think--I don't 
know what personal relationships are with the OMB, but I don't 
imagine that they're particularly warming. Have you had 
chances, sometimes, to get them to change their minds because 
you feel strongly about something? Because they have, 
presumably, experts. But they're experts that spend their time 
on other things, too. Have you been able to get them to change 
on priorities?
    Ms. Blakey. You know, without telling tales out of school, 
I think it's fair to say that the passback process, which we 
are expecting our passback on 2007 right after the new year--I 
mean, Thanksgiving holiday--that will give us our numbers for 
the 2007 budget. We will look at those. And I think it is safe 
to say that if we do not feel we can live within the numbers 
we're given, we will appeal. And you make as strong and as 
compelling a case as you possibly can. Again, I think this is a 
closed process, as you well know, but I will also tell you that 
last year I felt that OMB was very responsive, in the sense 
that we said to them, ``Look, you've given us the overall 
numbers. We will stay within those overall numbers, with some 
modifications''--I won't say we'd actually be within the 
number, but, the point being, ``Let us, though, have control 
over what categories we put the money in, because from our very 
expert point of view, some things are more important than 
others.''
    Senator Rockefeller. And that--unless Conrad cuts me off, 
which he has every right to do--I think, is the point, that if 
OMB has overall administrative responsibility in the 
Administration for setting the amount of money that you get, it 
makes sense to me--I think you're a superb administrator--and 
so does Conrad; we just talked about that a second ago--but 
that you ought to, then, get a lump sum. That doesn't 
compromise the Administration's budget in any way, but it does 
put to you--now, maybe that makes problems difficult with 
respect to negotiations or outsourcing contracts or to other 
things you need to do. Would you prefer to have that happen? If 
you say yes, it won't be held against you, because it never 
will happen.
    [Laughter.]
    Ms. Blakey. I think it's fair to say that almost any good 
manager prefers to have flexibility.
    Senator Rockefeller. Yes.
    Ms. Blakey. And, I will also give credit where credit is 
due. Last year, we got that flexibility. I can't read the tea 
leaves as things go forward. But I will also tell you that we 
have made a very strong case all along, including backing it 
with a very detailed controller staffing plan, for the 
importance of meeting the controller hiring numbers that we've 
put forward, because we do see a wave of retirements coming at 
us that we have to address. And we have done the same thing on 
the inspector numbers.
    Senator Rockefeller. Thank you.
    Senator Burns. This morning, along those lines, 
Administrator and Mr. Mead, there was--there's been a growing 
concern about the transition of the air traffic control 
telecommunications systems from the old LINCS system to the new 
FTI system. Can you give us some idea on how that transition is 
going? And are you running into any concerns as you progress?
    Ms. Blakey. The process of converting to FTI is underway. 
And this is a very different contract from the one we had 
before. I think it's important to mention the fact that, of 
course, this is the legacy--what we have now is a legacy 
telecommunications system for all of the FAA that is--has grown 
like Topsy. I mean, it has as many companies, telephone 
companies/providers, involved with it as probably exist in the 
United States in one form or another, and it grew up over 
decades so that it is complex, it is old, and it is difficult, 
therefore, to take all of that and integrate it into a smooth 
single system that works with the service levels that we're 
looking for.
    The FTI contract is set up to do that, and it is set up to 
do that essentially on a service level. In other words, you 
have to meet certain performance characteristics. That's what 
we're looking for. We're not looking to have specific hardware, 
specific things designated, so much as we need to have 
redundancy in the system, high reliability, service levels 
provided. All of that, saying that it is moving forward. It hit 
a snag back this year, earlier in the spring, where things 
slowed down. We were not able to deploy and to commission as 
many of our systems as we expected. These things have hundreds 
in a month that we're supposed to be hitting as we move this 
thing on. And, of course, it won't surprise you to know that we 
tackle some of the most difficult ones first. In other words, 
most complex, et cetera, or where it began.
    With that said, it slowed down. We weren't hitting our 
numbers. We put in place a recovery plan. And it's something 
that, along with the Deputy Administrator, I monitor on a 
monthly basis now to see what those numbers look like, and 
we're back up, and we're beginning to hit the numbers again. 
So, can I assure you that it is exactly on schedule? No. Do we 
have a recovery plan, and is the trend in the right direction? 
Yes.
    Mr. Mead. There have been, I guess I'd say, significant 
schedule slippages. There have been cost increases. It's a very 
complex undertaking. FAA, this past year, did direct the 
preparation of what they call a ``cure plan,'' recovery plan. 
We have a report underway, and we will be issuing that in the 
next couple of months. And that's all I would be prepared to 
say at this time, sir.
    Senator Burns. We have----
    Ms. Blakey. Let me mention one other thing----
    Senator Burns. Yes.
    Ms. Blakey.--if I might, Mr. Chairman, on this. I didn't 
touch on cost. And we are certainly looking to the Inspector 
General's report, and I'm sure there will be recommendations 
that will be helpful and instructive there. But on cost, we had 
not embedded security into the system to the degree that, after 
9/11, it had to be. No one knew. We did not look at it that 
way. And so, there was significant cost added into this as a 
result of having to go back and place requirements that simply 
weren't there before that. So, bear that in mind when you look 
at the cost figures, because certainly that's a substantial 
cost.
    Mr. Mead. You know what? This is an interesting 
acquisition. My staff dropped me a note. I should say one other 
point on it. You can picture a system with 400-500 facilities. 
All of them are connected with telecommunications. There's 
intraconnect--there are connections between each facility, and 
there are connections inside each facility. Add to the 500 all 
kinds of peripheral equipment, like radars, beacons, that are 
hooked up to those facilities. There are telecommunication 
lines between them. I think that there was a higher level of 
confidence, both on FAA's part and the contractor's part, that 
they knew the schematic for the entire United States as to 
where all these circuits were. And they didn't. And that was 
one of the bumps in the road.
    Senator Burns. But we----
    Ms. Blakey. It's little things, like, they want to have an 
exact address--right now the telecom laws require, because of 
9-1-1, for you to have a very precise, exact address. Well, 
guess what? A lot of our radar and things don't have an 
address. They're sitting on a field somewhere. Exactly how do 
you assign that? And so, there were requirements that from the 
FAA standpoint over many, many years, we didn't need. Our 
technician--you had to go out and find it. But precisely for a 
new company, how you pinpoint that on a grid and how you assign 
the address, they're making it up. So, we're working through 
it, but it has not been simple. I will say that.
    Senator Burns. Well, I would imagine, when you start to 
change a system as large as that one is, and the redundancy 
that you have that's required to run a system would be quite a 
challenge.
    Just to wrap up. This is my last question. Give me an idea 
of what you think the really big challenges that you're going 
to have in this coming year, and what Congress should be paying 
closest attention to.
    Ms. Blakey. Well----
    Senator Burns. In other words, I'm asking for your 
Christmas list, I guess, here, before we have Turkey Day.
    Ms. Blakey. Well, certainly, from the standpoint of 
safety--but that's a primary focus of this hearing--I think we 
all have to keep a very sharp eye on the industry and the 
shifts in the status of our carriers, because with the 
bankruptcies that are going on and the changes in service, and, 
frankly, the changes in traffic, all of this poses a dynamic 
that just requires very close and extensive monitoring. And we 
have to be very nimble in the way we're assigning our resources 
to it. That's one.
    I do want us to move ahead in addressing both the runway-
incursion issue and the operational error issue. I think we are 
going to be doing that. We have some significant advantage in 
terms of automation, in terms of new technology. But, again, 
that's where I would certainly keep my eye.
    And I think the Inspector General is correct, the new 
microjets that he referred to, the first of those will be 
certified sometime after the first of the year. The first 
company to be certified has more than 2,500 orders for these. 
Now, they are flying computers. They are remarkable machines, 
but the issue is how do you train pilots and how you integrate 
them in the system.
    UAVs. I will tell you that UAVs are coming at us faster 
than anyone projected. I have requests, right now, for the use 
of UAVs in the civil aviation system. That poses some very real 
challenges. And yet, I think we need to step up on those, 
because some of them are in the security arena, and I think we 
would all like to see us move forward faster than anyone 
anticipated we would need to do it.
    So, those are safety challenges. From the broader 
standpoint, I will tell you that the three big challenges for 
us at the FAA, we need to move forward into the next-generation 
air-transportation system, which is a transformation. We cannot 
continue to scale the system we have. It is all about, as I 
know you all have discussed with us at times, a system that's 
significantly satellite-based, highly automated, will allow for 
a lot more traffic than we have right now. To be able to do 
that, of course, we need to have a financing system that works. 
Our trust fund is up. The taxes and fees, as they're structured 
right now, do not make sense as we move forward for a new 
system like that and how you finance it, and being tied to the 
price of a declining ticket price is really not the way to 
finance this, by any standards.
    The final thing is, we've got to run the FAA like a 
business, because you all are going to expect from us the kind 
of productivity that will justify the investments that we're 
talking about here.
    Mr. Mead. Can I give my list?
    Senator Burns. Yes. You bet.
    Mr. Mead. The number-one issue that--you've touched on 
this, Senator Rockefeller has, and certainly the 
Administrator--the financing issue for FAA. A very central 
issue in this whole debate is going to be how much the users 
should be contributing to the FAA budget, and how much the 
general fund, which is where the income taxes go--how much that 
should be picking up.
    If you look at FAA's budget, the budget mark for FAA is 
pretty close to how much money is coming in from aviation 
taxes. And at a time of Federal deficits, the budgeteers do not 
like to touch the general fund, unless they absolutely have to. 
That is a tension that you all are going to have to deal with 
as you approve reauthorization.
    Number two, I want to see the certificate management 
offices for each of the carriers paying a lot more attention 
than they do now at the repair stations, particularly as the 
maintenance gravitates there.
    Number three, I want to see a lot more credibility in 
operational errors. I know Administrator Blakey does, too, and 
they're moving in that direction. That's important.
    And Number four would be controller staffing numbers by 
facility.
    Number five would be your inspector staffing levels. 
They're just not as high profile as the controllers. And so, we 
have to keep our hand on the pulse there, too.
    Senator Burns. Thank you very much.
    Do you have any more questions for this panel?
    Senator Lautenberg. I just have a couple, if I may, Mr. 
Chairman.
    And I share Senator Rockefeller's view, Administrator 
Blakey, that you've got to keep a lot of balls in the air to 
keep everything going. And it's rare that we look at the supply 
side, if we can call it that--supply of the money--show us the 
money to make this thing happen. But I do offer my 
congratulations, as well, for your efforts and for your skill 
in trying to get everything done. It's well acknowledged.
    But I do want to say, Mr. Chairman, that I--it's the best 
argument that I have heard for investing in Amtrak today, and 
that is to make sure that we have alternative methods of travel 
for passengers. Because when we look at 4,500 microjets about 
to come on the scene, and general aviation--as airports free up 
more access to general aviation--that this thing gets to be a 
real problem of just too many aircraft and not enough 
infrastructure to accommodate it. So, go aviation. Go Amtrak.
    Thank you very much, Mr. Chairman.
    [Laughter.]
    Senator Burns. Senator Rockefeller?
    Senator Rockefeller. Actually, the microjets thing scares 
me. And it's one of those things where free enterprise--the 
free-enterprise system produces something which consumers may 
want, but never think about what the repercussions may be with 
respect to you all. And--now, my understanding is they're going 
to fly at much lower levels. And therefore--and tell me if I'm 
wrong--and not, therefore, cause the problems in altitude 
spacing, et cetera. I'm wrong? Tell me.
    Mr. Mead. Well, both of us probably should take this 
question. Do you remember, a few years ago, in 2000, in the 
summer--after the summer of 2000, there was this huge growth in 
regional jets, and there was a lot of discussion then, ``Well, 
let's make them fly at lower altitudes. So, that's the way to 
fix the gridlock problem in the air.'' Well, that's not really 
happening. One of the reasons is because you fly at lower 
altitudes, it gets rough. It's rougher, more turbulence. And 
it's my information that they're planning to fly at roughly the 
same altitudes as commercial jets.
    Ms. Blakey. Yes, they're capable of flying up at 29,000-
37,000 feet. And any long-haul flying they do, of course, 
that's also much more fuel efficient. So, what we see is this 
possibility. There is, at least theoretically, the view that 
they will fly to less populated airports. There's also a fair 
likelihood that they'll be doing shorter hops. Obviously, short 
hops, you don't tend to be up as high for as long. So, there is 
that phenomenon. If they're going to less populated airports, 
it obviously will not put as much work, at least on our 
terminal facilities, on our controllers and the TRACONs and the 
towers. But we will see. Because there's no pattern there yet. 
The customer base hasn't declared exactly where they're going 
to run. And, frankly, some of these look like they are going to 
be used by what are called ``air taxis.'' There's a company out 
of Florida called DayJets. The likelihood is that they're going 
to run up and down the East Coast. And, as you well know, that 
is a highly populated airspace right now. So, we'll see. I 
mean, we certainly can't govern where people choose to fly, but 
we're going to have to anticipate this, and it could be pretty 
challenging.
    Senator Rockefeller. Mr. Chairman, in hearing this 
discussion, it--I really think it would be worth it to have a 
hearing on that matter alone, because when you consider if it's 
one fatal accident for every 15 million passengers--passenger-
carrying flights, that's a superb record. That could get messed 
up in a hurry. Now, I had thought what I had heard was correct. 
It was incorrect. And I--as I think about it now, they might 
very well say, ``Well, we'll start there.'' And so, we get our 
foot under the door, so to speak, and then, of course, they 
just keep increasing their altitude. The East Coast thing, 
the--just going from rural area to rural area, I'm not so sure 
that that's what they'll want to do, because that's not where 
the money is. I think it's worth a hearing, because I think 
it's a profoundly disturbing problem, in terms of safety, of 
untrained pilots, and many, many other things. I think it's a 
scary situation.
    Thank you.
    Mr. Mead. You know, you take fractional ownership issues, 
and you overlay them on an aircraft that, with three owners, 
would require a mortgage of $300,000 a person, you could 
leverage that right into purchase of an aircraft. That could be 
three new pilots.
    Senator Lautenberg. Are these single-pilot airplanes?
    Ms. Blakey. No, they're two pilots for the ones that are 
coming on right now. I also will say this. For example, the 
first manufacturer to be certificated will be using a training 
program that is modeled on the program that United Airlines has 
had great success with over many years. It's a very, very 
rigorous pilot training program. So, I would not want us to 
assume that because they are small, somehow they are 
substandard in either their approach to safety or all of the 
kinds of built-in redundancies, from a safety standpoint, that 
are in the manufacturing of the aircraft. They're really quite 
remarkable. But it is a new phenomenon. And I think that, in 
itself, means that we're going to have to take account of 
things that perhaps we have not been coping with to this point. 
And down the road, one of the issues on training, of course, 
will not be the original equipment manufacturer's requirements 
and the training there, but as these aircraft, over time, are 
passed on to other pilots and people come into the system who 
really aren't professional pilots; they want to do this as a 
exciting hobby, we have to pay attention to all of those 
things.
    Senator Burns. If you can give me a ballpark figure just to 
let folks in this country know, how many airplanes in this 
country are in the air right now?
    Ms. Blakey. In the air right now?
    Senator Burns. Anybody know back there?
    Mr. Carr. Six thousand.
    Senator Burns. Six thousand?
    Senator Lautenberg. Commercial?
    Senator Burns. No, I didn't--I didn't say. I mean, just 
traffic.
    Ms. Blakey. Midday on a Thursday, it would be about 6,000. 
Well, I'll tell you, John Carr, who is the head of our 
controllers union, probably has got as good a beat on that as 
anybody. I'd have to turn around--anybody else want to take a 
stab----
    Senator Burns. That was a trick question, see. I'm--want to 
throw that trick question out there.
    Senator Pryor, do you have questions for this panel?
    Ms. Blakey. Our crowd is making this point, over here, 
because this is----
    Senator Burns. Well----
    Ms. Blakey.--Bruce Johnson, with air traffic, that probably 
in terms of those who are under active control--we've got a lot 
of GA out there, too, though, so--you know, bump it up maybe--
--
    Senator Burns. There's just a lot more than a lot of people 
think. And I just wanted to make that point.
    So, thank you very much, and thank you for your testimony, 
and we look forward in working with you, and we'll go to the 
second panel. Thank you very much.
    We have, on this next panel, Mr. John Carr, President of 
the National Air Traffic Controllers Association; Mr. Basil 
Barimo, Vice President, Operations and Safety, Air Transport 
Association; Mr. Robert Roach, General Vice President, the 
International Association of Machinists and Aerospace Workers; 
Mr. Christian Klein, Legislative Counsel, Aeronautical Repair 
Station Association.
    So, we want to welcome these four. They're a very important 
part of the--OK, let's make the transition here as quickly as 
possible. I've got a lunch to go to. I've never missed any 
meals, and I don't plan on missing one now. I think we've got 
an 11:45 vote, too. So, how fast can you auctioneers talk down 
there? Usually, for the information of those that are coming to 
the table now, I have a habit of flopping them, so that you 
give your testimony, so the director hears it and gets it 
firsthand, and then I hear from her. But I didn't do that this 
time, but she's staying, anyway, and that's wonderful.
    Mr. John Carr, thank you for coming this morning. He's 
President of the Air Traffic Controllers Association. Look 
forward to your testimony. Thank you very much.

  STATEMENT OF JOHN S. CARR, PRESIDENT, NATIONAL AIR TRAFFIC 
                    CONTROLLERS ASSOCIATION

    Mr. Carr. Good morning, Mr. Chairman and Members of the 
Aviation Subcommittee.
    I want to thank you for the opportunity to testify today on 
aviation safety. The people I represent feel that it is their 
sacred trust to ensure the smooth and efficient performance of 
our Nation's air-traffic controllers.
    Senator Burns. Pull that mike just a little closer, because 
you've got a nice soft voice.
    Mr. Carr. Oh, I can speak up.
    [Laughter.]
    Mr. Carr. Thank you, sir.
    We are very pleased and grateful to have this opportunity 
to discuss aviation safety. We share the Inspector General's 
concern on the need to hire more aviation safety inspectors. We 
remain concerned with the expansion of the FAA's designee 
program, which allows for the outsourcing of airworthiness, 
certification and inspection functions. However, today I'd like 
to concentrate, in my spoken testimony, on the immediate threat 
of runway incursions.
    There have been 358 runway incursions since October of last 
year, and we have learned from the NTSB that there is a high-
risk runway incursion occurring somewhere in the United States 
every 9 days. There have been 16 incursions at Boston Logan 
this year, and, in the past 6 months, we've seen instances at 
JFK, Newark, Tampa, and other airports. In each of these cases, 
disaster was avoided thanks to the skill of the pilots, the 
timely action of air traffic controllers, and, frankly, simply 
good luck. It goes without saying that we cannot, and must not, 
ever rely on good luck when it comes to protecting the lives of 
hundreds of thousands of passengers.
    Unfortunately, we see that this is precisely what is 
happening. We believe there are two main reasons for this. 
First and foremost, we believe that the FAA has failed to move 
quickly enough, or decisively enough, to install the most 
modern equipment at our Nation's airports, and, second of all, 
as you all are, I'm sure, aware, we are facing a staffing 
shortage of fewer and fewer controllers guiding more and more 
airplanes, both in the air and on the ground.
    The current technology in use at America's airports suffers 
from serious deficiencies. The most recently deployed 
technology, the Airport Movement Area Safety System, or AMASS, 
is limited by its inability to operate effectively in inclement 
weather.
    Let me just pause right there for a moment to let that sink 
in. The most recently deployed runway incursion-prevention tool 
must be turned off in bad weather when controllers need it 
most.
    In order to address this troubling gap in technology, NATCA 
has spent the last several years advocating vigorously for the 
rapid deployment of the next generation of surface detection, 
the Airport Surface Detection Equipment Model X, or ASDE-X 
system. This system functions in good weather and in bad, and 
goes a long way toward both reducing runway incursions and 
making airports safer. Unfortunately, ASDE-X cannot do us much 
good when the deployment plan remains on the drawing board.
    Details of how this deployment and this critical new system 
have been delayed are included in my written testimony, so I 
don't want to belabor that point here. But the results of that 
delay are this. The ASDE-X system that was supposed to be in 25 
airports by 2007 will now be in 15 airports by 2011, and the 
project is currently $85 million over budget.
    We believe the FAA's recent announcement of its intention 
to have 15 of these airports covered by that system by 2011 is 
too little and too late. We do not believe that we can wait 6 
years for this technology to be deployed when we've seen a 
series of dangerous incursions in just the last 6 months.
    Another contributing factor to runway incursion problems is 
the now chronic understaffing of air traffic control 
facilities. There are 1,000 fewer controllers today than there 
were just 2 years ago. And while the FAA has published a plan 
to hire thousands of new controllers, it takes time to get them 
certified, there was a high rate of failure, and it is becoming 
clear to us that steps are too little and too late.
    In order to just give you a sense of the actual impact of 
the issue, let me relate two near misses recently in Tampa, a 
facility that was understaffed at the time of both of these 
incidents, and facing a wave of retirements of their own.
    On August 23rd of this year, a jet taxied onto a runway 
that had been cleared for landing by another, causing a near 
crisis that was averted only when the controller in charge sent 
the incoming plane back out. Two weeks later, at the very same 
intersection, a second, and similar scenario played out. Again, 
a quick-thinking controller averted what could have been a very 
serious accident.
    These incidents in Tampa highlight two things. One, short 
staffing is directly contributing to an increase in runway 
incursions. And, second, given the fact that Tampa is not 
included on the FAA's list to receive ASDE-X, we fear that the 
FAA's approach to installations--installation of this 
technology is creating a two-tiered system of air-traffic 
safety, between the haves and the have-nots of modernization.
    These incidents reinforce what should be amply clear from 
repeated NTSB warnings. We must address the issue of runway 
incursions, and do so immediately. We must get our priorities 
in order and dedicate ourselves to working with all of the 
stakeholders to get the ASDE-X system deployed quickly and 
commit to putting in place a serious staffing strategy to 
ensure we have the number of controllers we need to keep our 
system strong.
    It's my belief that we've been given a great opportunity. 
We have not yet had the catastrophe that must compel us to 
action. We're gathered here today because this Committee had 
the collective foresight to recognize this gathering danger and 
to address these issues before disaster strikes. That places a 
grave and serious obligation on us all.
    On behalf of America's air traffic controllers, I can say 
that we stand ready and willing to do what it takes to make 
sure this mission is accomplished. We measure our success by 
the safety of our skies. And on behalf of the millions of 
passengers who count on us to guide them home, I respectfully 
call on these stakeholders to use this hearing as a chance to 
open a new chapter of cooperative action and collaboration 
toward meeting our shared goal of keeping our aviation system 
the safest and most efficient in the world.
    Thank you very much, and I'll be happy to answer any 
questions you might have.
    [The prepared statement of Mr. Carr follows:]

  Prepared Statement of John S. Carr, President, National Air Traffic 
                        Controllers Association

    Good morning Chairman Burns, Senator Rockefeller, and Members of 
the Aviation Subcommittee.
    I am John Carr, President of the National Air Traffic Controllers 
Association the exclusive representative of over 14,000 air traffic 
controllers serving the FAA, Department of Defense and private sector. 
In addition, NATCA represents approximately 1,200 FAA engineers, over 
600 traffic management coordinators, agency operational support staff, 
regional personnel from FAA's logistics, budget, finance and computer 
specialist divisions, and agency occupational health specialists, 
nurses and medical program specialists.
    NATCA members have a sacred trust: to ensure the smooth and 
efficient performance of the vast network that makes up America's 
National Airspace System.
    On their behalf, I am pleased and grateful to have this opportunity 
today to discuss aviation safety and the looming threat of runway 
incursions.
Runway Incursions
    Fifteen years ago the National Transportation Safety Board adopted 
its initial ``Most Wanted'' List of Transportation Safety Improvements. 
The list specifies the ``critical changes needed to reduce 
transportation accidents and save lives.'' Stopping runway incursions 
has been a continuing priority on the list. Unfortunately, the NTSB 
currently rates the FAA with an ``Unacceptable Response'' when it comes 
to runway incursions in its most recent release.
    For several years now, America's air traffic controllers, and 
indeed many other aviation professionals, have become increasingly 
concerned with a growing threat to air safety in this country. Consider 
the symptoms: Since October of last year, there have been 16 separate 
runway incursion incidents at Boston's Logan airport alone. In the past 
6 months we have seen a rash of incidents, including a number of 
terrifying near misses at JFK Airport in New York, Newark International 
Airport, Tampa International Airport, and other major airports.
    America's air traffic controllers see these not as isolated 
incidents, but as serious symptoms of fundamental problems that are 
threatening aircraft and passenger safety. And they must be addressed.
    NATCA's fundamental concerns are as follows:

  <bullet> The FAA has failed to move quickly enough or decisively 
        enough to install the most modern equipment at all our Nation's 
        airports.

  <bullet> The FAA is facing a staffing shortage that is forcing fewer 
        and fewer controllers to guide more and more planes--both in 
        the air and on the ground--creating a greatly reduced margin 
        for error.

  <bullet> The FAA terminated its long standing collaborative 
        partnership with air traffic controllers.

AMASS and ASDE-X
    The current technology in use at many of America's airports suffers 
from serious deficiencies. This includes the most recently deployed 
technology, the Airport Movement Area Safety System (AMASS), a ground 
movement safety system.
    The FAA deployed AMASS between 2001 and 2003 to 34 different 
airports. The system has several shortcomings, the most serious of 
which is the fact that AMASS has to be placed in a ``limited mode'' 
during periods of precipitation, meaning the safety alerting function 
is disabled. Therefore, during the worst possible weather conditions--
snow, rain, fog--the very times a safety alerting system is needed 
most, this critical safety layer is missing from our airports.
    The problems associated with AMASS are not just theoretical, they 
are all too real, posing serious threats to our busiest airports. 
Recently at Newark airport a commercial plane was landing on a runway 
traveling at around 120 miles per hour. At the same time, a smaller jet 
crossed the very same runway; the two planes missed each other by just 
300 feet. Taped communications from the FAA obtained by local news 
station WABC have revealed how AMASS failed to alert the control tower 
of the impending collision.
    In July at JFK a Boeing 767 mistook its instructions from the 
control tower and crossed the runway into the path of a cargo plane 
that was taking off. Luckily, the cargo plane was able to pull up just 
in time to clear the jet by a mere 75 feet. In this case, AMASS failed 
to alert because it had been switched off: it was raining and the 
system had been disabled.
    A month earlier at Boston Logan's airport, the system also failed--
it did not alert controllers to the fact that two commercial jets were 
heading toward each other. As Mark Rosenker, Acting NTSB Chair recently 
told a WABC reporter, the planes were ``Seconds and hundreds of feet'' 
from a catastrophic collision.
    In order to address the troubling gap in our technological 
capabilities, NATCA has spent the last several years advocating 
vigorously for the rapid deployment of the Airport Surface Detection 
Equipment-Model X (ASDE-X) system. The ASDE-X program was originally 
scheduled to include 25 airports with a completion date of 2007, but 
due to policy shifts and budget cuts in FY 2004 and FY 2005, as well as 
an increase in the number of airports (30+) slated to receive ASDE-X, 
only 15 facilities will have received ASDE-X by 2007. The agency is now 
estimating that the project will be completed by FY 2011.
    This past Tuesday, at the NTSB ``Most Wanted'' hearing, NTSB Board 
Member Debbie Hersman addressed the impact delayed deployment has on 
runway incursion: ``It is a concern when the FAA pushes the schedule 
back. The FAA is not addressing our concerns.''
    The critical nature of the situation and the desperate need for 
this technology was highlighted in the NTSB's Safety Recommendation A-
00-66, published in July 2000, which asks the FAA to ``require, at all 
airports with scheduled passenger service, a ground movement safety 
system that will prevent runway incursions.'' In stark contrast to this 
NTSB recommendation, many airports in the country currently are not 
equipped by the FAA with any type of a ground movement safety system 
and most are not scheduled to receive any ground safety technology.
    In September 2005, the FAA's Joint Resource Council (JRC) met to 
determine a new ASDE-X Rebaseline Request. The recommendation to the 
FAA Administrator was to reduce the number of facilities receiving 
ASDE-X and to terminate the deployment of ASDE-X at 15 of the original 
25 facilities scheduled to receive the system.
    The FAA's new plan is to take these 15 systems and upgrade 
facilities presently equipped with AMASS (Airport Movement Area Safety 
System)/ASDE-3 systems to a new ASDE-3X system. As a result of this 
decision we are seeing increases in the estimated cost of the program, 
as well as a prolonged deployment schedule from 2007 to 2011.
    The primary safety concern with this policy decision is that it 
leaves fifteen airports originally scheduled to receive an ASDE-X 
system without any ground radar surveillance system. The JRC's decision 
clearly cuts against the NTSB recommendation of, ``continuing to 
install ASDE-X at airports that currently have no ground movement 
safety systems before revisiting all existing AMASS sites to upgrade 
them to ASDE-X standard appears to be a reasonable method of maximizing 
coverage.''
    Likewise there is no guarantee that adding ASDE-X safety logic to 
an existing ASDE-3 system will work as envisioned. Louisville 
Standiford Tower tested the ASDE-3X system during the past year without 
success, and the FAA has terminated testing at the facility at this 
time, reverting back to the original AMASS system.
    The JRC noted that due to a $31.1 million budget reduction between 
2001 and 2005, along with increased costs and additional software 
development needed to upgrade AMASS, the new ASDE-3X project will not 
be completed until 2011. While NATCA agrees there is a need to upgrade 
the ASDE-3/AMASS system, we believe it should not come at the ultimate 
expense of the previously scheduled ASDE-X airports.
    Additionally, the NTSB Recommendation states that the ``new ground 
system should provide a direct warning capability to flight crews.'' 
ASDE-X has the capability to provide these direct warnings.
    In addition to radar, ASDE-X uses a multilateration system which 
serves as an enhancement to the surface radar by using the aircraft's 
own electronic signature to confirm radar targets. This system has many 
advantages over radar alone, as it can plot an aircraft's position more 
precisely than radar and it is not subject to the interference caused 
by precipitation. This allows the ASDE-X system to continue to operate 
during periods of adverse weather conditions.
Controller Staffing
    Runway incursions do not only occur because of the shortcomings of 
equipment or technological failures. America's aviation system depends 
on the skill, dedication and hard work of the men and women of 
America's air traffic control. As a result, a vital component of 
ensuring safety--and in this case avoiding runway incursions--is 
ensuring appropriate staffing of air traffic controllers to maintain 
the safety of the system.
    In an environment of record levels of air traffic, simple common 
sense dictates that the effect of fewer air traffic controllers guiding 
more planes will result in increasing stress on the system. 
Unfortunately this is not just a theoretic principle but a pressing 
reality: As we meet, there is a developing crisis in understaffed air 
traffic control facilities throughout the United States, and direct 
lines can be drawn between shortages of air traffic controllers at 
certain facilities and some of the recent runway incursions we have 
been witnessing.
    Following the 1981 strike in the United States, a new wave of air 
traffic controllers was hired. These men and women are now approaching 
retirement--a fact that anyone with a calendar can anticipate. But the 
FAA has dragged its feet on hiring adequate replacements. Today, there 
are 1,000 fewer controllers than there were two years ago. The FAA 
hired only 13 new controllers in all of FY 2004 and saw another net 
loss off controllers in FY 2005. The agency has stated that it plans on 
hiring 12,500 controllers, but that will take a decade, meaning that 
even in the best case scenario, the system will be left woefully 
understaffed for the foreseeable future. Additionally, the historical 
pass-fail rate of trainees in the system is about 40 percent. Even if 
the FAA were able to double its current rate of training success, it 
would not have enough qualified controllers to address the impending 
retirement tsunami.
    It is critical to note that this staffing shortage has been looming 
and was publicly forecast for years before the FAA took action. The GAO 
concluded in its June 2002 report, ``Air Traffic Control: FAA Needs to 
Better Prepare for Impending Wave of Controller Attrition,'' that the 
FAA had not done enough to plan for the impending staffing crisis and 
needed to do so as soon as possible. The report stated, (the) ``FAA has 
not developed such a comprehensive workforce strategy to address all of 
the challenges it faces in responding to its impending needs for 
thousands of new air traffic controllers, thus increasing the risk that 
FAA will not have enough qualified controllers when necessary to meet 
air traffic demands.'' GAO concluded that it ``believes that sound 
workforce planning demands that FAA develop a strategic vision that 
includes a workable, long-term plan to meet staffing needs.'' But the 
FAA failed to listen: it took another two years before the FAA admitted 
the problem, publishing their own report stating the same conclusions 
as the GAO, and even longer for the agency to take action.
    The result is that in facility after facility, at airport after 
airport, staffing has been cut to dangerously low levels, putting an 
increasing strain on the diminishing number of air traffic controllers, 
and we believe, exacerbating a portion of the recent runway incursions 
we have witnessed.
    A number of recent examples from the Nation's busiest airports make 
the link between staffing and runway incursions quite clear.
    We believe that an important reason for the incursions at Boston's 
Logan Airport is the FAA's failure to adequately staff the facility. 
The FAA has authorized 38 certified professional controllers to staff 
the facility at Boston Logan Air Traffic Control Tower. However, 
current levels fall far short with only 31 certified professional 
controllers and 2 trainees on board and with the potential loss of 20 
percent due to retirements in 2006.
    In Los Angeles a similar problem exists. On a clear August 
afternoon in 2004 an Asiana airliner was landing when the pilot saw the 
Southwest jet swing onto the same runway. He broke off his landing and 
pulled up, coming within about 200 feet of the other jet. The National 
Transportation Safety Board's investigation was quite clear about the 
cause of the incident: short staffing at the facility and an over-
worked controller being asked to handle too much. Staffing at the 
facility was at about half of its capacity when the near-catastrophe 
occurred. Unfortunately, that chronic understaffing continues at that 
facility.
    Just last month, the FAA's western pacific regional counsel denied 
two employees from giving depositions in court citing ``The Airport 
Traffic Control Tower at Los Angeles is severely understaffed.''
FAA Terminates Collaborative Partnership With Controllers
    ASDE-X technology is a good example of what happens when the FAA 
includes air traffic controller input early on and throughout the 
approval process. The GAO cited the success of this past practice of 
FAA collaboration with controllers in a November 2004 report: (the) 
``FAA faced fewer schedule and cost problems in approving ASDE-X for 
use in the national airspace system. This was, in part, because FAA 
included stakeholders early and throughout the approval process. The 
ASDE-X program office brought in stakeholders, including maintenance 
technicians and air traffic controllers, during the concept of the 
operations phase and continued to involve them during the requirements 
setting, design and development, and test and evaluation.''
    ``By obtaining the input of controllers and technicians at the 
beginning of the approval process, FAA was able to ensure that ASDE-X 
requirements were set at appropriate levels and not over specified or 
underspecified.''
    Unfortunately, and contrary to the GAO's analysis, on July 29, 
2005, the FAA unilaterally ended all collaboration between the agency 
and air traffic controllers by terminating the liaison partnership 
between air traffic controllers and the FAA.
    This deliberate policy shift away from controller input stands in 
sharp contrast to the FAA's own report on Investment Analysis (August 
15, 2000) on ASDE-X. The report stated that having a cooperative work 
environment with controllers was critical to the Runway Incursion 
Reduction Program.
Mismanagement of ATC Modernization
    Air traffic is forecast to triple in the next 15 years, add in an 
expected increase in regional jet and very light jet operations at 
small and midsized airports, and it becomes apparent that now is the 
time to start the installation of ASDE-X equipment. Not just at the 
Nation's largest airports but at the airports no longer scheduled to 
receive ASDE-X as well, such as Oakland, Sacramento, San Antonio, 
Tampa, and Columbus. Unfortunately, the FAA has consistently mismanaged 
ATC modernization programs. One need only look at the STARS program as 
an example.
    Originally STARS (Standard Terminal Automation Replacement System), 
was to be deployed to 172 facilities by 2005, but the FAA revised its 
numbers and by the end of 2004, they reduced the number of facilities 
scheduled to receive STARS to forty-seven. Last October the Department 
of Transportation Inspector General reported that STARS had a cost 
growth of 80 percent at almost $1.7 billion and a final implementation 
of 2012. A similar pattern of delay, reduction of deployment, and cost 
overruns has also occurred with the deployment of ASR-11 (Airport 
Surveillance Radar Model-11).
    ASR-11 was scheduled to replace aging analog radars at 111 
facilities. However the FAA's Joint Resource Council recently reduced 
the number of ASR-11 deployments to 66 FAA sites plus 3 Department of 
Defense sites and one HAATS funded site.
    The original deployment plan for the ASR-11 radar system included a 
scheduled completion date of the end of 2005 at an initial cost of 
$743.3 million. As of June 2005 the current schedule of deployment has 
been extended to 2013 while the current cost is around $916 million. 
The FAA has also decreased the original number of ASR-11 sites from 111 
to 66, while the cost ($696.50 M) is virtually unchanged from the 
original estimate there has been more than a 40 percent reduction in 
planned radar sites. According to the JRC, the increased cost is mostly 
due to budget deferrals, update requirements, safety enhancements to 
equipment, along with cost estimating and risk.
    The ASDE-X program is now marching down the familiar road the FAA 
has taken in previous modernization programs. Chronic mismanagement has 
prevented both the timely deployment of this essential equipment as 
well as severely reduced the number of airports originally scheduled to 
receive these modernization tools. NATCA considers ASDE-X to be an 
excellent tool that can aid pilot and controllers in the prevention of 
runway incursions. We believe this equipment will take us well into the 
21st century, helping maintain the United States air traffic control 
system as the safest in the world. We also believe the FAA should 
reflect the same high level of concern for preventing runway incursions 
as the NTSB. Therefore we can only consider the FAA's $20 million 
reduced budget request for Fiscal Year 2006 ASDE-X funding to reflect 
an almost callous disregard for improving the safety of the United 
States air traffic control system.
Necessary Steps
    The National Air Traffic Controllers Association urges 
consideration of the following:

  <bullet> Deploy for safety: Considering the recent increases in the 
        number of runway incursions around the country, why is the FAA 
        only installing critical ground radar equipment at 16 airports 
        despite its earlier commitments to install the equipment in 
        more than twice as many places?

        --NATCA does not believe the country should have a two-tiered 
        system of safety where some airports deserve safe runways while 
        others don't. Furthermore, NATCA believes that the current FAA 
        timeline of six years to install this technology is too long 
        and calls on the agency to expedite the timeline. This system 
        could go a long way toward reducing runway incursions and 
        making our airports safer.

  <bullet> Staffing for safety: Chronic understaffing at our Nation's 
        air traffic control facilities is another key contributing 
        factor to the other cause of runway incursions. The FAA is not 
        adequately staffing air traffic facilities across the country, 
        even as air traffic increases to record levels. There are 1,000 
        fewer controllers today than there were two years ago. The FAA 
        is losing more controllers than it is hiring and training, 
        putting the agency in a continuing net-loss staffing situation. 
        The agency must adequately staff the air traffic control 
        system.

  <bullet> Collaboration for safety: Why is the FAA refusing to discuss 
        critical safety issues in contract negotiations with 
        controllers? Though air traffic controllers know the aviation 
        system best, FAA management just recently refused to discuss a 
        range of critical safety issues during contract negotiations.

    Mr. Chairman, we look forward to working with you and this 
Subcommittee to ensure that our air traffic control system remains the 
safest, most efficient system in the world.

    Senator Burns. Thank you very much, Mr. Carr. We appreciate 
that.
    And now we'll listen to Mr. Basil Barimo, Vice President, 
Operations and Safety, from the Air Transport Association. And 
thank you for coming this morning.

 STATEMENT OF BASIL J. BARIMO, VICE PRESIDENT, OPERATIONS AND 
       SAFETY, AIR TRANSPORT ASSOCIATION OF AMERICA, INC.

    Mr. Barimo. Thank you, Mr. Chairman, Senator Rockefeller, 
and Members of the Committee.
    I am Basil Barimo, and, on behalf of the 23 airlines who 
are members of ATA, I appreciate the opportunity to address 
airline safety today and into the future.
    We have submitted a written statement for the record that 
covers a number of topics.
    Senator Burns. I should have--and I'm sorry--excuse me, but 
all your statements, your full statements, will be made part of 
the record. And if you can pull them down a little bit, why, 
we'll get through the questions and everybody'll get their due. 
So--I failed to mention that.
    Thank you very much.
    Mr. Barimo. Thank you, Mr. Chairman.
    This morning, I want to touch on three of those: the U.S. 
airline industry's extraordinary safety record, the use of 
contract maintenance by air carriers, and an emerging issue 
that warrants attention by all stakeholders, but particularly 
the FAA.
    U.S. airlines currently have an extraordinary and 
unparalleled safety record. As the chart I've put up 
illustrates, airline safety today is, by any measure, 
exceptional. Based on NTSB data, the chart clearly shows a 
dramatic reduction in the airline fatal accident rate. Are we 
perfect? Of course not, but we will continue improving, and 
we're working diligently every day to maintain our forward 
momentum. We're proud of this record, because it the tangible 
result of our core operating principle: safety first.
    You know well that the airline industry is fiercely 
competitive. But if there's one thing that binds the ATA 
members together, it is their interest in safety. From CEOs to 
ramp workers to everyone in between, airlines demand, and 
expect, the highest level of attention to detail when it comes 
to safety. And this principle extends to all of our partners--
airframe and engine manufacturers, suppliers, and service 
providers.
    As a result, notwithstanding the economic turmoil of the 
past 4 years, U.S. airline safety has continued to improve. In 
2004, NTSB reported only one fatal accident in only--over 10 
million scheduled departures. In three full years, spanning 
2002 to 2004, there were three fatal accidents in 31 million 
scheduled departures. During that time, U.S. airlines providing 
Part 121 service carried nearly two billion passengers and 
recorded just 34 fatalities. Moreover, this trend continues in 
2005. And, without question, scheduled air service is 
incredibly safe, and our goal is to build on that safety 
record.
    One of the reasons why our safety record has improved is 
the growing use of data-driven analysis to understand and 
prioritize risks and to identify, and act on, indicators of 
potential problems. The joint FAA/industry Commercial Aviation 
Safety Team, better known as CAST, has led the way in this 
regard, and its goal of reducing the fatality risk by 80 
percent by 2007 is well in sight.
    CAST has successfully identified and addressed risks to 
produce important safety improvements. In addition, voluntary 
airline programs, such as the Flight Operational Quality 
Assurance and Aviation Safety Action programs, which rely on 
actual flight data and employee reporting, require labor, 
carrier, and FAA participation, and it helps to identify 
potential problems before they result in accidents.
    Effective and efficient maintenance programs also play a 
key role in our safety record. Having managed maintenance 
operations and quality assurance programs at a major airline 
and then at a major repair station, let me state that 
maintenance is a 24/7 function that requires careful 
organization, tight control, diligent oversight, and robust 
quality assurance. Airlines have developed comprehensive 
oversight systems to ensure that aircraft are maintained 
properly, in accordance with FAA regulations and manufacturers' 
standards. Furthermore, airlines have their own staff on-site 
to monitor work wherever it's being performed.
    An important component of any airline's maintenance program 
is third-party maintenance provided by repair stations. Repair 
stations have provided high-quality maintenance services to 
airlines for many years. It's nothing new. Because repair 
stations offer savings to airlines due to competitive pricing 
and flexibility when compared to the rolled-up costs of in-
house maintenance, their use has grown in recent years as 
airlines have reduced their own cost structures. Some have 
suggested that this practice reduces or impairs safety, but the 
facts simply don't support those claims. Simply put, there is 
no basis for the contention that safety suffers because 
airlines utilize third-party maintenance.
    The last point I want to make this morning is the emerging 
issue of the impact that very light jets, VLJs, or microjets, 
as you've heard them called, will have on the safety of 
commercial airline operations when introduced in the near 
future. They're being marketed to individuals, and a number of 
entrepreneurs are planning new air-taxi services. VLJs will 
impact scheduled airline operations, because they will operate 
in the same airspace as large jets, similar altitudes, but they 
will operate at slower speeds, and that's a concern. Today, 
2,500 VLJs reportedly are on order, and FAA estimates that 
4,500 will be operating within the next 10 years. Some put 
those numbers even higher.
    The introduction of VLJs into airspace used for commercial 
operations raises questions about pilot qualifications and 
training, as well as maintenance and oversight. We are not 
saying that VLJs are unsafe or that they're a hazard. What 
we're saying, however, is that we need to look ahead and 
examine the risks and determine if current regulations and 
practices are adequate to ensure the safety not only of VLJ 
operators, but of other users in the airspace. And we would 
support the idea of further discussion around VLJs.
    In closing, we have seen a consistent improvement in 
airline safety. In my opinion, our improved safety record is a 
direct result of increased reliance on data-driven analysis 
that prioritizes risks and then applies resources in a 
disciplined manner. Our safety record also demonstrates that 
the expanded use of third-party repair stations by airlines 
does not negatively affect safety. And while there may be room 
for some improvement in the regulatory and oversight structure, 
it is, in fact, working.
    Today, airline travel is safer than ever, and the facts 
speak for themselves.
    Thank you for the opportunity to speak before you, and I'm 
glad to answer questions.
    [The prepared statement of Mr. Barimo follows:]

 Prepared Statement of Basil J. Barimo, Vice President, Operations and 
           Safety, Air Transport Association of America, Inc.
    The Air Transport Association of America, Inc. (ATA), the trade 
association of the principal U.S. passenger and cargo airlines, \1\ 
welcomes and appreciates the opportunity to submit these comments for 
the record on the state of aviation safety in the U.S. airline 
industry. ATA's 23 member airlines have a combined fleet of more than 
4,400 aircraft and account for more than 90 percent of domestic 
passenger and cargo traffic carried annually by U.S. airlines. ATA and 
its members have a vested interest in the safety of commercial air 
transportation.
---------------------------------------------------------------------------
    \1\ ABX Air, Inc.; Alaska Airlines; Aloha Airlines; American 
Airlines; ASTAR Air Cargo; ATA Airlines; Atlas Air; Continental 
Airlines; Delta Air Lines; Evergreen International Airlines; FedEx 
Corp.; Hawaiian Airlines; JetBlue Airways; Midwest Airlines; Northwest 
Airlines; Southwest Airlines; United Airlines; UPS Airlines and US 
Airways. Associate members are: Aeromexico; Air Canada; Air Jamaica and 
Mexicana.
---------------------------------------------------------------------------
The Industry's Safety Record is Unparalleled
    ATA was founded in 1936 by then-fledgling U.S. airlines for two 
fundamental reasons: to improve and promote safety within the airline 
industry, and to advocate for a legal and regulatory environment that 
would allow the U.S. commercial airline industry to grow and prosper. 
What was true then is true today, safety is the foundation of this 
industry. U.S. airlines will succeed and thrive only if the industry in 
fact is safe, and only if the public recognizes and believes it is 
safe. For these reasons, our members take their safety responsibilities 
very seriously. ``Safety first'' is more than just a catch-phrase--it 
is the core principle of this industry.
    Notwithstanding the financial challenges of the past four years, 
\2\ U.S. airline safety has remained rock solid. In 2004, the National 
Transportation Safety Board (NTSB) reported only one fatal accident in 
over 10 million scheduled departures. In the three full years spanning 
2002 to 2004, there were three fatal accidents in 31 million scheduled 
departures. During that time, U.S. airlines providing Part 121 
scheduled operations carried nearly 1.9 billion passengers and recorded 
just 34 fatalities. The overall number of accidents also has decreased. 
The rate at which any accidents occur is now less than one accident per 
five million departures. Moreover, this trend continues in 2005. 
Without question, scheduled air service is incredibly safe, and our 
goal is to build on that safety record.
---------------------------------------------------------------------------
    \2\ The economic plight of the U.S. airline industry since 9/11 is 
well known. The industry lost over $32 billion through 2004, and 
experts forecast it will lose another $9 billion in 2005. Seven 
carriers currently are reorganizing in Chapter 11, including three 
network carriers, and US Airways recently emerged from Chapter 11 (for 
the 2nd time) after merging with America West Airlines. Without 
question, the past four years have been the worst economic period in 
the history of the airline industry.
---------------------------------------------------------------------------
The Right Regulatory Philosophy and Programs
    While there are many reasons for the industry's excellent safety 
record, in our opinion two key developments stand out as having a 
significant positive impact. First, we have progressed from a 
prescriptive, conduct-based regulatory philosophy that focuses on what 
to do and how to do it, to one that looks to set performance standards 
first and the manner of achieving the desired performance second. This 
has shifted the focus to where it should be--the safety objective, 
allowing carriers and the Federal Aviation Administration (FAA) to 
better define and implement appropriate procedures and requirements. 
Second, instead of being reactive and establishing safety goals based 
on the most recent accident or incident, the industry has learned to 
use the wealth of hard data accumulated by all stakeholders--FAA, NTSB 
and air carriers--to drive the safety agenda so that the most serious 
risks are identified and solutions developed in an orderly, efficient 
and effective manner. This data-driven, risk-assessment approach to 
safety has paid tremendous dividends already. It is the key to future 
safety improvements and continued accident prevention. ATA airlines 
consider accident prevention the top safety priority.
    FAA and airline safety programs reflect and implement the 
regulatory philosophy and data-driven approach to safety previously 
described. In particular, the development of voluntary programs that 
encourage the reporting of operational data that would otherwise be 
lost has expanded the data set and enhanced the value of the analytical 
products. Working with the FAA and other stakeholders, U.S. airlines 
have developed flight operational quality-assurance programs--known as 
FOQA programs, \3\ aviation safety action programs \4\ and line 
operations safety audit programs. \5\ These programs have provided 
valuable data that have yielded insights into the precursors of 
accidents. FAA and the airlines have used this information to identify 
and effectively mitigate risks that might otherwise have resulted in 
accidents. We believe these and other similar programs will produce 
further improvements in aviation safety.
---------------------------------------------------------------------------
    \3\ FOQA programs involve the collection and analysis of data 
recorded in flight to improve the safety of flight operations, air 
traffic control procedures, and airport and aircraft design and 
maintenance.
    \4\ ASAP involves collection and analysis of safety concerns 
reported by employees.
    \5\ LOSA involves the collection of safety data through in-flight 
observations of flight crews by specialists.
---------------------------------------------------------------------------
    One of the most important programs affecting safety has been the 
joint industry-government Commercial Aviation Safety Team (CAST). CAST 
was established in 1997 to develop a comprehensive strategy to identify 
and prioritize risks and then develop solutions to reduce commercial 
aviation fatalities in the United States. Using a data-driven process, 
the CAST initiative identifies accident precursors and contributing 
factors to ensure that resources are applied to improve safety where 
needed most and where most effective. Over time, CAST has successfully 
addressed several types of accidents, such as controlled flight into 
terrain, approach and landing accidents, runway incursions, maintenance 
management, icing, and uncontained engine failures. As of April 2005, 
30 different safety enhancements had been accomplished, and 17 were 
underway. Through these 47 enhancements, the goal is to reduce the 
fatality risk 80 percent by 2007.
    As noted, the CAST strategy is first and foremost data-driven. It 
relies on comprehensive analysis of past accidents/incidents to 
identify accident precursors and then develop specific safety 
enhancements to address those precursors and related contributing 
factors. But the CAST process does not stop there. It is a fully 
integrated process that includes airlines, manufacturers, maintenance 
providers, commercial pilots, National Aeronautics and Space 
Administration (NASA) and other stakeholders, so that once the 
solutions have been identified, the affected parties implement the 
safety enhancements and track their implementation for effectiveness. 
Ultimately, the knowledge gained is used to continually improve not 
only the U.S. aviation system, but aviation safety worldwide. Canadian 
and European authorities also participate in CAST.
Achieving Safety on All Levels
    In addition to data-driven programs, aviation safety can be viewed 
as the cumulative outcome of numerous other activities by the FAA, 
NTSB, airlines and their employees, and airframe and engine 
manufacturers. The most obvious of these is the approval and 
surveillance by the FAA of air carrier training, operations and 
maintenance programs, complimented by FAA's enforcement program. 
Training programs for flight and cabin crews are critical to safe 
operations. Because of the large number of qualified pilots and flight 
attendants available, airlines continue to be highly selective in their 
hiring of crew members. Airlines employ a rigorous selection and 
training process that includes comprehensive initial and recurrent 
training. Most major airlines today utilize the Advanced Qualification 
Program, which enables each airline to tailor its curriculum to its 
unique operating environment and thereby maximize crew-member 
proficiency.
    Effective and efficient maintenance programs also play a key role 
in our outstanding safety record. Maintenance is a 24/7 function that 
requires careful organization, tight control, diligent oversight and 
robust quality assurance. Airlines have developed comprehensive 
oversight systems to ensure that aircraft are maintained properly in 
accordance with FAA regulations and manufacturers' standards. These 
systems ensure that aircraft perform safely and reliably, regardless of 
where the maintenance is performed. Repair stations (third-party 
maintenance providers certificated under Part 145) have and will 
continue to play a vital role in air carrier operations. FAA oversight 
of repair stations is another important layer in a comprehensive safety 
net. In addition to FAA oversight, air carriers generally maintain 
their own on-site staff at their major maintenance-provider locations 
to continually monitor performance and quality.
Current Issues
    Current safety issues being addressed by FAA include runway 
incursions, strengthened seats in transport aircraft and fuel tank 
flammability. We are pleased that FAA is deploying new ground 
surveillance systems to reduce the risk of runway incursions at our 
busiest airports. We look forward to working with the FAA and airports 
to implementing this new safety improvement. Likewise, we support the 
FAA's recently issued final rule on strengthened passenger and 
crewmember seats (``16-G seats''). Many of our members began installing 
16-G seats long before the FAA proposed a new rule in 2002, and we are 
pleased that this voluntary effort was recognized in the final rule. 
The final rule is supported by a data-driven safety analysis and will 
result in improved safety without imposing an undue economic burden on 
the industry.
    Earlier this week, the FAA issued a notice of proposed rulemaking 
(``NPRM'') on eliminating the risk of catastrophic fuel tank 
explosions. We are in the process of reviewing that NPRM. The NPRM, 
however, is merely the final step in an overall initiative to address 
this issue. Over the past 10 years, we have worked closely with the FAA 
and airframe manufacturers to make numerous equipment and operational 
changes to reduce the potential for such an event. Those changes have 
been efficient and effective. Likewise, we think it makes great sense 
to incorporate fuel tank inerting technology in new aircraft, which the 
recent NPRM proposes. We hope that, like the 16-G seat rule, the FAA 
has made the safety case for retrofitting more than 3,200 commercial 
aircraft with this new technology, which would be an extremely 
challenging and costly undertaking. We want to be sure that the risk 
assessment is sound and that this is the best and most effective use of 
scarce resources. As previously stated, the reactive, regulate-by-
incident approach of the past does not always ensure that the most 
serious safety issues are addressed or that effective measures are put 
into place. Data-driven risk analysis and related benefit-cost analysis 
will achieve that goal.
Emerging Issues
    Looking ahead, we see the possibility of new risks emerging. We 
urge the FAA to be mindful of these emerging issues and their potential 
impact on commercial aviation safety. We discuss two such issues here. 
The first is the imminent introduction of high-performance light weight 
jets for personal use and air taxi operations. These jets, commonly 
referred to as Very Light Jets (VLJs) or microjets, will operate in the 
same airspace as large commercial jets, but at a slower speed. Today, 
2,500 VLJs reportedly are on order, and the FAA estimates that 4,500 
VLJs will be operating by 2016. Others estimate even greater numbers of 
these aircraft. Honeywell, for example, forecasts 8,000 units by 2018. 
The emergence of these aircraft raises a number of questions that must 
be addressed:

  <bullet> How will the FAA ensure that VLJ pilots, particularly 
        private pilots operating their own (or jointly owned) 
        microjets, obtain and maintain the skills needed to operate 
        safely in commercial airspace?

  <bullet> Are current pilot certification standards appropriate for 
        this new generation of aircraft?

  <bullet> Are current maintenance standards for privately owned 
        aircraft appropriate for this new generation of aircraft?

  <bullet> Will FAA maintenance surveillance programs ensure the safety 
        of these aircraft if owned and operated privately as well as by 
        air taxi operators?

  <bullet> Are the second- and third-tier airports where these aircraft 
        are expected to operate fully prepared to respond to a safety 
        incident?

    These are just a few of the questions that must be resolved to 
ensure VLJs do not have an adverse impact on safety. \6\ In addition to 
these basic safety issues, there is the question of funding safety 
oversight of this sector. The scheduled airline industry contributes 95 
percent of the Airport and Airway Trust Fund (AATF), and in FY 2006 
will pay 82 percent of the total FAA budget. Congress must ensure the 
VLJ sector pays its fair share into the AATF not only in relation to 
its use of the air traffic control system, but also to cover related 
safety oversight. The airlines should not subsidize safety oversight of 
the VLJ sector, including both private use and air taxi operations. \7\
---------------------------------------------------------------------------
    \6\ Closely related is the question of security. What systems and 
programs will be put in place to ensure that these aircraft operate 
with the same level of security as large transport category aircraft? 
Air taxi operations, in particular, should be subject to the same level 
of security as all other commercial operations.
    \7\ The same concern exists as to the VLJ sector's contribution to 
Federal sources used to fund airport improvements. It would be ironic 
for these aircraft owners/operators to benefit from Federal programs at 
the airports where they operate but not contribute their fair share to 
funding these programs.
---------------------------------------------------------------------------
    The second emerging issue, somewhat related to the first, concerns 
modernizing and expanding the capacity of the air traffic control 
system to handle the anticipated growth in demand. Much of the growth 
in demand for air traffic services anticipated by FAA (FAA forecasts a 
300 percent increase in demand by 2025) is from VLJs and other small 
aircraft operators. FAA's air traffic services must expand to 
accommodate this growth safely.
    For this to happen, it is critical that the FAA migrate from its 
1950's era ground radar system to a state-of-the-art satellite-based 
navigation and surveillance system that utilizes the technological 
capabilities of aircraft to communicate with one another and a central 
control facility. An adequate and stable funding mechanism is crucial 
if the FAA is to ensure flight safety in this new environment and, as 
part of this effort, the FAA must capitalize on operating cost 
reductions it can achieve by eliminating and consolidating costly, out-
of-date facilities. Enhancing capacity will enhance aviation safety as 
all sectors of aviation expand in the foreseeable future.
Conclusion
    Notwithstanding extreme economic pressure, the U.S. airline 
industry has experienced one of the safest, if not the safest, four-
year period in its history. While hearings like this allow us to 
proudly reflect on this accomplishment, we understand that we cannot 
become complacent and rest on our accomplishments. Aviation safety 
demands constant vigilance, review and improvement. For this reason, we 
will continue to work with the FAA, the NTSB, and the many parties with 
a stake in the continued safety of our industry. ``Safety first'' will 
continue to be our core principle.

    Senator Burns. Thank you very much. Appreciate that.
    Mr. Robert Roach, Jr., General Vice President, the 
International Association of Machinists and Aerospace Workers--
--
    Mr. Roach. Thank you.
    Senator Burns.--of which I was a member at one time.
    Mr. Roach. And I'll sign you up right today.
    [Laughter.]

         STATEMENT OF ROBERT ROACH, JR., GENERAL VICE 
      PRESIDENT, TRANSPORTATION DEPARTMENT, INTERNATIONAL 
        ASSOCIATION OF MACHINISTS AND AEROSPACE WORKERS

    Mr. Roach. Thank you, Mr. Chairman, Senator Rockefeller, 
and Members of the Committee, for the opportunity to speak 
today.
    My name is Robert Roach, Jr., General Vice President, 
Transportation Department, for the International Association of 
Machinists and Aerospace Workers. I'm appearing at the request 
of International President R. Thomas Buffenbarger. The 
Machinists Union represents more than 100,000 U.S. airline 
workers in almost every classification, including Mechanics, 
Flight Attendants, Ramp Service Workers, Public Contacts.
    Let me say that Administrator Blakey has made herself 
personally available--and her staff--to myself and my staff. We 
believe that the work that she has done has greatly contributed 
to the fact that we are--we do have the safest U.S. airways 
aviation history in the world. However, we do not believe that 
we can allow ourselves to become complacent. We must increase 
our vigilance in the United States, and honestly assess and 
defuse the threat from overseas repair stations. The financial 
crisis in the airline industry is well known. Carriers are 
continually looking for ways to save money and, unfortunately, 
are increasingly looking at their maintenance programs to 
reduce costs. Far too often, that means subcontracting 
maintenance work previously done by an airline's own employees.
    Unfortunately, without proper oversight, the reduction in 
costs can come with increased risks. For example, in January of 
2003, US Airways Express Flight 5481 crashed into a Charlotte, 
North Carolina hangar, killing 21 people onboard. The National 
Transportation Safety Board determined that a mechanic for the 
subcontractor improperly adjusted the cables that help control 
the pitch of the aircraft and skipped steps that the NTSB said 
would have likely have helped the mechanic catch the mistakes.
    FAA regulations require such flight-critical work to be 
inspected, but in this case, it was inspected by the same 
instructor who allowed the steps to be skipped. The NTSB 
chairman said, ``I think the entire system here was broken 
down. There were errors at every level.''
    As the virtual-airline model gains favor, we must ensure 
that aircraft maintenance practices are strictly policed, 
regardless of where they are performed.
    A July 2003 report by the Department of Transportation 
Inspector General criticized the Federal Government's inability 
to adequately police the dramatic increase in outsourcing by 
the Nation's airlines. Independent maintenance repair 
facilities are not the problem. The IAM represents workers at 
the independent repair facilities, but our collective 
bargaining agreements help foster maintenance excellence. 
Congress must pass laws so the FAA can ensure regulations, but 
unless the front-line mechanic isn't afraid to object when 
management puts profits before safety, they are meaningless. 
Congress can provide the funds that are needed to hire 
additional inspectors to perform the work that is needed.
    Oversight repair facilities are a separate, more dangerous 
issue. The amount of certified foreign repair stations has 
increased more than 300 percent since Federal regulations were 
significantly loosened in 1988. Congress directed that the FAA 
submit a plan by March 12, 2004, to ensure that foreign repair 
stations working on U.S. aircraft are subject to the same level 
of safety and oversight as required here at home. Mr. Chairman, 
we are still waiting for the FAA to submit a plan and address 
Congress' requirement for one level of safety.
    Furthermore, having U.S. aircraft repaired overseas opens 
up this country to great security risk. These stations should 
be immediately closed down until security audits of these 
stations can be conducted and security vulnerabilities 
addressed.
    There should be one standard for safety, security and FAA 
oversight at all aircraft repair stations, including equivalent 
standards for criminal background checks and drug and alcohol 
testing of workers, as well as tightened access to security or 
repair facilities. An immediate increase in FAA inspectors is 
necessary to safeguard the U.S. aviation industry.
    Calls for increased airport security were heard before 9/11 
and ignored, for economic reasons. Experts warn that the New 
Orleans levee system was inadequate to withstand a major storm, 
but they were not shored up until due course.
    Mr. Chairman, Members of this Committee, in case you 
haven't heard it before--let my testimony today serve as a 
warning that the oversight of maintenance of U.S. aircraft is 
almost non-existent. I'm here not only to sound an alarm, but 
to offer the assistance of the Machinists Union and all our 
members, who build and maintain aircraft, to help safeguard our 
aviation industry.
    I thank this Committee for inviting us to participate in 
these proceedings and listening to our concerns. I look forward 
to answering your questions.
    And with me today, I have our director of aviation matters 
for the Machinists Union, Dave Supplee, who is also here to 
answer any questions that you may have of a technical nature.
    Thank you.
    [The prepared statement of Mr. Roach follows:]

   Prepared Statement of Robert Roach, Jr., General Vice President, 
Transportation Department, International Association of Machinists and 
                           Aerospace Workers

    Thank you, Mr. Chairman, and Members of this Committee for the 
opportunity to speak to you today. My name is Robert Roach, Jr., 
General Vice President of Transportation for the International 
Association of Machinists and Aerospace Workers (IAM). I am appearing 
at the request of International President R. Thomas Buffenbarger. The 
Machinists Union represents more than 100,000 U.S. airline workers in 
almost every classification, including Mechanics, Flight Attendants, 
Ramp Service workers, Public Contact employees.
    The U.S. aviation industry is the safest in the world. However we 
cannot allow ourselves to be complacent. In fact, just the opposite is 
necessary. We must increase our vigilance in the United States, and 
honestly assess and diffuse the threat from overseas repair stations.
    The financial crisis in the airline industry is well known. 
Carriers are continually looking for ways to save money, and 
unfortunately are increasingly looking at their maintenance programs to 
reduce costs.
    Far too often, that means subcontracting maintenance work 
previously done by an airline's own employees. Unfortunately, without 
proper oversight the reduction in cost can come with increased risk.
    On January 8, 2003 US Airways Express Flight 5481 crashed into a 
Charlotte, NC hangar packed with IAM members, killing all 21 people on 
board. The subsequent National Transportation Safety Board (NTSB) 
investigation faulted Air Midwest, which operated the aircraft, the 
facility that performed maintenance of the aircraft and the FAA.
    US Airways, headquartered in Arlington, Virginia, sold the tickets 
to the flight and the aircraft displayed the carrier's logo. Air 
Midwest, based in Arizona, operated the flight and was responsible for 
the aircraft's maintenance. But Air Midwest subcontracted that 
maintenance to Raytheon Aerospace in Huntington, WV.
    There, the NTSB determined that a mechanic improperly adjusted 
cables that helped control the pitch of the aircraft. The mechanic had 
never done the job on that type of plane before and with his trainer's 
approval, skipped steps that the NTSB said would likely have helped the 
mechanic catch his mistakes.
    FAA regulations require such flight critical work to be inspected, 
but in this case it was inspected by the same instructor who allowed 
steps to be skipped.
    NTSB Chairman Ellen Engleman Conners said, ``I think the entire 
system here was broken down. There were errors at every level.''
    As the ``virtual airline'' model gains favor, we must ensure that 
aircraft maintenance practices are strictly policed, regardless of 
where they are performed.
    A July 2003 report by the Department of Transportation's Inspector 
General criticized the Federal Government's inability to adequately 
police the dramatic increase in out-sourcing by the Nation's airlines.
    Independent maintenance repair facilities are not the problem. Some 
are very proficient. But the culture within a company, whether it is an 
airline-owned facility or an independent company, can lead to poor 
maintenance practices.
    The IAM represents workers at some independent repair facilities, 
but our collective bargaining agreements help foster maintenance 
excellence. Our members do not fear the loss of jobs if they voice 
concern about improper maintenance practices or refuse to perform 
unsafe work. Congress can pass laws and the FAA can issue regulations, 
but unless the front-line mechanic isn't afraid to object when 
management put profits before safety, they are meaningless.
    Overseas repair facilities are a separate, more dangerous issue. 
The July 2003 Inspector General Report highlighted the weak oversight 
of aircraft maintenance performed overseas by third-party contractors. 
The amount of certified foreign repair station has increased more than 
300 percent since Federal regulations were significantly loosened in 
1988.
    Congress directed the FAA to submit a plan on March 12, 2004, to 
ensure that foreign repair stations working on U.S. aircraft are 
subject to the same level of safety and oversight as required here at 
home.
    Mr. Chairman, we are still waiting for the FAA to submit a viable 
plan.
    Furthermore, having U.S. aircraft repaired overseas opens up this 
country to a great security risk. It is not hard to imagine how 
certified foreign aircraft repair stations working on U.S. aircraft 
could provide terrorists with an opportunity to sabotage U.S. aircraft 
or components that will eventually re-enter the U.S. for domestic 
service. These stations should be immediately closed down until 
security audits of those stations can be conducted and security 
vulnerabilities addressed.
    There should be one standard for safety, security and FAA oversight 
at all aircraft repair facilities, including equivalent standards for 
criminal background checks and drug and alcohol testing of workers as 
well as tightening access to and security of repair facilities.
    But the fact is that the FAA does not have sufficient funding to 
hire an adequate amount of inspectors to ensure aviation maintenance 
safety, at home or abroad. An immediate increase in FAA inspectors is 
necessary to safeguard the U.S. aviation industry.
    Calls for increased airport security were sounded before 9/11 and 
ignored for economic reasons. Experts warned that the New Orleans levee 
system was inadequate to withstand a major storm, but they were not 
shored up due to cost. Mr. Chairman, Members of this Committee, in case 
you haven't heard it before, let my testimony today serve as a warning 
that the oversight of maintenance on U.S. aircraft is almost non-
existent.
    I am here not only to sound an alarm, but to offer the assistance 
of the Machinists Union and all our members who build and maintain 
aircraft to help safeguard our aviation industry.
    I thank the Committee for inviting us to participate in these 
proceedings and listening to our concerns.
    I look forward to your questions.

    Senator Burns. Mr. Roach, thank you very much.
    We have, now, Christian Klein, Legislative Counsel, 
Aeronautical Repair Station Association.

     STATEMENT OF CHRISTIAN A. KLEIN, LEGISLATIVE COUNSEL, 
            AERONAUTICAL REPAIR STATION ASSOCIATION

    Mr. Klein. Good morning, Chairman Burns and Ranking Member 
Rockefeller, other distinguished Members of this panel.
    My name is Christian Klein, and I am Legislative Counsel 
for the Aeronautical Repair Station Association. Our members 
are companies that have been certificated by the FAA, and by 
other civil aviation authorities, to perform maintenance on 
commercial air carrier and general aviation aircraft and 
aircraft components. In the context of our discussions about 
contract maintenance, our members are the companies to which 
the air carriers are turning increasingly for contract 
maintenance services.
    I'd like to focus my remarks today on what I think are 
three of the most important issues in the discussion of 
contract maintenance.
    The first point I'd like to make is that contract 
maintenance is nothing new; and, indeed, contracting, in 
general, in the aviation industry is nothing new. For example, 
manufacturers like Boeing and Airbus, have been relying on 
specialized subcontractors at multiple levels of the 
manufacturing chain for many, many years. Repair stations and 
the contract maintenance industry have been servicing 
commercial and general aviation operators for close to three-
quarters of a century, and over that time they have become an 
important part of the aviation industry. They've also developed 
a significant economic footprint.
    Today, contract maintenance companies employ more than 
212,000 people at more than 4,000 facilities in all 50 States. 
I refer you to Appendix A of our written testimony, in which we 
have included the breakdown on a State-by-State basis so you 
can see the number of certificated maintenance facilities in 
your State, and the number of people employed. So, for 
instance, in Montana, there are 22 Part 145 repair stations. In 
West Virginia, there are 13. In New Jersey, there are 71 Part 
145 repair stations. In Arkansas, there are 42. So, again, this 
is an industry that has a significant economic footprint all 
over the United States.
    Although contract maintenance and repair stations are 
nothing new, we certainly have seen in recent years an 
increased use of repair stations by airlines. And we think that 
this is because airlines have recognized that repair stations 
can provide savings and flexibility while continuing to allow 
the airlines to meet the highest standards of safety. You've 
heard the statistic that over the last decade, the percentage 
of contract maintenance by airlines has increased from about a 
third to more than 50 percent. And, at that same time, we're 
experiencing the safest period in the history of commercial 
aviation in this country. Now, we're not suggesting that the 
latter is necessarily the result of the former, but we do think 
this shows that there's not a negative relationship between 
increased use of contract maintenance and aviation safety.
    The second issue I'd like to address is that of repair 
station oversight by the Federal Aviation Administration. We 
certainly recognize that Members of this panel have concerns 
about FAA oversight. And, in fact, ARSA is on the record as 
calling for Congress to authorize and appropriate the highest 
possible level of funding for the FAA to make sure that it has 
sufficient resources to oversee the industry.
    To be quite frank with you, this is not, for our members, 
just an issue of safety, but, given the highly regulated nature 
of this industry, it's also a matter of business necessity and 
a matter of efficiency.
    But with all that in mind, I would submit to the Members of 
this Committee that the responsibility for safety and oversight 
do not begin and end with the FAA, that those are the 
responsibilities of all the players in the aviation industry. 
Although you may have concerns about the oversight of the FAA, 
in particular, if you look at the industry comprehensively, I 
think you see that there is a tremendous level of oversight. In 
an effort to try to illustrate this, our association conducted 
a member survey last week, an online member survey, that we had 
about a third of our members participate in and the results of 
which are included as Appendix C of our written testimony. What 
we've found was that the average domestic repair station was 
audited more than 30 times last year. That's more than three 
times by regulators, FAA and others, more than seven times by 
their airline customers, at least once by some outside third-
party auditor, and more than 18 times by the repair station's 
own internal quality personnel. Now, what this suggests to us 
is that all the players in the industry recognize that whether 
or not the FAA is conducting oversight, the industry has to 
oversee itself. The airline customers are demanding the highest 
quality of work from repair stations, and our members are 
demanding it of themselves. Put simply, in our business, safety 
is good business.
    I think that my time is about to expire, Mr. Chairman. I'd 
like to ask for one more minute, if I may, to address a third, 
and final, issue in the context of the debate, and that's the 
question of foreign repair stations.
    Senator Burns. You may proceed.
    Mr. Klein. Thank you very much.
    There are three points I'd like to make on the question of 
foreign repair stations.
    First, it's important to note that under international law, 
U.S.-registered aircraft have to be maintained at FAA-
certificated facilities. So, foreign repair stations are an 
absolutely critical part of the international aviation system. 
If it weren't for foreign repair stations, U.S. air carriers 
would have to stop flying to international destinations, 
because there would be no one there to service the aircraft 
when it got there. It's that simple.
    The second point I'd like to make is that foreign repair 
stations are subject to the same, or an equivalent, level of 
oversight and regulation as domestic repair stations. Foreign 
repair stations are required to demonstrate that they have 
appropriate facilities, appropriate housing, appropriate 
personnel, who have been properly trained, that they have 
proper equipment, and that they have proper data to do the work 
properly. And they have to demonstrate that they have quality 
systems in place to make sure that that work is done properly.
    And, finally, there is a high level of oversight of these 
foreign repair stations. I mentioned a moment ago, the ARSA 
survey that we conducted last week that found that the average 
domestic repair station received 30 audits last year. What that 
survey found was that the average foreign repair station 
received 74 audits last year. And, again, that's 74 audits by 
Government regulators, by airline customers, by third-party 
quality auditors, and by the repair station's own internal 
quality people.
    So, it's for all these reasons that ARSA has so zealously 
opposed any restrictions on the use of foreign repair stations 
by U.S. airlines. And it's the reason that we are so opposed to 
the so-called repair station security provisions of the 
Transportation Security Improvement Act that the full Commerce 
Committee is going to be considering this afternoon.
    Chairman Burns, thank you very much for the opportunity to 
be with you. And I would, of course, be happy to answer any 
questions you might have.
    [The prepared statement of Mr. Klein follows:]

    Prepared Statement of Christian A. Klein, Legislative Counsel, 
                Aeronautical Repair Station Association

    Chairman Burns, Ranking Member Rockefeller, and Members of the 
Subcommittee, thank you for inviting me to testify this morning about 
the work America's contract aviation maintenance companies are doing to 
ensure the safety of the traveling public while helping air carriers 
improve their bottom lines.
    My name is Christian A. Klein and I am legislative counsel for the 
Aeronautical Repair Station Association (ARSA). ARSA is an 
international trade association with a distinguished 21-year record of 
educating and representing certificated aviation maintenance facilities 
before the U.S. Congress, the Federal Aviation Administration (FAA), 
the European Aviation Safety Agency (EASA), and other National Aviation 
Authorities (NAA).
    ARSA's primary goal is to educate its members, other aviation 
industry participants, and government employees on regulatory 
compliance matters. We accomplish this through our monthly newsletter, 
the hotline, our annual Repair Symposium, and a wide range of training 
courses. ARSA also serves as a resource for lawmakers and policymakers 
to ensure that aviation laws and regulations are promulgated, 
interpreted, and enforced in a sensible, objective, consistent, and 
fair manner.
    ARSA's primary members are companies that hold repair station 
certificates issued by the FAA under Part 145 of the Federal Aviation 
Regulations (FARs). These certificates are our industry's ``license to 
do business.'' They authorize repair stations to perform maintenance 
and alterations on civil aviation products, including aircraft, 
engines, and propellers, and on the component parts installed on these 
products. The repair stations that ARSA represents perform maintenance 
for airlines and general aviation owners and operators. According to 
the FAA, repair stations currently employ 212,188 people at 4,345 
facilities in all 50 states (see Appendix A). Contract maintenance 
providers are an important part of the $9 billion a year domestic air 
transportation support sector of the U.S. economy. The aviation 
maintenance industry's economic impact is felt nationwide.
    ARSA commends the Subcommittee for holding this hearing. In recent 
years, the profile of the contract maintenance industry has increased 
dramatically. We welcome the opportunity to discuss the important role 
our members play in the aviation industry and the national economy.
The History of Contract Maintenance
    Contract aviation maintenance is nothing new. Since the early 
twentieth century, our industry has consistently provided dependable, 
expert maintenance to the commercial and general aviation sectors.
    Since enactment of the Civil Aeronautics Act of 1938, the Federal 
Government has authorized the use of repair stations to perform 
maintenance for airlines and general aviation owners and operators. 
Part 145 of the FARs, and its predecessor, Part 52 of the Civil Air 
Regulations (CARs), specifically addresses the standards under which 
repair stations must operate. The FARs ensure that certificated repair 
stations meet the same safety standards as airlines' in-house 
maintenance organizations. Although most of the recent media attention 
has focused on maintenance performed for air carriers, it is important 
to note that repair stations or other authorized persons perform all 
maintenance on general aviation aircraft. This is because general 
aviation operators, unlike air carriers, are not authorized to perform 
maintenance in their own right.
    In recent years airlines have realized that they can increase their 
use of outside maintenance contractors to reduce costs while 
maintaining a high level of safety. Over the past decade, network air 
carriers have increased contract maintenance from 37 percent of their 
total maintenance expenses to 53 percent. \1\ Contract maintenance also 
plays a critical role in supporting the approximately 200,000 general 
aviation aircraft registered in the United States. Indeed, for decades 
repair stations have served as the primary source of maintenance for 
the general aviation sector.
---------------------------------------------------------------------------
    \1\ Department of Transportation Office of Inspector General, Rep. 
No. AV-2005-062, Safety Oversight of an Air Carrier Industry in 
Transition, at 1 (June 3, 2005).
---------------------------------------------------------------------------
The Role of Contract Maintenance in the U.S. Economy
    The growing contract maintenance industry is a source of stable, 
good paying jobs for skilled workers and has absorbed employees laid 
off by struggling air carriers. In 1994, the Indianapolis Airport 
Authority (IAA) leased the Indianapolis Maintenance Center (IMC) to 
United Airlines, Inc. In 2003, after filing for Chapter 11 bankruptcy 
protection, United vacated the state-of-the-art maintenance facility. 
Less than a year later, AAR Aircraft Services, Inc. entered into a 10-
year lease agreement with the IAA and later received a repair station 
certificate for that location from the FAA. AAR's investment allowed 
the IMC to reopen and gave hundreds of aviation maintenance workers the 
opportunity to work for a financially stable company.
    Numerous industries throughout the national and global economy 
utilize the contract service model to decrease costs, increase quality 
and efficiency, and realize a greater return on investment. Companies 
that utilize contract services can avoid unnecessary capital and 
personnel expenditures, allowing them to more easily adapt to emerging 
market trends and economic conditions.
    Maintenance is not the only routinely contracted service in the 
aerospace industry. Flight training, fueling services, and 
manufacturing of civil aviation products and parts are all performed by 
contractors. Aircraft manufacturers such as Boeing and Airbus S.A.S. 
have thousands of first-tier suppliers, who, in turn, have thousands of 
lower-tier suppliers involved in the production of each model of 
aircraft. These highly specialized suppliers are uniquely qualified in 
various aspects of the design and manufacture of Boeing and Airbus 
products. Like airlines that oversee contract maintenance, aircraft 
manufacturers maintain strict oversight of their suppliers' production 
operations, since they retain regulatory responsibility for the final 
product. In addition, as with repair stations that have their own FAA 
certification, some suppliers to aircraft manufacturers obtain 
independent production approvals from the FAA, making them 
independently responsible under the regulations for the replacement 
parts they produce and sell. Not only are contractors used to 
manufacture thousands of aircraft, engines and propellers, but they 
play a major role in the production of smaller articles, such as 
hydraulics, avionics and pneumatic systems. Nor is contracting unique 
to the aviation industry; indeed, it is a hallmark of a free market 
economy that virtually all industries utilize.
Trends in Safety and Contract Maintenance
    The increased use of contract maintenance by airlines has coincided 
with the safest period in the history of America's commercial aviation 
industry.
    Between 1994 and 2004, the use of repair stations to perform 
maintenance for ``legacy'' airlines increased from one-third to over 
half of all airline maintenance. \2\ During that same period, the 
worldwide fatal accident rate declined. \3\ Most notably, in the past 
five years, the number of fatal airline passenger accidents has 
markedly decreased, from 45 in 1999 to 26 in 2004. \4\ The fatal 
accident rate in 2004, 26, was far below the annual average of 48.8 for 
the three previous decades. \5\ In addition, 2003 and 2004 had the 
lowest accident rates of any year since 1945. \6\
---------------------------------------------------------------------------
    \2\ Department of Transportation Office of Inspector General, Rep. 
No. AV-2005-062, Safety Oversight of an Air Carrier Industry in 
Transition, at 1 (June 3, 2005).
    \3\ Harro Ranter, The Aviation Safety Network, Airliner Accident 
Statistics 2004: Statistical summary of fatal multi-engine airliner 
accidents in 2004, at 7 (January 1, 2005).
    \4\ Id. at 13.
    \5\ Id. at 7.
    \6\ Id.
---------------------------------------------------------------------------
    While we recognize that ``after'' does not always mean ``because 
of,'' the foregoing trends suggest that the highly-qualified repair 
stations servicing commercial aviation aircraft are not detracting from 
aviation safety.
The Who and What of Contract Maintenance
    To operate in the civil aviation maintenance industry, certificated 
repair stations must demonstrate to the FAA, or other NAAs if 
applicable, that they possess the housing, facilities, equipment, 
personnel, technical data, and quality control systems necessary to 
perform maintenance in an airworthy manner. Based upon satisfactory 
showings in these areas, a repair station is rated to perform certain 
types of maintenance. Not all repair stations look alike and their 
capabilities vary significantly. Some repair stations provide line 
maintenance--the routine, day-to-day work necessary to keep an 
airline's fleet operating safely. Some perform substantial maintenance, 
which includes more comprehensive inspection and repairs on airframes 
and overhauls of aircraft engines. Some repair stations offer 
specialized services for their customers such as welding, heat 
treating, and coating on a variety of aircraft parts. However, the vast 
majority of repair stations perform maintenance on components. 
Component maintenance usually occurs off the aircraft, and even away 
from an airport, in industrial parks and other facilities that one 
might not consider when thinking about aviation maintenance.
    Certificated repair stations include both manufacturers of civil 
aviation articles who service their own equipment and independent 
organizations with the technical, engineering and management 
capabilities necessary to thrive in an increasingly complex aviation 
industry. The skills and technology required to maintain civil aviation 
products often call for an increased level of sophistication. To meet 
this demand, contract maintenance companies have developed highly-
specialized facilities. Repair stations, like medical specialists, 
often seek to strengthen their core competencies by specializing in a 
particular line or type of product. This allows them to develop a high 
level of proficiency in performing certain repairs.
Cost Savings and Quality
    Beyond the value of specialized expertise, repair stations have 
consistently offered cost-savings to their airline and general aviation 
customers. The ability to perform high quality, reliable work in a 
timely manner and at a lower cost has allowed repair stations to 
thrive, even in an economic climate that threatens other sectors of the 
aviation industry.
    Competitive bidding in contract maintenance requires repair 
stations to carefully control their costs. To successfully compete for 
and retain business, repair stations must find efficiencies and savings 
that are often unavailable to in-house maintenance organizations. 
Without contract maintenance, an airline would have to invest capital 
in equipment and personnel for tasks it may not undertake as frequently 
or efficiently as a repair station specializing in that particular type 
of work.
    In addition, many large airlines have found it difficult to control 
their labor costs. Repair stations, particularly small businesses, do 
not face the same demands on their resources. While employees at repair 
stations are not always compensated at the same levels as their 
unionized airline colleagues, contract maintenance workers enjoy other 
benefits, including the prospect of stable employment in a growing 
industry and the ability to work for a small, family-owned company. 
Their decision to accept lower pay in some cases in no way reflects the 
value of their contributions or the quality of their work. Indeed, the 
technicians at repair stations possess the training and skills 
necessary to ensure the highest level of safety and regulatory 
compliance.
Oversight
    Government regulators play a critical role in ensuring the safety 
of the Nation's commercial and general aviation systems. However, ARSA 
is concerned that the FAA does not have adequate budget resources to 
fulfill all of its oversight obligations. The FAA expects to lose about 
300 safety inspectors by the end of 2005. The House of Representative's 
Fiscal Year 2006 budget for the FAA provides $8 million in funding for 
hiring and training an additional 97 inspectors, while the Senate's 
version does not provide any specific funding for additional 
inspectors. \7\ ARSA is on record as supporting congressional efforts 
to increase funding for FAA operations to ensure that the agency has 
adequate resources to oversee the industry and to respond in a timely 
manner to requests for new ratings, new certificates, etc.
---------------------------------------------------------------------------
    \7\ See, H. Rep. 109-153; S. Rep. 109-109 (2005).
---------------------------------------------------------------------------
    In reports published in 2003 and 2005, the Office of the Inspector 
General of the Department of Transportation (DOT IG) expressed concerns 
about the FAA's oversight of the contract maintenance industry and 
stated that the agency's oversight is currently insufficient for the 
amount of work independent repair stations perform for airlines. \8\ 
The FAA has responded to these findings by introducing a risk-based 
inspection program that identifies those repair stations doing the most 
work for airlines and monitoring their operations more closely. ARSA 
supports efforts to better utilize FAA resources to ensure the 
continued quality of contract maintenance and to demonstrate to 
policymakers and the public that our aviation system remains safe.
---------------------------------------------------------------------------
    \8\ See, Department of Transportation Office of Inspector General, 
Rep. No. AV-2003-047, Review of Air Carriers' Use of Aircraft Repair 
Stations, at 1 (July 8, 2003); Department of Transportation Office of 
Inspector General, Rep. No. AV-2005-062, Safety Oversight of an Air 
Carrier Industry in Transition, at 1 (June 3, 2005).
---------------------------------------------------------------------------
    We also note that despite the IG's observations, repair stations 
are subject to a tremendous amount of oversight by regulators and 
others. Between November 7 and 11, 2005, ARSA conducted an on-line 
member survey to gather data about the number of audits our members 
receive on an annual basis (see Appendix C). Among the survey's 
findings:

  <bullet> The average domestic repair station is audited more than 
        three times per year by government regulators.

  <bullet> The average repair station is audited more than seven times 
        per year by customers. These audits include the continuous 
        analysis and surveillance programs air carriers are required to 
        undertake by regulation through the Coordinating Agency for 
        Supplier Evaluation (CASE) and other customer programs.

  <bullet> Repair stations themselves perform an average of 18 internal 
        audits annually.

  <bullet> On average, domestic repair stations undergo a total of more 
        than 30 audits each year, while foreign repair stations with 
        FAA certificates undergo an average of more than 74 audits.

    According to the DOT IG, the FAA needs to readjust its oversight 
priorities. In the meantime, however, the ARSA survey and other 
evidence suggest that repair stations, the aviation industry, and 
regulators collectively provide a high-level of oversight of contract 
maintenance to ensure continued quality and safety.
    Finally, although the FAA's role is critical, lawmakers should 
recognize that safety does not begin and end with Federal regulators. 
The agency and its employees are not omniscient. Aviation safety 
inspectors will never be able to oversee each mechanic at every 
facility all the time. Thus, safety is not just the responsibility of 
the FAA, but of every maintenance employee at every certificated repair 
station. It is the FAA's role to ensure that repair stations have the 
procedures in place to ensure the quality of the work performed and to 
ensure that procedures are followed. Indeed, FAA regulations treat 
repair stations as extensions of an air carrier's maintenance 
organization. This means that the maintenance provider must perform the 
work in accordance with the carrier's maintenance program and the 
applicable portions of its manual. It also requires the airlines to 
provide a level of oversight to make certain that these standards are 
met.
Contract Maintenance and the International Scene
    Unlike the United States, in which the FAA permits and expects 
airlines to perform maintenance on their fleets to complement their 
operations, European regulators view operations and maintenance as two 
distinct functions. EASA requires that an airline obtain a separate 
repair station certificate before it can perform maintenance on its 
fleet or the aircraft of other carriers.
    In 1994, the air carrier Lufthansa converted its maintenance 
division into an independent stock corporation, Lufthansa Technik AG. 
Lufthansa Technik performs the maintenance for Lufthansa, and also 
manages the airline's maintenance program. As European regulators see 
it, an airline's core competency is operating aircraft. This 
demonstrates that in-house maintenance is not necessarily a logical or 
necessary outgrowth of airline operations.
    When considering the international aspects of contract maintenance, 
critics often cite ``outsourcing'' to foreign repair stations as a 
trend that damages both the safety and economic health of our national 
aviation system. However, an objective examination of the practice 
reveals that the use of FAA-certificated foreign repair stations is a 
necessary component of the international aviation system and that the 
U.S. is a world leader when it comes to providing maintenance services 
to airlines.
    The Chicago Convention of 1944 and International Civil Aviation 
Organization (ICAO) standards require that the State of Registry (i.e. 
the country in which an aircraft is registered) oversee the maintenance 
performed on an aircraft and related components, regardless of where 
the maintenance is performed. \9\ Consequently, a U.S. registered 
aircraft requiring maintenance while outside of the U.S. must have that 
work performed by an FAA-certificated maintenance provider. For this 
reason, FAA-certificated foreign repair stations exist. Similarly, when 
an aircraft of foreign registry requires maintenance while in the U.S., 
only a repair station certificated by the relevant NAA may perform the 
work. For example, only an EASA-certificated repair station may perform 
maintenance on an aircraft of French registry within the U.S.
---------------------------------------------------------------------------
    \9\ See, ICAO Annex 8, ch. 4 Sec. 4.2.1(b).
---------------------------------------------------------------------------
    This legal regime has proven beneficial to American repair 
stations. Currently, there are 677 FAA-certificated repair stations 
outside the U.S. (see Appendix B). At the same time, there are 
approximately 1,275 EASA-certificated repair stations, and numerous 
other NAA-certificated repair stations inside our borders. Our aviation 
maintenance industry is highly-regarded worldwide. As a result, the 
U.S. enjoys a favorable balance of trade in the market for these 
services, a fact that has benefited repair station employees, and the 
towns and states in which these maintenance facilities are located.
    Foreign repair stations are not an economic threat for U.S. 
companies, nor does their use threaten aviation safety. These entities 
generally must meet the same or equivalent safety standards as domestic 
facilities. Unlike their domestic counterparts, however, foreign repair 
stations must renew their certificate with the FAA annually or, at the 
discretion of the FAA, biannually, following a safety inspection. This 
ensures that the FAA evaluates the housing, facilities, equipment, 
personnel, and data of each repair station located outside the U.S. at 
least once every two years. We remind the Subcommittee of the findings 
of the recent ARSA survey referenced above, viz., that the average FAA-
certificated foreign repair station is audited more than 74 times each 
year by government regulators, customers, other third-parties, and the 
repair station's own personnel, suggesting a high-level of combined 
oversight.
    It is for the foregoing reasons that ARSA has consistently opposed 
legislative efforts to restrict the use of foreign repair stations by 
U.S. airlines. For example, we understand that the Commerce, Science, 
and Transportation Committee is considering legislation that would 
reduce the amount of time the FAA and Transportation Security 
Administration (TSA) have to develop and verify compliance with the new 
repair security rules mandated by Vision 100. \10\ Language in the law 
prohibits the FAA from issuing new foreign repair station certificates 
if all current foreign certificate holders have not received security 
audits within a set period of time. ARSA is concerned that this 
provision will disrupt the availability of maintenance for U.S. 
airlines operating internationally.
---------------------------------------------------------------------------
    \10\ S. 2052, 109th Congress Sec. 205 (2005).
---------------------------------------------------------------------------
Conclusion
    Over the past decade, airline use of contract maintenance has 
steadily increased. During that same period, the world aviation system 
has experienced unprecedented safety. Repair stations play a large role 
in this trend through the use of highly-qualified and trained 
employees, state of the art facilities, and a commitment to providing 
high quality maintenance services to airline customers.
    Congress can help maintain these positive trends by providing the 
FAA with adequate resources to oversee the repair station industry, 
encouraging continued close oversight by airline customers, and 
ensuring that legislation and regulations are based on objective safety 
factors rather than some other agenda.
                               Appendix A

                                          FAA Repair Stations by State
----------------------------------------------------------------------------------------------------------------
                                    State                                   Count               Employees
----------------------------------------------------------------------------------------------------------------
        AK                                                                           54                      475
        AL                                                                           61                    5,265
        AR                                                                           42                    3,362
        AZ                                                                          164                    7,690
        CA                                                                          712                   31,932
        CO                                                                           73                    1,127
        CT                                                                          107                    7,817
        DC                                                                            1                        7
        DE                                                                            6                      661
        FL                                                                          516                   15,935
        GA                                                                          110                   14,873
        GU                                                                            1                        5
        HI                                                                           13                      212
        IA                                                                           38                    2,601
        ID                                                                           30                      325
        IL                                                                           97                    2,977
        IN                                                                           73                    3,019
        KS                                                                          104                    6,671
        KY                                                                           36                      491
        LA                                                                           44                    1,929
        MA                                                                           59                    2,109
        MD                                                                           29                      769
        ME                                                                           13                      729
        MI                                                                          126                    4,344
        MN                                                                           63                   17,623
        MO                                                                           54                    3,690
        MS                                                                           23                      933
        MT                                                                           22                      244
        NC                                                                           66                    3,551
        ND                                                                           11                       78
        NE                                                                           13                    1,221
        NH                                                                           25                      595
        NJ                                                                           71                    2,463
        NM                                                                           22                      668
        NV                                                                           34                      745
        NY                                                                          136                    4,763
        OH                                                                          148                    4,678
        OK                                                                          150                    9,471
        OR                                                                           45                    1,274
        PA                                                                          105                    2,265
        PR                                                                           17                      140
        RI                                                                           10                      392
        SC                                                                           30                    2,554
        SD                                                                           15                       73
        TN                                                                           52                    1,745
        TX                                                                          448                   24,696
        UT                                                                           31                      457
        VA                                                                           44                    1,705
        VI                                                                            1                        1
        VT                                                                           11                      167
        WA                                                                          124                    7,676
        WI                                                                           43                    1,445
        WV                                                                           13                    1,472
        WY                                                                            9                       78
----------------------------------------------------------------------------------------------------------------
    Total                                                                         4,345                  212,188
----------------------------------------------------------------------------------------------------------------
Based on FAA Air Agency Data dated: November 13, 2005.


                               Appendix B

                                         FAA Repair Stations by Country
----------------------------------------------------------------------------------------------------------------
                                   Country                                  Count               Employees
----------------------------------------------------------------------------------------------------------------
        AC                                                                            1                       58
        AE                                                                            3                    2,673
        AR                                                                            6                    1,615
        AS                                                                           15                    6,624
        AU                                                                            1                    1,150
        BA                                                                            1                        4
        BE                                                                           11                    4,521
        BL                                                                            1                      207
        BR                                                                           15                    5,823
        CH                                                                           20                   13,585
        CI                                                                            3                      503
        CO                                                                            4                    1,278
        CS                                                                            2                      477
        DA                                                                            3                    1,123
        EG                                                                            1                    3,500
        EI                                                                           12                    3,579
        ES                                                                            1                    1,050
        ET                                                                            1                    2,230
        EZ                                                                            2                    1,295
        FI                                                                            1                    1,880
        FJ                                                                            1                       26
        FR                                                                          104                   33,194
        GM                                                                           52                   31,640
        GR                                                                            1                      898
        GT                                                                            2                       80
        HK                                                                            8                    5,047
        HU                                                                            2                      394
        ID                                                                            2                    2,813
        IN                                                                            2                      818
        IS                                                                           12                    5,526
        IT                                                                           17                    7,189
        JA                                                                           23                   19,776
        JO                                                                            2                      685
        KE                                                                            1                        5
        KS                                                                            6                    5,574
        LU                                                                            1                      322
        MO                                                                            2                    1,231
        MT                                                                            1                       42
        MX                                                                           19                    4,515
        MY                                                                            9                    4,087
        NL                                                                           21                    7,257
        NO                                                                            5                    1,503
        NZ                                                                            5                    2,841
        PE                                                                            3                      437
        PM                                                                            1                      392
        PO                                                                            2                    2,182
        QA                                                                            1                       30
        RO                                                                            2                    1,062
        RP                                                                            8                    1,680
        RS                                                                            1                      245
        SA                                                                            5                    6,353
        SF                                                                            5                    3,982
        SN                                                                           45                   12,950
        SP                                                                            5                    4,314
        SW                                                                            7                    2,128
        SZ                                                                            9                    4,216
        TD                                                                            1                       30
        TH                                                                            6                    5,554
        TU                                                                            1                    2,555
        TW                                                                            6                    4,537
        UK                                                                          163                   22,574
        UP                                                                            1                       91
        VE                                                                            3                      247
----------------------------------------------------------------------------------------------------------------
    Total                                                                           677                  264,197
----------------------------------------------------------------------------------------------------------------
Based on FAA Air Agency Data dated: November 13, 2005.


   Appendix C--ARSA Repair Station Audit Surveillance Survey Results

                                      Domestic Repair Station Annual Audits
----------------------------------------------------------------------------------------------------------------
                                                Responses   Internal  Regulatory   Customer   3rd Party   Total
----------------------------------------------------------------------------------------------------------------
Total                                                 183      3,301         663      1,361         235    5,560
Average                                                         18.0         3.6        7.4         1.3     30.4
----------------------------------------------------------------------------------------------------------------


                                      Foreign Repair Station Annual Audits
----------------------------------------------------------------------------------------------------------------
                                                Responses   Internal  Regulatory   Customer   3rd Party   Total
----------------------------------------------------------------------------------------------------------------
Total                                                  27      1,439         219        311          48    2,017
Average                                                         53.3         8.1       11.5         1.8     74.7
----------------------------------------------------------------------------------------------------------------


                                       Total Repair Station Annual Audits
----------------------------------------------------------------------------------------------------------------
                                                Responses   Internal  Regulatory   Customer   3rd Party   Total
----------------------------------------------------------------------------------------------------------------
Grand Total                                           210      4,740         882      1,672         283    7,577
Average                                                         22.6         4.2        8.0         1.3     36.1
----------------------------------------------------------------------------------------------------------------


    Senator Burns. Thank you. And we appreciate you being here 
today.
    Mr. Carr, we seem to hear some concern about operational 
error reporting. And we also hear about an automated system. Do 
you support that system?
    Mr. Carr. Absolutely. In fact, there is already an 
automated system for operational error reporting in the en 
route environment. There lacks the technology to implement an 
automated error reporting system in the terminal environment, 
which is in close to airports. And, quite frankly, it's more a 
question of technology than anything else. There are so many 
different ways that you can separate airplanes in close to the 
airport. You can separate them with diverging courses. You can 
separate them with distance. You can separate them laterally. 
You can separate them horizontally. In the en route 
environment, at high altitudes, there's really only one or two 
ways to separate them, altitude or distance. So, it's very easy 
to technologically, sort of, catch errors. In the terminal 
environment, it's very difficult. But we have no problem with 
it if--as long as the technology is robust enough to accurately 
report it, we don't oppose that.
    Senator Burns. Mr. Roach, your testimony pretty much was 
very critical of outside contracting, and given the safety 
record over the last years, why should Congress interfere in 
the airline's choice to have maintenance done by whomever it 
chooses, as long as it's certificated and goes through all the 
hoops in order to perform the maintenance?
    Mr. Roach. I think the Inspector General testified that 
these foreign repair, 138 inspections, this wasn't performed. 
In some countries, there are not any inspections. And we think 
that the level of maintenance in these foreign repair stations 
are not at the same level as they are in the United States. And 
we think that's very critical. And I don't know of any 
airlines--you know, the--Mr. Klein testified that we wouldn't 
be able to fly overseas if we didn't have these foreign repair 
stations. I don't know of any major airlines that fly into the 
United States, such as British Airways, that have their planes 
maintained. Their planes are maintained in their countries. So, 
I--and we're not talking about line maintenance, we're talking 
about major overhaul maintenance.
    So, there's no reason, for--like American Airlines have all 
their major overhaul maintenance done in the United States, in 
their own facilities. There's no reason why we have to go 
overseas, outside this country, to have our planes maintained. 
And I don't see the same inspections, the same oversight over 
there that we have over here.
    Senator Burns. I'm going to move right along now and cut my 
time in half. We've got a vote on.
    And, Senator Lautenberg, do you have any questions for this 
panel?
    Senator Lautenberg. I have one, and that is related to the 
technology issue, Mr. Carr.
    Do they, in the towers, have the same type of collision-
avoidance systems, et cetera, that we see in the airplanes 
themselves or--the other comparisons, with whatever the 
technology is, in the airplanes, it's pretty sophisticated. Do 
the towers have that same availability?
    Mr. Carr. They do not. Actually, in the cockpits, you had 
the TCAS, which is the Traffic Collision Avoidance System. It 
uses transponders of other aircraft to report the relative 
position and to give guidance strictly in terms of climb or 
descent, it does not give turn guidance when it forecasts 
potential conflicts. The only automated collision-avoidance 
technology that's currently available is AMASS, the Airport 
Movement Area Safety System. It has to be turned off in bad 
weather, because it misidentifies raindrops as airplanes. And 
the oncoming technology, ASDE-X, which augments AMASS and does 
a much better job of sort of the predicted logic necessary to 
discern runway incursions, and that's the one that's going to 
be rolled out over the course of the next 7 years.
    Senator Lautenberg. One more question. What's your view on 
the progress of the controller contract negotiations?
    Mr. Carr. I was just hoping I'd get a chance to do my 
Christmas list, but as relates to contract negotiations, I 
believe they're going slowly, albeit progress is being made. I 
think the parties are probably about one-third done with the 
work that remains before them.
    We're disappointed, from the perspective that we put 
forward a lot of what we thought were forward-thinking 
proposals that had nothing to do with money, nothing to do with 
work schedules or vacations. We proposed continuing air traffic 
controller representation with the National Transportation 
Safety Board. The FAA proposed to delete that. We proposed a 
way of reducing workman's compensation claims. The FAA proposed 
to delete that. We proposed technology issues, ranging from the 
JPDO to URET to information display systems, and the FAA 
proposed to delete those. So, we're, sort of, frustrated by our 
inability to move forward on what we think are modernization in 
safety and technology issues, and yet we continue to exchange 
proposals on things as arcane as dress codes. So, I'm not happy 
with the progress, but we're going to keep plugging away.
    Senator Lautenberg. Mr. Chairman, I have one thing I want 
to be sure to clear up here. When I put in a cheer for Amtrak, 
it wasn't because I feel that the aviation system is unsafe. I 
think it's fantastic. But the one thing we do know, we need to 
have ways to transport people and goods in our country. And it 
looks like our aviation system is darn near full, in terms of 
capacity--in our airspace and airports. Our aviation system 
needs constant work, and the projections for future target 
dates for safety enhancements are not always taken too 
seriously. I mentioned Amtrak because we need to invest in 
alternative methods to transport people, as well as investing 
in our aviation system. And I don't want to shortcut aviation 
in any way, but I do think it would be wonderful if travelers 
had the option to take a highspeed train as well as a plane 
between cities in America.
    Thank you.
    Senator Burns. Let me assure the Senator that our skies in 
Montana aren't that crowded.
    [Laughter.]
    Senator Burns. We can handle a little more business up 
there.
    I have a question for Mr. Klein. Could you just, for the 
Committee, tell us what your members have to do to be certified 
and certificated?
    Mr. Klein. Absolutely, Senator. I would, actually, like to, 
if I could for just one second, correct a misapprehension, 
about the question of the balance of trade in international 
maintenance services. And I would just point out that there are 
actually twice as many repair stations in the United States 
that have been certificated by the European aviation authority 
to work on European-registered aircraft and components than 
there are U.S.-FAA-certificated facilities in Europe or abroad. 
The U.S. aviation maintenance industry really does set the gold 
standard and is the envy of the world. And so, we do get a lot 
of business from overseas into our domestic aviation 
maintenance industry.
    But to your question of how a repair station is qualified, 
in order to be certificated, a repair station does have to 
demonstrate that it has housing facilities, equipment, that it 
has personnel who are properly trained, and that it has the 
proper technical data to do the work. It's got to demonstrate 
that it has systems in place to ensure the quality of the work 
that's done. It has to have appropriately certificated 
employees to supervise the work, to approve articles for return 
to service, and to do final inspections on products. And, 
finally, when you're doing work for airlines, it's taken up a 
notch, frankly. When you're doing work for airlines, you have 
to comply with the airline's maintenance program. If you're a 
U.S. repair station, you have to either have a DOT drug-and-
alcohol program in place or you have to be covered under the 
air carrier's drug-and-alcohol program. You have to have 
additional training. And you also have to have a quality-
assurance system in place. So, again, there's a very high 
standard for repair stations just to get certificated. And then 
the standards are even higher if you're doing work for air 
carriers.
    Senator Burns. And they're the same, both here in the 
United States and on foreign soil.
    Mr. Klein. Yes, they're very, very similar. Again, you've 
got to demonstrate that you have the personnel, the housing, 
the facilities, the equipment, the technical data, the quality 
systems, that your people are trained, et cetera, et cetera. 
So, yes, there is a very, very distinct parallel there.
    Senator Burns. Mr. Carr, as you know, we're leaving the old 
LINCS system and trying to transition to the FTI system. Give 
us your assessment on how that is going. We heard from the 
Administrator. I'd like to hear from you.
    Mr. Carr. Operationally----
    Senator Burns. Now, we understand slow here, by the way.
    Mr. Carr. Operationally, we have not really seen a great 
deal of change, in terms of telecommunications infrastructure, 
which I suppose is to the credit of those making the changes, 
because the current system is, while in need of replacement, 
it's rather robust, and it does weave together over 350 
facilities in, sort of, a seamless fashion.
    On the technical side, on the certification side, on the 
engineering side, we're hearing a lot of the same things that 
the Administrator already reported, which is there are issues 
associated with modernizing, locating, mapping out, gridding 
what we currently have, because the system that we--if you're 
going to replace it with a modern telecommunications 
infrastructure, we, sort of, demand present state or better, 
status quo or better. So, in order to get at least what we 
currently enjoy, in terms of systemwide improvements, 
systemwide ability, they have to know what they have. And that 
is, I think, the most dramatic challenge.
    Senator Burns. Have you been an active participator in this 
transition?
    Mr. Carr. Unfortunately, organizationally we have not. We 
had a series of technical representatives and liaisons that 
worked with the FAA on a whole host of technologies. The agency 
chose not to avail themselves of those representatives and sent 
them home this summer. So, we no longer have representatives on 
the next-generation air-traffic system. We have no 
representatives at the Joint Program Development Office working 
with Commerce and DOD and NASA on next-gen. And it's 
unfortunate. We viewed the collaboration as noteworthy and 
productive. In fact, we participated in the runway safety 
offices that, in the late 1990s and early 2000s, brought runway 
incursions down significantly over the last several years. And 
now, I think we're seeing the bottom of that bell curve, and I 
think it's going in the wrong direction. So, we view the lack 
of collaboration as quite unfortunate.
    Senator Burns. I think everybody should be at the table, 
especially the people, the men and women, who work in the 
trenches. It has to work, and it has to be comfortable, and 
they have to have confidence in it in anything that we do in 
the next-generation communications or any other area. So, I 
appreciate your comment on that.
    And I appreciate all of you being here today. There were a 
couple of Senators that was going to try to make it here and 
did not make it. I think there were seven different hearings 
going on this morning. So, even though I may be big enough to 
be two people, I'm--I can't make the claim.
    So, there will be some, probably, follow-up questions for 
our panel. And if you could answer the Senator, and also the 
Committee, I would appreciate that.
    Senator Burns. We'll leave the record open for more 
comments, but all your written comments will be made part of 
the record.
    And I'd just like to say that this is just, kind of, the 
first of the oversight hearings, because we are going into a 
new era, so to speak. We know that all of the people that were 
flying prior to 9/11 are back now. And you would think, well, 
we could handle those, but we also are--we're handling them 
with more aircraft. In other words, regional jets have replaced 
larger airplanes, people have opted for frequency rather than 
big airplanes and comfort, maybe. But I think those--we will 
see how the market goes. Actually, we are all at the whims of 
the market. Whenever market attitude changes among our 
traveling public, well, then we have to be ready and agile 
enough to change as the market changes.
    So, I appreciate your testimony here today, and your 
participating in this oversight hearing. And if you could 
respond, should you get a written question, I'd certainly 
appreciate it.
    Thank you very much. We are closed.
    [Whereupon, at 12 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Gerald L. Dillingham, Ph.D., Director, Physical 
 Infrastructure Issues, United States Government Accountability Office

    Mr. Chairman and Members of the Committee:
    The U.S. commercial aviation industry, with less than one fatal 
accident per 5 million flights from 2002 through 2005, has an 
extraordinary safety record. This record is a result of the efforts of 
the Federal Aviation Administration (FAA), airlines, manufacturers, and 
others in the aviation industry to maintain one of the safest aviation 
systems in the world. However, when passenger airlines have accidents 
or serious incidents, regardless of their rarity, the consequences can 
be tragic, as a single accident can result in hundreds of deaths. In 
order to maintain a high level of safety, it is critical to have a 
safety oversight system that is comprehensive, efficient, and effective 
and can provide an early warning of hazards that can lead to accidents. 
It is equally important to have a skilled, well-trained workforce to 
implement and monitor this safety oversight system. FAA's workforce of 
about 3,200 inspectors stationed at more than 100 field offices 
throughout the world is responsible for carrying out the agency's 
processes to certify, inspect, and enforce safety regulations for all 
aspects of the aviation industry, including the aircraft and its 
component parts, over 100 commercial airlines, about 5,000 aircraft 
repair stations, and hundreds of thousands of pilots and mechanics. FAA 
augments its inspector workforce with nearly 13,600 designated 
organizations and individuals (designees) that conduct the more routine 
aspects of industry oversight, such as administering tests to pilots 
and mechanics as part of their certification requirements, and augments 
the safety information that it obtains from inspections with industry 
partnership programs. Keys to making this safety oversight system work 
are to: (1) establish programs that focus resources on areas of highest 
safety risk and on mitigating risks; (2) provide training and other 
communication to ensure that inspectors maintain the skills and 
knowledge to consistently carry out the agency's oversight programs; 
and (3) have processes and data to continuously monitor, evaluate, and 
improve the numerous oversight programs that make up the safety 
oversight system. This statement focuses on these three key areas of 
FAA's ``early warning system'' and is based on our recent reports on 
FAA's inspection oversight programs, industry partnership programs, 
enforcement program, and training program. We will also discuss our 
recommendations that FAA has not fully addressed in these areas.
    In Summary:

  <bullet> FAA's aviation safety oversight system includes programs 
        that focus on risk identification and mitigation through a 
        system safety approach, the leveraging of resources, and 
        enforcement of safety regulations, but the benefits of these 
        programs are not being fully realized. FAA's system safety 
        approach has many strengths, including the addition of a 
        program that emphasizes risk identification to its traditional 
        inspection program for overseeing non-legacy airlines, \1\ 
        which is not based on risk. However, it is likely that the 
        benefits of this approach could be enhanced if the inspection 
        workload for non-legacy airlines was not still heavily oriented 
        to the traditional inspection program's non-risk based 
        activities. FAA leverages resources through its designee 
        programs, in which designees perform about 90 percent of 
        certification-related activities, thus allowing FAA to better 
        concentrate its limited staff resources on the most safety-
        critical functions. However, concerns about the consistency and 
        adequacy of designee oversight that FAA field offices provide 
        have been raised by experts and other individuals we 
        interviewed. FAA also leverages its resources through industry 
        partnership programs, which are designed to assist the agency 
        in receiving safety information. For example, FAA encourages 
        voluntary reports of safety violations by responding to them by 
        issuing a warning letter rather than a fine or other legal 
        sanction. FAA's enforcement program, which is an outgrowth of 
        its inspection process, is intended to ensure industry 
        compliance with safety regulations and is another important 
        element of its safety oversight system. FAA's policy for 
        assessing legal sanctions against entities or individuals that 
        do not comply with aviation safety regulations is intended to 
        deter future violations. However, we found that recommendations 
        for sanctions are sometimes reduced on the basis of factors 
        that are not associated with the merits of the case, and the 
        economic literature on deterrence suggests that the goal of 
        preventing future violations is weakened when the penalties for 
        violations are lowered for reasons not related to the merits of 
        the case.
---------------------------------------------------------------------------
    \1\ We refer to all passenger airlines that are not in FAA's Air 
Transportation Oversight System (ATOS) as non-legacy airlines. The 
seven ``legacy'' airlines and eight other airlines are overseen through 
ATOS. The air carriers in the ATOS program are Alaska; American; 
Continental; Delta; Northwest; United; American Eagle; Champion; 
ExpressJet; SkyWest; Southwest; Trans States; FedEx; United Parcel 
Service; and US Airways, which recently merged with America West.

  <bullet> FAA has made training an integral part of its safety 
        oversight system, but several actions could improve the results 
        of its training efforts. FAA's use of a risk-based system 
        safety approach to inspections requires inspectors to apply 
        data analysis and auditing skills to identify and control 
        potential risks. Therefore, it is important that inspectors are 
        well-trained in this approach and have sufficient knowledge of 
        increasingly complex aircraft and systems to effectively 
        identify safety risks. FAA has established mandatory training 
        requirements for its workforce as well as designees. We have 
        reported that FAA has generally followed effective management 
        practices for planning, developing, delivering, and assessing 
        the impact of its technical training for safety inspectors, 
        although some practices have yet to be fully implemented. For 
        example, in developing its training curriculum for inspectors, 
        FAA followed effective management practices, such as developing 
        courses that support changes in inspection procedures resulting 
        from regulatory changes or agency initiatives. On the other 
        hand, FAA develops technical courses on an ad hoc basis rather 
        than as part of an overall curriculum for each type of 
        inspector, such as inspectors of operations or cabin safety, 
        because the agency has not systematically identified the 
        technical skills and competencies each type of inspector needs 
        to effectively perform inspections. FAA has recognized the need 
        for improvements to its training program in this and other 
---------------------------------------------------------------------------
        areas.

  <bullet> It is important for FAA to have effective evaluative 
        processes and accurate nationwide data for its numerous safety 
        oversight programs so that program managers and other officials 
        have assurance that the safety programs are having their 
        intended effect. Such processes and data are especially 
        important because FAA's workforce is so dispersed throughout 
        the world--with thousands of staff working out of more than 100 
        offices worldwide--and because FAA's use of a system safety 
        approach represents a cultural shift from its traditional 
        inspection program. Evaluation is important for understanding 
        if the cultural shift has effectively occurred. Our most recent 
        work has shown the lack of evaluative processes and limitations 
        with data for FAA's inspection program for non-legacy airlines, 
        designee programs, industry partnership programs, and 
        enforcement program. For example, we found that FAA lacked 
        requirements or criteria for evaluating its designee programs. 
        In another example, FAA's enforcement policy calls for the 
        assessment of sanctions that would potentially deter future 
        violations. However, FAA lacks an evaluative process, so it is 
        not known whether the agency's enforcement practices, such as 
        at times reducing sanctions, may weaken any deterrent effect 
        that would be expected from such sanctions. Furthermore, FAA's 
        ability to evaluate its programs is hindered by the lack of 
        useful nationwide data. For example, FAA's nationwide 
        enforcement database is not as useful as it could be because of 
        missing or incomplete historical information about enforcement 
        cases.

  <bullet> In order to help FAA fully realize the benefits of its 
        safety oversight system, we have made a number of 
        recommendations to address the weaknesses that we identified in 
        our reviews. These recommendations have not been fully 
        implemented, although in some cases FAA has taken steps towards 
        addressing them. Evaluative processes and relevant data are 
        particularly important as FAA works to change its culture by 
        incorporating a system safety approach into its oversight, and 
        we have recommended that FAA develop continuous evaluative 
        processes for its oversight of non-legacy airlines, its 
        designee programs, and its enforcement program, and 
        systematically assess inspectors' technical training needs. In 
        addition, FAA's nationwide databases are in need of 
        improvements in their comprehensiveness and ease of use. We 
        have recommended that FAA improve the consistency and 
        completeness of its designee and enforcement databases. 
        Continuous improvements in these areas are critical to FAA's 
        ability to have a robust ``early warning system'' in order to 
        maintain one of the safest aviation systems in the world.
Background
    FAA's safety oversight system is made up of a number of programs 
for airlines and other entities. Safety oversight programs for airlines 
provide for their initial certification, periodic surveillance, and 
inspection. Since 1985, FAA has used National Work Program Guidelines 
(NPG), its traditional inspection program for airlines, as a primary 
means of ensuring that airlines comply with safety regulations. In NPG, 
an FAA committee of program managers identifies an annual minimum set 
of required inspections that are to be undertaken to ensure that 
airlines are in compliance with their operating certificates. In 1998, 
the agency implemented the Air Transportation Oversight System (ATOS), 
which currently oversees the Nation's largest 15 commercial airlines 
and cargo carriers, with the goal of eventually including all 
commercial passenger and cargo airlines in it. ATOS emphasizes a system 
safety approach that extends beyond periodically checking airlines for 
compliance with regulations to the use of technical and managerial 
skills to identify, analyze, and control hazards and risks. For 
example, under ATOS, inspectors develop surveillance plans for each 
airline, based on data analysis and assessment of risks, and adjust the 
plans periodically based on inspection results. However, the agency has 
been delayed in placing a significant number of other passenger 
airlines in ATOS, resulting in 99 passenger airlines, which we refer to 
as non-legacy airlines, continuing to be overseen through NPG, a 
process that is not risk-based or system safety oriented. In 2002, FAA 
added the Surveillance and Evaluation Program (SEP) to the NPG 
inspection program to incorporate principles of ATOS into its oversight 
of non-legacy passenger airlines. The two programs are used together to 
establish the number of annual inspections for non-legacy airlines. 
(Appendix 1 describes each inspection program.) Figure 1 illustrates 
some typical activities covered during inspections.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    FAA's safety oversight programs for other aspects of the aviation 
industry--including manufacturers of aircraft and aircraft parts, 
repair stations, flight schools, aviation maintenance technician 
schools, pilots, and mechanics--involve certification, surveillance, 
and inspection by FAA's safety inspectors, engineers, flight surgeons, 
and designated representatives. FAA authorizes about 13,400 private 
individuals and about 180 organizations (called ``designees'') to act 
as its representatives to conduct many safety certification activities, 
such as administering flight tests to pilots, inspecting repair work by 
maintenance facilities, conducting medical examinations of pilots, and 
approving designs for aircraft parts. These designees are grouped into 
18 different programs and are overseen by three FAA offices--Flight 
Standards Service, Aerospace Medicine, and Aircraft Certification 
Service--all of which are under the Office of Aviation Safety (see 
figure 2).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Since 1990, FAA has emphasized gaining compliance from the aviation 
industry through cooperative means by establishing industry partnership 
programs with the aviation community that allow participants, such as 
airlines and pilots, to self-report violations of safety regulations 
and help identify safety deficiencies, and potentially mitigate or 
avoid fines or other legal action. For example, the Voluntary 
Disclosure Program encourages the self-reporting of manufacturing 
problems and safety incidents by participants that can include air 
carriers and repair stations. Appendix II describes the industry 
partnership programs.
    When violations of statutory and regulatory requirements are 
identified through inspections, through the partnership programs in 
certain cases, or through other methods, FAA has a variety of 
enforcement tools that it may use to respond to them, including 
administrative actions (such as issuing a warning notice or a letter of 
correction that includes the corrective actions the violator will take) 
and legal sanctions (such as levying a fine or suspending or revoking a 
pilot or other FAA-issued certificate).
FAA's Safety Oversight System Focuses on Risk Identification and 
        Mitigation Through System Safety, Leveraging of Resources, and 
        Enforcement of Safety Regulations, but Benefits Are Not Being 
        Fully 
        Realized
    In recent reports, we found that FAA's safety oversight system has 
programs that focus on risk identification and mitigation through a 
system safety approach, the leveraging of resources, and enforcement of 
safety regulations, but that the benefits of these programs are not 
being fully realized. In our recent report on FAA's oversight of non-
legacy airlines, we found that the focus on risk identification through 
the addition of SEP has many strengths and allows for enhancing the 
efficiency of FAA's oversight activities. \2\ Rather than relying on 
NPG's customary method of conducting a set number of inspections of an 
airline's operations, SEP emphasizes a system safety approach of using 
risk analysis techniques. SEP allows for the efficient use of 
inspection staff and resources by prioritizing workload based on areas 
of highest risk, and it includes a requirement that inspectors verify 
that corrective actions have occurred. For example, FAA has developed 
risk assessment worksheets for SEP that are aligned with key airline 
systems that guide inspectors through identifying and prioritizing 
risks. The worksheets guide inspectors to organize the results of their 
previous inspections and surveillance into a number of areas such as 
flight operations and personnel training in order to identify specific 
risks in each area and target the office's resources to mitigating 
those risks. The development of a system safety approach addresses a 
long-standing concern by us that FAA did not have a methodology for 
assessing airline safety risks so that it could target limited 
inspection resources to high-risk conditions. \3\ Another strength of 
SEP, consistent with findings in our past reports, is that SEP relies 
on teams of inspectors, which are generally more effective than 
individual inspectors in their ability to collectively identify 
concerns. \4\
---------------------------------------------------------------------------
    \2\ GAO, Aviation Safety: System Safety Approach Needs Further 
Integration into FAA's Oversight of Airlines, GAO-05-726 (Washington, 
D.C.: Sept. 28, 2005).
    \3\ GAO, Aviation Safety: Weaknesses in Inspection and Enforcement 
Limit FAA in Identifying and Responding to Risks, GAO/RCED-98-6 
(Washington, D.C.: Feb. 27, 1998); GAO, Aviation Safety: FAA Needs to 
More Aggressively Manage Its Inspection Program, GAO/T-RCED-92-25 
(Washington, D.C.: Feb. 6, 1992).
    \4\ GAO/RCED-98-6; GAO/T-RCED-92-25.
---------------------------------------------------------------------------
    However, the benefits of FAA's system safety approach for the 
inspection of non-legacy airlines could be enhanced by a more complete 
implementation of SEP and addressing other challenges. The inspection 
workload for non-legacy airlines is still heavily oriented to the NPG's 
non-risk based activities. For example, as shown in table 1, from 
Fiscal Years 2002 through 2004, 77 percent of inspection activities 
required for the top 25 non-legacy airlines in terms of the number of 
enplanements were identified through NPG, and the remaining percentage 
of inspection activities were identified based on risk through SEP. 
Although inspectors can replace NPG-identified activities with SEP-
identified activities that they deem constitute a greater safety risk, 
we found that FAA inspectors interpret agency emphasis on NPG as 
discouraging this practice. In order to ensure that all inspectors who 
oversee non-legacy airlines have a complete and timely understanding of 
the agency's policies relating to the inspection process, we 
recommended in September 2005 that FAA improve communication with and 
training of inspectors in this area.

Table 1: SEP- and NPG-Initiated Required Inspections for the Top 25 Non-
                 legacy Airlines, Fiscal Years 2002-2004
------------------------------------------------------------------------
       Type of inspection         2002    2003    2004        Total
------------------------------------------------------------------------
SEP-initiated                     1,261   1,567     927      3,755 (23%)
NPG-initiated                     5,470   3,623   3,338     12,431 (77%)
------------------------------------------------------------------------
    Total                         6,731   5,190   4,265    16,186 (100%)
------------------------------------------------------------------------
Source: GAO analysis of FAA information.

    Another way that FAA attempts to enhance the efficiency of its 
oversight activities is through its designee programs. We reported that 
FAA maximizes its resources by allowing designees to perform about 90 
percent of certification-related activities, thus allowing FAA to 
better concentrate its limited staff resources on the most safety-
critical functions. \5\ For example, while designees conduct routine 
certification functions, such as approvals of aircraft technologies 
that the agency and designees have had previous experience with, FAA 
focuses on new and complex aircraft designs or design changes. In 
addition, the use of designees expands FAA's access to technical 
expertise within the aviation community. For the aviation industry, the 
designee programs enable individuals and organizations to obtain 
required FAA certifications--such as approvals of the design, 
production, and airworthiness of aircraft--in a timely manner, thus 
reducing delays and costs to the industry that might result from 
scheduling direct reviews by FAA staff. For example, officials from an 
aircraft manufacturer told us that the use of designees has added 
significantly to the company's ability to enhance and improve daily 
operations by decreasing certification delivery time and increasing the 
flexibility and utilization of company resources. In addition, 
designees are convenient to the aviation industry due to their wide 
dispersal throughout the United States.
---------------------------------------------------------------------------
    \5\ GAO, Aviation Safety: FAA Needs to Strengthen the Management of 
Its Designee Programs, GAO-05-40 (Washington, D.C.: Oct. 8, 2004).
---------------------------------------------------------------------------
    However, concerns about the consistency and adequacy of designee 
oversight that FAA field offices provide have been raised by experts 
and other individuals we interviewed. For example, designees and 
industry officials that we spoke with indicated that FAA's level of 
oversight and interpretation of rules differ among regions and among 
offices within a region, which limits FAA's assurance that designees' 
work is performed uniformly in accordance with FAA's standards and 
policy. Experts also ranked this issue as a top weakness. \6\ Table 2 
shows the top five weaknesses identified by our experts. Experts also 
made a number of suggestions to strengthen the designee program, 
including clearly defining and following agency criteria for selecting 
designees and increasing penalties for designees found to violate 
standards or who do not exercise proper judgment. To improve management 
control of the designee programs, and thus increase assurance that 
designees meet FAA's performance standards, we recommended that FAA 
develop mechanisms to improve the compliance of FAA program and field 
offices with existing policies and incorporate, as appropriate, 
suggestions from our expert panel. In response to our recommendations, 
FAA is planning, among other things, to form a team to identify and 
share best practices for overseeing designee programs.
---------------------------------------------------------------------------
    \6\ We identified 62 aviation experts with knowledge and expertise 
in FAA's designee programs, who participated on a Web-based panel that 
provided the group's views on the strengths and weaknesses of the 
designee programs and ways to improve the programs. The experts 
included designees, FAA inspectors and engineers, independent experts 
and university academics, and private sector and aviation industry 
associations. We obtained the experts' views by employing an iterative 
and controlled feedback process for obtaining individual views and then 
allowing each participant to respond to the entire panel's comments.

         Table 2: Experts' Ranking of Top 5 Oversight Weaknesses
------------------------------------------------------------------------
            Ranking                              Weakness
------------------------------------------------------------------------
1                                FAA offices level of oversight and
                                  interpretation of rules are
                                  inconsistent.
2                                Inactive, unqualified, or poor
                                  performing designees are not
                                  identified and removed expeditiously.
3                                It is difficult to terminate poor
                                  performing designees.
4                                Inadequate surveillance and oversight
                                  of designees.
5                                FAA has not made oversight of designees
                                  a high enough priority.
------------------------------------------------------------------------
Source: GAO analysis of expert panel information.
Note: Rankings based on responses from 62 experts and the frequency of
  responses indicating a ``great'' or ``very great'' weakness.

    FAA also leverages its resources through its industry partnership 
programs. These partnership programs are designed to assist the agency 
in receiving safety information, including reports of safety 
violations. According to FAA officials, the Aviation Safety Action 
Program, Aviation Safety Reporting Program, and Voluntary Disclosure 
Reporting Program augment FAA's enforcement activities and allow FAA to 
be aware of many more safety incidents than are discovered during 
inspections and surveillance. In addition, the Flight Operational 
Quality Assurance Program provides safety information in the form of 
recorded flight data from participating airlines. FAA has established 
some management controls over its partnership programs, such as 
procedures to track actions taken to correct safety incidents reported 
under the programs, but the agency lacks management controls to measure 
and evaluate the performance of these programs, an issue that we will 
discuss later in the testimony.
    FAA's enforcement process, which is intended to ensure industry 
compliance with safety regulations, is another important element of its 
safety oversight system. FAA's policy for assessing legal sanctions 
against entities or individuals that do not comply with aviation safety 
regulations is intended to deter future violations. FAA has established 
some management controls over its enforcement efforts, with procedures 
that provide guidance on identifying regulated entities and individuals 
that are subject to inspections or surveillance actions, determining 
workload priorities on the basis of the timing and type of inspection 
to be performed, detecting violations of safety regulations, tracking 
the actions that are taken by the entities and individuals to correct 
the violations and achieve compliance with regulations, and imposing 
punitive sanctions or remedial conditions on the violators. These 
procedures provide FAA inspectors, managers, and attorneys with a 
process to handle violations of safety regulations that are found 
during routine inspections.
    However, we found that the effect of FAA's legal sanctions on 
deterrence is unclear, and that recommendations for sanctions are 
sometimes changed on the basis of factors that are not associated with 
the merits of the case. We found that from Fiscal Years 1993 through 
2003, attorneys in FAA's Office of the Chief Counsel authorized a 52 
percent reduction in the civil monetary penalties assessed from a total 
of $334 million to $162 million. FAA officials told us that the agency 
sometimes reduces sanctions in order to prioritize attorneys' caseloads 
by closing the cases more quickly through negotiating a lower fine. 
Economic literature on deterrence suggests that although negative 
sanctions (such as fines and certificate suspensions) can deter 
violations, if the violator expects sanctions to be reduced, he or she 
may have less incentive to comply with regulations. In effect, the goal 
of preventing future violations is weakened when the penalties for 
present violations are lowered for reasons not related to the merits of 
the case. In addition, FAA lacks management controls to measure and 
evaluate its enforcement process, which we discuss later in this 
testimony.
FAA Has Made Training an Integral Part of Its Safety Oversight System 
        but Several Actions Could Improve Results
    FAA's use of a risk-based system safety approach to inspections 
requires inspectors to apply data analysis and auditing skills to 
identify, analyze, assess, and control potential hazards and risks. 
Therefore, it is important that inspectors are well-trained in this 
approach and have sufficient knowledge of increasingly complex 
aircraft, aircraft parts, and systems to effectively identify safety 
risks. It is also important that FAA's large cadre of designees is 
well-trained in Federal aviation regulations and FAA policies. FAA has 
made training an integral part of its safety inspection system and has 
established mandatory training requirements for its workforce as well 
as designees. FAA provides inspectors with extensive training in 
Federal aviation regulations; inspection and investigative techniques; 
and technical skills, such as flight training for operations 
inspectors. The agency provides its designees with an initial 
indoctrination that covers Federal regulations and agency policies, and 
refresher training every 2 to 3 years.
    We have reported that FAA has generally followed effective 
management practices for planning, developing, delivering, and 
assessing the impact of its technical training \7\ for safety 
inspectors, although some practices have yet to be fully implemented. 
\8\ In its planning activities for training, FAA has linked technical 
training efforts to its goal of safer air travel and has identified 
technical proficiencies needed to improve safety inspectors' 
performance in meeting this goal. For example, FAA's Offices of Flight 
Standards and Aircraft Certification have identified gaps in several of 
the competencies required to conduct system safety inspections, 
including risk assessment, data analysis, systems thinking, and 
designee oversight. According to FAA, it is working to correct these 
gaps. We have also identified gaps in the training provided to 
inspectors in the Office of Flight Standards who oversee non-legacy 
airlines, and have recommended that FAA improve inspectors' training in 
areas such as system safety and risk management to ensure that these 
inspectors have a complete and timely understanding of FAA's inspection 
policies. We have identified similar competency gaps related to 
designee oversight. For example, FAA does not require refresher 
training concerning designee oversight, which increases the risk that 
staff do not retain the information, skills, and competencies required 
to perform their oversight responsibilities. We recommended that FAA 
provide additional training for staff who directly oversee designees. 
\9\ We did not identify any specific gaps in the competencies of 
designees. \10\ In prioritizing funding for course development 
activities, FAA does not explicitly consider which projects are most 
critical. Figure 3 describes the extent to which FAA follows effective 
management practices in planning training.
---------------------------------------------------------------------------
    \7\ We define technical training as training in aviation 
technologies. FAA includes in its definition of technical training 
topics such as system safety and risk analysis, inspector job skills, 
data analysis, and training in software packages.
    \8\ GAO, Aviation Safety: FAA Management Practices for Technical 
Training Mostly Effective; Further Actions Could Enhance Results, GAO-
05-728 (Washington, D.C.: Sept. 7, 2005). We compared FAA's management 
of its inspector technical training efforts with effective management 
practices outlined in GAO, Human Capital: A Guide for Assessing 
Strategic Training and Development Efforts in the Federal Government, 
GAO-04-546G (Washington, D.C.: Mar. 1, 2004).
    \9\ GAO-05-40.
    \10\ However, many experts on our panel indicated it was of high or 
highest importance to ensure standard training of designees within 
specific specialties to improve the consistency of their work, and to 
increase the number of subject-matter workshops for designees.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In developing its training curriculum for inspectors, FAA also for 
the most part follows effective management practices, such as 
developing courses that support changes in inspection procedures 
resulting from regulatory changes or agency initiatives. On the other 
hand, FAA develops technical courses on an ad hoc basis rather than as 
part of an overall curriculum for each inspector specialty--such as air 
carrier operations, maintenance, and cabin safety--because the agency 
has not systematically identified the technical skills and competencies 
each type of inspector needs to effectively perform inspections. Figure 
4 describes the extent to which FAA follows effective management 
practices in developing training.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In delivering training, FAA has also generally followed effective 
management practices. (See Figure 5.) For example, FAA has established 
clear accountability for ensuring that inspectors have access to 
technical training, developed a way for inspectors to choose courses 
that meet job needs and further professional development, and offers a 
wide array of technical and other courses. However, both FAA and its 
inspectors recognize the need for more timely selection of inspectors 
for technical training. In addition, FAA acknowledges the need to 
increase communication between inspectors and management with respect 
to the training program, especially to ensure that inspectors have 
bought into the system safety approach to inspections.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    FAA offers numerous technical courses from which inspectors can 
select to meet job needs. However, from our survey of FAA's inspectors, 
we estimate that only about half think that they have the technical 
knowledge needed for their jobs. \11\ FAA officials told us that 
inspectors' negative views stem from their wanting to acquire 
proficiencies that are not as crucial in a system safety environment. 
We also found a disparity between inspectors and FAA concerning the 
receipt of requested training. We estimated that 28 percent of 
inspectors believe that they get the technical training that they 
request. However, FAA's records show that FAA approves about 90 percent 
of these requests, and inspectors are making good progress in receiving 
training. Over half of the inspectors have completed at least 75 
percent of technical training that FAA considers essential. FAA 
officials told us that inspectors' negative views on their technical 
knowledge and the training they have received stem from their not 
accepting FAA's move to a system safety approach. That is, the 
inspectors are concerned about acquiring individual technical 
proficiency that is not as crucial in a system safety environment. 
Given that it has not completed assessing whether training for each 
inspector specialty meets performance requirements, FAA is not in a 
position to make definitive conclusions concerning the adequacy of 
inspector technical training.
---------------------------------------------------------------------------
    \11\ Because of the statistical survey techniques we employed in 
surveying FAA's inspectors, we are 95 percent confident that the 
results we present are within 4.6 percentage points of the results that 
we would have obtained if we had surveyed all 3,000 inspectors. That 
is, we are 95 percent confident that had we surveyed all inspectors, 
between 48 and 57 percent of them would have told us that, to a great 
or very great extent, they have the technical knowledge to do their 
jobs. All percentage estimates from the survey have a margin of error 
of plus or minus 4.6 percentage points or less, unless otherwise noted.
---------------------------------------------------------------------------
    FAA also generally followed effective management practices in 
evaluating training. The agency requires that each training course 
receive a systematic evaluation every 3 years to determine if the 
course is up to date and relevant to inspectors' jobs, although 
training officials noted that many courses have yet to undergo such an 
evaluation. However, FAA collects limited information on the 
effectiveness of training, and its evaluations have not measured the 
impact of training on FAA's mission goals, such as reducing accidents. 
Training experts acknowledge that isolating performance improvements 
resulting from training programs is difficult for any organization. 
(See Figure 6.)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While FAA follows many effective management practices in its 
training program, the agency also recognizes the need for improvements, 
including (1) systematically assessing inspectors' needs for technical 
and other training, (2) better timing of technical training so that 
inspectors receive it when it is needed to perform their jobs, and (3) 
better linking the training provided to achieving agency goals of 
improving aviation safety. FAA has begun to act in these areas, and we 
believe that if effectively implemented, the actions should improve the 
delivery of training and ultimately improve aviation safety. Therefore, 
it is important for FAA to follow through with its efforts. As a 
result, we recommended in September 2005, among other things, that in 
order to ensure that inspector technical training needs are identified 
and met in a timely manner, FAA systematically assess inspectors' 
technical training needs, better align the timeliness of training to 
when inspectors need the training to do their job, and gain inspectors' 
acceptance for changes made or planned to their training.
    It is important that both FAA's inspection workforce and FAA-
certified aviation mechanics are knowledgeable about increasingly 
complex aircraft, aircraft parts, and systems. While we did not attempt 
to assess the technical proficiency that FAA's workforce requires and 
will require in the near future, FAA officials said that inspectors do 
not need a substantial amount of technical training courses because 
inspectors are hired with a high degree of technical knowledge of 
aircraft and aircraft systems. They further indicated that inspectors 
can sufficiently keep abreast of many of the changes in aviation 
technology through FAA and industry training courses and on-the-job 
training. However, in its certification program for aviation mechanics, 
we found that FAA standards for minimum requirements for aviation 
courses at FAA-approved aviation maintenance technician schools and its 
requirements for FAA-issued mechanics certificates do not keep abreast 
with the latest technologies. In 2003, we reported that those standards 
had not been updated in more than 50 years. \12\ We recommended that 
FAA review the curriculum and certification requirements and update 
both. FAA plans to make changes in the curriculum for FAA approved 
aviation maintenance technicians that reflect up-to-date aviation 
technologies and finalize and distribute a revised Advisory Circular in 
March 2006 that describes the curriculum changes. FAA then plans to 
allow the aviation industry time to implement the recommended 
curriculum changes before changing the requirements for FAA-issued 
mechanics certificates.
---------------------------------------------------------------------------
    \12\ GAO, Aviation Safety: FAA Needs to Update the Curriculum and 
Certification Requirements for Aviation Mechanics, GAO-03-317 
(Washington, D.C.: Mar. 6, 2003).
---------------------------------------------------------------------------
FAA Has Evaluated Some Safety Programs, but the Lack of Evaluative 
        Systems and Nationwide Data Impedes FAA's Ability to 
        Continuously Monitor Its Safety Programs
    It is important for FAA to have effective evaluative processes and 
accurate nationwide data on its numerous safety oversight programs so 
that program managers and other officials have assurance that the 
safety programs are having their intended effect. Such processes and 
data are especially important because FAA's workforce is so dispersed 
nationwide--with thousands of staff working out of more than 100 local 
offices--and because FAA's use of a risk-based system safety approach 
represents a cultural shift from its traditional inspection program. 
Evaluation is important to understanding if the cultural shift has 
effectively occurred. Our most recent work has shown the lack of such 
processes and limitations with data for FAA's inspection program for 
non-legacy airlines, designee programs, industry partnership programs, 
and enforcement program. In response to recommendations that we have 
made regarding these programs, some improvements are being made. On the 
positive side, as we mentioned earlier, our most recent work found that 
FAA generally follows effective management practices in evaluating 
individual technical training courses.
    FAA has not evaluated its inspection oversight programs for non-
legacy airlines--which include SEP and NPG--to determine how the 
programs contribute to the agency's mission and overall safety goals, 
and its nationwide inspection database lacks important information that 
could help it perform such evaluations--such as whether risks 
identified through SEP have been mitigated. In addition, the agency 
does not have a process to examine the nationwide implications of or 
trends in the risks that inspectors have identified through their risk 
assessments--information it would need to proactively determine risk 
trends at the national level on a continuous basis. FAA's evaluation 
office instead conducts analyses of the types of inspections generated 
under SEP by airline and FAA region, according to FAA. We recommended 
that FAA develop a continuous evaluative process for activities under 
SEP and link SEP to the performance-related goals and measures 
developed by the agency, track performance toward these goals, and 
determine appropriate program changes. FAA is considering our 
recommendation, but its plan to place the remaining non-legacy airlines 
in the ATOS program by the end of Fiscal Year 2007 might make this 
recommendation unnecessary, according to the agency. Since FAA's past 
efforts to move airlines to ATOS have experienced delays, we believe 
that this recommendation is still valid.
    We also found that FAA lacked requirements or criteria for 
periodically evaluating its designee programs. In 2004, we reported 
that the agency had evaluated 6 of its 18 designee programs over the 
previous 7 years and had plans to evaluate 2 more, although it had no 
plans to evaluate the remaining 10 programs because of limited 
resources. \13\ FAA conducted these evaluations on an ad hoc basis 
usually at the request of headquarters directors or regional office 
managers. In addition, we found that FAA's oversight of designees is 
hampered, in part, by the limited information on designees' performance 
contained in the various designee databases. \14\ These databases 
contain descriptive information on designees, such as their types of 
designations and status (i.e., active or terminated). More complete 
information would allow the agency to gain a comprehensive picture of 
whether staff are carrying out their responsibilities to oversee 
designees. To improve management control of the designee programs, and 
thus increase assurance that designees meet the agency's performance 
standards, we recommended that FAA establish a process to evaluate all 
designee programs and strengthen the effectiveness of its designee 
databases by improving the consistency and completeness of information 
in them. To address our recommendations, FAA expects to develop a plan 
to evaluate all designee programs on a recurring basis and intends to 
establish a team that will examine ways to improve automated 
information related to designees.
---------------------------------------------------------------------------
    \13\ GAO-05-40.
    \14\ These databases are Flight Standards Service's Program 
Tracking and Reporting Subsystem and National Vital Information 
Subsystem; Aircraft Certification Service's Designee Information 
Network, and Office of Aerospace Medicine's Airmen Medical 
Certification Information Subsystem.
---------------------------------------------------------------------------
    In addition, we found that FAA does not evaluate the effects of its 
industry partnership and enforcement programs to determine if stated 
program goals, such as deterrence of future violations, are being 
achieved. For example, little is known about nationwide trends in the 
types of violations reported under the partnership programs or whether 
systemic, nationwide causes of those violations are identified and 
addressed. Furthermore, FAA's enforcement policy calls for inspectors 
and legal counsel staff to recommend or assess enforcement sanctions 
that would potentially deter future violations. However, without an 
evaluative process, it is not known whether the agency's practice of 
generally closing cases with administrative actions rather than legal 
sanctions \15\ and at times reducing the amount of the fines, as 
mentioned earlier in this testimony, may weaken any deterrent effect 
that would be expected from sanctions.
---------------------------------------------------------------------------
    \15\ We found that during Fiscal Years 1993 through 2003, FAA 
closed about 53 percent of the nearly 200,000 enforcement actions with 
administrative actions (such as warning notices). About 28 percent of 
the actions were closed with legal sanctions (such as fines) and about 
18 percent were closed with no enforcement action.
---------------------------------------------------------------------------
    FAA's ability to evaluate the impact of its enforcement efforts is 
also hindered by the lack of useful nationwide data. FAA inspection 
offices maintain independent, site-specific databases because they do 
not find the nationwide enforcement database--the Enforcement 
Information System (EIS)--as useful as it could be because of missing 
or incomplete historical information about enforcement cases. As a 
result of incomplete data on individual cases, FAA inspectors lack the 
complete compliance history of violators when assessing sanctions. We 
recommended that FAA develop evaluative processes for its enforcement 
activities and partnership programs and use them to create performance 
goals, track performance towards those goals, and determine appropriate 
program changes. We also recommended that FAA take steps to improve the 
usefulness of the EIS database by enhancing the completeness of 
enforcement information. FAA expects to address some of these issues as 
it revises its enforcement policy, which is expected to be issued later 
in Fiscal Year 2006. In addition, FAA has established a database 
workgroup that is developing long- and short- term solutions to address 
the problems with EIS.
Recommendations We Have Made To Improve FAA's Safety Oversight 
        System
    In order to help FAA fully realize the benefits from its safety 
oversight system, we have made a number of recommendations to address 
weaknesses that we identified in our reviews. These recommendations 
have not been fully implemented, although in some cases FAA has taken 
steps towards addressing them. Evaluative processes and relevant data 
are particularly important as FAA works to change its culture by 
incorporating a system safety approach into its oversight, and we have 
recommended that FAA develop continuous evaluative processes for its 
oversight programs for non-legacy airlines, its designee programs, and 
its industry partnership and enforcement programs, and systematically 
assess inspectors' technical training needs. In addition, FAA's 
nationwide databases are in need of improvements in their 
comprehensiveness and ease of use. Without comprehensive nationwide 
data, FAA does not have the information needed to evaluate its safety 
programs and have assurance that they are having the intended results. 
We have recommended that FAA improve the completeness of its designee 
and enforcement databases. Continuous improvements in these areas are 
critical to FAA's ability to have a robust ``early warning system'' and 
maintain one of the safest aviation systems in the world.
Contacts and Acknowledgments
    For further information on this testimony, please contact Dr. 
Gerald Dillingham at (202) 512-2834 or by email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b7d3dedbdbded9d0dfd6dad0f7d0d6d899d0d8c199">[email&#160;protected]</a> 
Individuals making key contributions to this testimony include Brad 
Dubbs, Phillis Riley, Teresa Spisak, and Alwynne Wilbur.
          Appendix I: Description of FAA's Inspection Programs
    Table 1 describes FAA's three inspection processes for overseeing 
airlines: ATOS, NPG, and SEP. Many of the elements of ATOS, such as the 
use of data to identify risks and the development of surveillance plans 
by inspectors, are incorporated in the SEP process. The NPG process, in 
contrast, is not focused on the use of data and relies on an 
established set of inspections that are not risk based.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         Appendix II: Description of FAA's Partnership Programs
Aviation Safety Action Program (ASAP)
    Year Established: 1997
    Participation: Participants include employees of air carriers and 
repair stations that have entered into a memorandum of understanding 
with the Federal Aviation Administration (FAA). The memoranda can cover 
employee groups, such as pilots, maintenance employees, dispatchers, or 
flight attendants. Each employee group is covered by a separate 
memorandum of understanding. As of June 2004, FAA had accepted 54 
memoranda of understanding and received over 80,000 ASAP reports, which 
may or may not include safety violations, according to FAA officials.
    Purpose: ASAP seeks to improve aviation safety through the 
voluntary self-reporting of safety incidents under the procedures set 
forth in the memorandum of understanding. Under the program, FAA does 
not take enforcement action against employees who voluntarily self-
reporting safety violations for reports that are sole-source (the 
report is the only way FAA would have learned about the incident) and 
will pursue administrative action only for reports that are not sole-
source. Incidents that involve alcohol, drugs, criminal activity, or an 
intentional disregard for safety are not eligible for self-reporting 
under ASAP.
    Process: Each memorandum of understanding is a voluntary 
partnership between FAA, the airline, and an employee group. Although 
employee groups are not always included, FAA encourages their 
participation. The memorandum of understanding ensures that employees 
who voluntarily disclose FAA safety violations in accordance with the 
procedures and guidelines of ASAP will receive administrative action or 
no action in lieu of enforcement action.
    Once a memorandum of understanding is approved, employees can begin 
reporting violations that fall under the agreement. When a violation 
occurs, an employee notifies the Event Review Committee, which includes 
representatives from FAA and the airline or the repair station and 
generally includes the appropriate employee association. The Committee 
must be notified in writing within the time limit specified in the 
memorandum of understanding. The Committee then determines whether to 
accept the report under the ASAP program. If the report is accepted (it 
meets the acceptance criteria in the memorandum and does not involve 
criminal activity, substance abuse, controlled substances, or alcohol), 
then the Committee determines the action to take. That action may 
include remedial training or administrative action, but it will not 
include a legal sanction.
    Results: FAA does not know the overall program results because it 
does not have a national, systematic process in place to evaluate the 
overall success of ASAP. However, FAA cites examples that describes 
ASAP 's contribution to enhanced aviation safety. These examples 
include identifying deficiencies in aircraft operations manuals, 
airport equipment, and runways. In July 2003, FAA's Compliance and 
Enforcement Review recommended that FAA evaluate the use and 
effectiveness of this program.
Aviation Safety Reporting Program (ASRP)
    Year Established: 1975
    Participation: Participants are all users of the national airspace 
system, including air traffic controllers and employees of air carriers 
and repair stations.
    Purpose: The program is designed to improve aviation safety by 
offering limited immunity for individuals who voluntarily report safety 
incidents. ASRP was founded after TWA Flight 514 crashed on approach to 
landing in December 1974 after the crew misinterpreted information on 
the approach chart. This accident occurred only 6 weeks after another 
plane experienced the same error.
    Process: The National Aeronautics and Space Administration (NASA) 
administers this program. When a safety incident occurs, a person may 
submit a form and incident report to NASA. There are four types of 
forms that can be submitted to NASA: (1) Air Traffic Control, (2) 
General Reports (includes Pilots), (3) Flight Attendants, and (4) 
Maintenance Personnel.
    At least two aviation safety analysts read these forms and the 
incident reports that accompany them. The analysts at NASA screen the 
incident reports for urgent safety issues, which will be marked for 
immediate action to the appropriate FAA office or aviation authority. 
NASA analysts also edit the report's narrative to eliminate any 
identifying information. In addition, each report has a tear-off 
portion, which is separated and returned to the individual who reported 
the incident as a receipt of the incident's report's acceptance into 
the ASRP. When a safety violation that has been previously reported 
under ASRP comes to the attention of FAA, the agency issues a legal 
sanction, which is then waived. Reports that would not be eligible to 
have a legal sanction waived include deliberate violations, violations 
involving a criminal offense, or accident; reports filed by 
participants who have committed a violation of Federal aviation 
regulations or law within the last 5 years and reports filed later than 
10 days following an incident.
    Results: While FAA and NASA do not know the overall program results 
because they do not have a formal national evaluation program to 
measure the overall effectiveness of the program, the agencies widely 
disseminate information generated from the program to aircraft 
manufacturers and others. ASRP reports are compiled into a database 
known as the Aviation Safety Reporting System. When a potentially 
hazardous condition is reported, such as a defect in a navigational aid 
or a confusing procedure, NASA will send a safety alert to aircraft 
manufacturers, the FAA, airport representatives, and other aviation 
groups. The database is used for a monthly safety bulletin that 
includes excerpts from incident reports with supporting commentary by 
FAA safety experts. NASA officials estimate that the bulletin is read 
by over 150,000 people. In addition, individuals and organizations can 
request a search of the database for information on particular aircraft 
aviation safety subjects, including human performance errors and safety 
deficiencies. Further, NASA has used the database to analyze 
operational safety issues, such as general aviation incidents, pilot 
and controller communications, and runway incursions.
Flight Operational Quality Assurance (FOQA)
    Year Established: 1995
    Participation: Participants include air carriers that equip their 
airplanes to record flight data. As of March 2004, 13 airlines had FAA-
approved FOQA programs, and approximately 1,400 airplanes were equipped 
for the program.
    Purpose: FOQA is designed to enhance aviation safety through the 
analysis of digital flight data generated during routine flights.
    Process: Air carriers that participate in the program equip their 
aircraft with special acquisition devices or use the airplanes' flight 
data recorders to collect data and determine if the aircraft are 
deviating from standard procedures. These data include engine 
temperatures, descent rate, and deviations from the flight path. When 
the aircraft lands, data are transmitted from the aircraft to the 
airline's FOQA station, where they are analyzed for flight trends and 
possible safety problems.
    Once the data are transmitted to the FOQA ground station, the data 
are extracted and analyzed by software programs. The FOQA data are 
combined with data from maintenance databases, weather conditions, and 
other safety reporting systems, such as ASAP, in order to identify 
trends in flight operations. The analysis typically focuses on events 
that fall outside normal boundaries specified by the manufacturer's 
operational limitations and the air carrier's operational standards.
    FOQA data are collected and analyzed by individual air carriers. 
The data on safety trends are made available to FAA in an aggregated 
form with no identification of individual carriers. According to FAA 
officials, air carriers do not want to release this data to any outside 
party (including FAA) because of concerns that the data could then be 
publicly released. Air carriers pay for the special flight data 
recorders that can record FOQA data, which cost approximately $20,000 
each. Although this can be an expensive investment for some air 
carriers, most newer aircraft models come with the data recorder built 
into the airplane. The International Civil Aviation Organization (ICAO) 
has recommended that airlines from member countries implement a FOQA 
program. FAA has notified ICAO that the program will remain voluntary 
in the United States.
    Results: Although FAA has no formal national evaluation program to 
measure the overall results or effectiveness of FOQA programs, FAA 
cites examples that describe FOQA's contribution to enhanced aviation 
safety. For example, one FOQA program highlighted a high rate of 
descent when airplanes land at a particular airport. On the basis of 
the information provided from FOQA, air traffic controllers at the 
airport were able to develop alternative approach procedures to 
decrease the rate of descent.
Voluntary Disclosure Reporting Program (VDRP)
    Year Established: 1990
    Participation: Participants include air carriers, repair stations, 
and production approval holders. \16\
---------------------------------------------------------------------------
    \16\ A production approval holder is an entity that holds a 
certificate, approval, or authorization from FAA to manufacture 
aircraft, aircraft engines, propellers, and related parts and articles.
---------------------------------------------------------------------------
    Purpose: FAA initiated the program to promote aviation safety by 
encouraging the voluntary self-reporting of manufacturing, and quality 
control problems and safety incidents involving FAA requirements for 
maintenance, flight operations, drug and alcohol prevention programs, 
and security functions.
    Process: Upon discovering a safety violation, participants can 
voluntarily disclose the violation to FAA within 24 hours. The initial 
notification should include a description of the violation, how and 
when the violation was discovered, and the corrective steps necessary 
to prevent repeat violations. Within 10 days of filing the initial 
notification to FAA, the entity is required to provide a written report 
that cites the regulations violated, describes how the violation was 
detected, provides an explanation of how the violation was inadvertent, 
and provides a description of the proposed comprehensive fix. The FAA 
may pursue legal action if the participant discloses violations during, 
or in anticipation of, an FAA inspection.
    The violation must be reported immediately after being detected, 
must be inadvertent, must not indicate that a certificate holder is 
unqualified, and must include the immediate steps that were taken to 
terminate the apparent violation. If these conditions are met, and the 
FAA inspector has approved the comprehensive fix, then the FAA 
inspector will prepare a letter of correction and the case is 
considered closed with the possibility of being reopened if the 
comprehensive fix is not completed.
    Results: FAA does not know the overall program results because it 
does not have a process to measure the overall effectiveness of the 
program nationwide. A 2003 internal FAA report recommended that the 
agency evaluate the use and effectiveness of this program.
Selected GAO Reports on Aviation Safety
    Aviation Safety: System Safety Approach Needs Further Integration 
into FAA's Oversight of Airlines. GAO-05-726. Washington, D.C.: 
September 28, 2005.
    Aviation Safety: FAA Management Practices for Technical Training 
Mostly Effective; Further Actions Could Enhance Results. GAO-05-728. 
Washington, D.C.: September 7, 2005.
    Aviation Safety: Oversight of Foreign Code-Share Safety Program 
Should Be Strengthened. GAO-05-930. Washington, D.C.: August 5, 2005.
    Aviation Safety: FAA Needs to Strengthen the Management of Its 
Designee Programs. GAO-05-40. Washington, D.C.: October 8, 2004.
    Aviation Safety: Better Management Controls are Needed to Improve 
FAA's Safety Enforcement and Compliance Efforts. GAO-04-646. 
Washington, D.C.: July 6, 2004.
    Aviation Safety: Information on FAA's Data on Operational Errors at 
Air Traffic Control Towers. GAO-03-1175R. Washington, D.C.: September 
23, 2003.
    Aviation Safety: FAA Needs to Update the Curriculum and 
Certification Requirements for Aviation Mechanics. GAO-03-317. 
Washington, D.C.: March 6, 2003.
    Aviation Safety: FAA and DOD Response to Similar Safety Concerns. 
GAO-02-77. Washington. D.C.: January 22, 2002.
    Aviation Safety: Safer Skies Initiative Has Taken Initial Steps to 
Reduce Accident Rates by 2007. GAO/RCED-00-111. Washington, D.C.: June 
30, 2000.
    Aviation Safety: FAA's New Inspection System Offers Promise, but 
Problems Need to Be Addressed. GAO/RCED-99-183. Washington, D.C.: June 
28, 1999.
    Aviation Safety: Weaknesses in Inspection and Enforcement Limit FAA 
in Identifying and Responding to Risks. GAO/RCED-98-6. Washington, 
D.C.: February 27, 1998.
                                 ______
                                 
          Prepared Statement of The Airline Pilots Association
    The Air Line Pilots Association, representing 63,000 pilots of 40 
different airlines appreciates the opportunity to comment on the runway 
safety issues to be discussed by this Subcommittee.
    In a 2001 submission on the same subject to this Subcommittee, ALPA 
supported the fielding of seven categories of runway incursion safety 
enhancements recommended through the Commercial Aviation Safety Team 
(CAST) Runway Incursion Joint Safety Action and Joint Safety 
Implementation Teams. Those safety enhancements were:

        1. The installation of GPS-driven moving map displays in the 
        cockpit to enhance pilot situation awareness;

        2. The use of improved Standard Operating Procedures for ground 
        operations across the industry--current standardization is 
        woefully inadequate;

        3. Improved pilot training, including action by the FAA to 
        increase the significance of ground operations performance on 
        all flight training;

        4. Improved air traffic control procedures;

        5. Improved training for air traffic controllers, particularly 
        the use of high-fidelity visual tower simulators, which are 
        similar in quality to aircraft simulators routinely used for 
        pilot training;

        6. Improved situational awareness technology for air traffic 
        controllers, including ASDE-X and the emerging capabilities 
        demonstrated in the FAA's Safe Flight 21 Program; and

        7. Visual aids enhancement and automation technology for 
        airports, including improved all-weather conspicuity signs, 
        visual runway occupancy for flight crews on final approach, and 
        automated ``Smart Lighting'' to indicate taxi routes.

    Runway incursion risk has been mitigated, but there is still work 
to do. We applaud FAA efforts to this point and look forward to working 
in cooperation with them in the future. Since the above submission, 
ALPA has seen substantial progress made with a number of those 
enhancements. That progress relate to pilot performance as noted:

  <bullet> Improved Pilot Training: The FAA Office of Runway Safety and 
        Operational Services funded a program during Fiscal Year 2005, 
        to assist the Aircraft Owners and Pilots Association (AOPA), 
        and the Air Line Pilots Association (ALPA), with developing a 
        web based interactive training video similar to one previously 
        developed for AOPA. The video provides an interactive training 
        aid to deliver the ground operations runway safety message. The 
        AOPA program went live on http://www.aopa.org in 2004, and the 
        ALPA program went live on http://www.alpa.org in September 
        2005, and it is available to anyone signing on the public ALPA 
        page. Also included in the funding provided by the FAA for the 
        web based training video, was additional authorization for a 
        Runway Safety Training DVD program, to be produced through the 
        cooperative efforts of the United Airlines Training Center and 
        ALPA. The anticipated release period for that DVD is later in 
        calendar 2005. The DVD program will be distributed to 
        commercial pilots, and to all Part 121/135 operators by the FAA 
        Office of Runway Safety and Operational Services.

  <bullet> Visual aids enhancement and automation technology for 
        airports: Airport lighting research and development programs 
        are testing runway and taxiway lighting alternatives to 
        automatically project runway status information. A system of 
        Runway Entrance Lights (RELs) has been tested and implemented 
        on Dallas-Ft. Worth (DFW) Runway 18L/36R, to automatically warn 
        pilots of takeoff or landing traffic; and a Takeoff Hold Lights 
        (THLs) test program begins on that same runway during November. 
        ALPA pilots and Flight Safety technicians have been directly 
        involved in both programs. Runway Safety research and 
        development has been ongoing to discover and test new surface 
        painting and marking strategies to mitigate the runway 
        incursion threat. Surface paint and markings tested at 
        Providence, RI that clarify and enhance the taxiway and runway 
        information provided to traffic in the aircraft movement areas 
        have become the new standard for the 87 busiest commercial 
        airports in the U.S., with implementation required by 2008. 
        Many of those airports have already implemented the program. 
        ALPA pilots were involved in helping to determine the final 
        marking strategies to be evaluated.

    Improved situational awareness technology for air traffic 
controllers: FAA has begun installations of the ASDE-X electronic 
traffic monitoring with multilateration, providing exact location of 
transponder equipped airborne and ground targets. Pilot awareness is 
enhanced in each of these applications. ASDE-X should be fast tracked 
immediately. FAA has also approved the further development and 
deployment of ADS-B to harness the ability to capture Safe Flight 21 
capabilities. ADS-B capabilities should also be fast tracked.

  <bullet> The installation of GPS-driven moving map displays in the 
        cockpit to enhance pilot situation awareness: In addition to 
        fast tracking ADS-B capabilities, FAA must certify either a 
        permanent panel mounted Cockpit Display of Traffic Information 
        (CDTI), or an Electronic Flight Bag installation (EFB) capable 
        of displaying own-ship position on a moving airport map. 
        Coupled with ADS-B display could provide other traffic 
        information as well. Pilot situational awareness is always 
        enhanced when an interactive picture is available.

  <bullet> The use of improved Standard Operating Procedures for ground 
        operations across the industry: ALPA applauds the publishing of 
        Standard Operating Procedures Advisory Circulars 91-73 and 120-
        74. FAA has advised Part 91 operators, as appropriate, of the 
        availability of the 91-73 document; and they have promoted the 
        incorporation and the use of the 120-74 document through Ops 
        Specs where appropriate. Pilots invariably demonstrate improved 
        performance when standard operating procedures are employed.

    Significant attention has been paid throughout the aviation 
industry to the challenge of runway incursion mitigation. As we have 
shown above, the problem has been approached in several ways, most with 
favorable results. FAA data show that pilot deviations that have 
resulted in a loss of separation that could be defined as a runway 
incursion have been reduced by a significant percentage.
    Thank you for the opportunity to provide this information. Any 
questions concerning this submission may be directed to the Air Line 
Pilots Association, Engineering and Air Safety Department, 535 Herndon 
Parkway, P.O. Box 1169, Herndon, VA 20172.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Gordon H. Smith to 
                         Hon. Marion C. Blakey
    Question. Administrator Blakey, since 1997, I have been working 
with FAA to provide radar coverage in Central Oregon. Air traffic 
numbers for the region continue to grow quickly and the need for radar 
to manage the traffic is critical.
    As you know, Senate Report 108-146 asked the FAA to provide a 
process and timetable for addressing radar coverage for Central Oregon. 
Back in 2004, that study showed that establishing radar in Central 
Oregon was a cost effective option for the FAA, even without cost 
share. More importantly, safety would also improve once the radar is 
installed and active.
    Redmond Airport informs me that site preparation and the 
environmental work will be complete next summer.
    Additionally, Congress earmarked $1.6 million in the FY 2007 
Transportation Appropriations Bill to keep this project moving forward.
    If the site is ready this summer, will you commit to installing the 
equipment by the end of the 2007 calendar year?
    Answer. In October 2004, the FAA reported to Congress that it 
planned to install an ATCBI-6 system at the Redmond, Oregon Airport to 
provide low altitude surveillance coverage in Central Oregon. This 
report stated that the effort would begin in FY 2006 and the beacon 
system would be placed in operation in 2009.
    This schedule was based on the assumption that the majority of 
funding for this project would not be available until FY 2007/2008. 
Since Congress earmarked $1.6M for this project in the FY 2006 
Appropriations Bill, the schedule can be accelerated. The current plan 
is to procure needed equipment (tower and antenna) and award the 
construction contract by September 2006 and complete construction and 
install the equipment by the end of 2007. This will allow the system to 
be operational by early 2008.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                         Hon. Marion C. Blakey

    Question 1. When the Committee held a hearing on Capacity and 
Congestion in the National Airspace System (NAS) on May 26, 2005, the 
FAA followed up that hearing by informing me that whenever there is an 
equipment outage or some type of problem FAA specialists consider the 
extent of the problem before determining the actions to be taken. Most 
of the FAA's options lead to a slow down in traffic and a resulting 
overall reduction in the capacity of the system.
    Do you believe that backup systems in place at alternate locations 
to address significant outages at major locations would help to promote 
a safer more effective airspace system?
    Answer. We do not believe that geographically separate manned 
facilities providing redundant service capabilities for an existing 
major manned facility would promote a safer and more effective airspace 
system. Such a backup scenario (a manned facility located in a 
different location than the primary major manned facility) would make 
the NAS more immune to catastrophic outages where there was prolonged 
loss of the primary manned facility. However, this manned facility 
level backup would require significant additional redundant equipment 
and infrastructure to maintain in the remote instance where such a need 
should arise.
    It is important to understand that many of our systems have built-
in redundancy in order to achieve the high reliability/availability of 
service today. We measure and track operational availability every day 
and consistently sustain an operational availability level over 99.9 
percent. The backup and or fully redundant systems in service today 
effectively eliminate or reduce the negative effects to the control of 
Air Traffic when a system fails. These types of systems or service-
specific backup and costs are usually limited to that of the backup 
system and associated support equipment.

    Question 1a. Would having such systems in place reduce the need for 
a Ground Delay Program (GDP) in the event of an emergency?
    Answer. We employ various backup systems as described above and in 
those cases, they allow most Air Traffic Operations to continue while 
using the backup or redundant system.

    Question 1b. In places where we have seen a number of outages in 
recent years, like LAX, what would be the impact of having a backup 
system in Hawaii to ensure system viability in the event of an extended 
power outage or the potential for a natural disaster?
    Answer. To create a system and facility backup similar to that 
characterized in the LAX/Hawaii example would pose significant 
infrastructure requirements/costs etc, essentially duplicating 
buildings, display, communications and other connectivity. 
Additionally, there would be issues with getting the number of 
controllers, knowledgeable of the LAX airspace to the Hawaii facility 
to conduct operations.

    Question 2. Among the most promising technologies to protect 
against the problem of runway incursions is Airport Surface Detection 
Equipment, model X (ASDE-X) which can use radar or accept data from 
more precise sources to pinpoint a plane's location. The FAA recently 
announced plans to install the all-weather ASDE-X systems at 14 of the 
Nation's most active airports. However, the program was originally 
scheduled to include 25 airports with a completion date of 2007. Now, 
only 14 airports are planned to receive the device with a scheduled 
completion date of 2011.
    What was the cause of the FAA's change in plans regarding ASDE-X? 
When do you plan to introduce this system to all of the airports listed 
in the agency's most recent capacity benchmark study, including 
Honolulu International (HNL), as the Nation's busiest?
    Answer. On September 9, 2005, the FAA's Joint Resources Council 
recommended approval of the plan to install ASDE-X capability at 35 
airports, including Honolulu International (HNL). There are currently 
four operational ASDE-X airports: General Mitchell International (MKE); 
Orlando International (MCO); Theodore Francis Green State (PVD): and 
William P. Hobby (HOU). Another six systems are currently installed and 
being optimized: Seattle-Tacoma International (SEA); Hartsfield-Jackson 
Atlanta International (ATL); Lambert-St. Louis International (STL); and 
Bradley International Airport (BDL); Charlotte Douglas International 
(CLT); and Louisville International-Standiford Field.
    In a November 2, 2005 press release, the FAA announced 14 of the 
additional airports (including SEA which is referenced above) scheduled 
to receive ASDE-X. Plans are being made to announce the remaining 
airports soon.
    The FAA plans to deploy ASDE-X as expeditiously as possible and 10 
more systems will be installed by the end of Fiscal Year 2007; however 
it takes approximately 2 years for the ASDE-X capability to become 
operational at an airport. The process includes: site survey; site 
design; lease approval; completion of environmental requirements; site 
preparation; construction and installation activities; air traffic 
controller and technician training; and system optimization, 
acceptance, and commissioning activities. The last ASDE-X airport is 
currently planned to become operational prior to the end of the Fiscal 
Year 2011, although the FAA is looking into ways to expedite this 
schedule.

    Question 3. The Commerce Committee has been considering the Age 60 
pilot age standards. The current proposal would cede FAA authority to 
the International Civil Aviation Organization, a mini-U.N. for aviation 
issues.
    Can you tell me if the FAA has ever ceded its safety 
responsibilities to ICAO?
    Answer. The FAA has never delegated, and would never delegate, the 
discharge of its safety responsibilities to an international 
organization.
    A little background might be helpful. The United States is a 
signatory to the 1944 Chicago Convention, which established the 
International Civil Aviation Organization (ICAO) as the United Nation's 
specialized authority to develop standards and recommended practices 
for all aspects of international civil aviation. A signatory country--
there are now 189--agrees to abide by the international standards set 
out in the Annexes to the Convention, unless it files what is known as 
a ``difference.'' Such a country could have either a more liberal 
standard or more rigorous for its own civil aviation system, but the 
country could not prevent operators who comply with the ICAO standard 
from flying in their airspace.
    FAA does not ``cede'' authority to ICAO, but rather, determines 
whether any new ICAO standard enhances aviation safety sufficiently to 
justify any societal costs that result from implementation. If so, FAA 
will take the steps necessary to implement the standard.
    In many cases, ICAO promulgates standards that reflect actions that 
the FAA has already taken, whether by statute, rule, or otherwise.
    The way this has worked with the age 60 limitation (the current 
ICAO standard), some countries have already filed differences 
concerning that standard and permit pilots to serve after age 60 as a 
pilot-in-command (PIC) for their commercial passenger operations. 
Currently, the U.S. does not recognize such ``differences'' (i.e., our 
rule is consistent with the current ICAO age 60 standard) and 
therefore, a PIC over age 60 cannot operate in most commercial 
passenger operations in U.S. airspace. If ICAO changes the standard to 
permit PICs over age 60, that would become the international standard. 
Still, any country could keep its existing age-60 rule for its own 
certificated pilots and file a difference with ICAO. But countries that 
meet a new, liberalized standard will be able to use pilots over the 
age of 60 for their commercial passenger operations to the U.S. Whether 
the U.S. retains the age-60 rule for our own operators and airmen would 
not matter. The U.S. would be obligated under the Chicago Convention to 
recognize pilot certificates that meet or exceed the new international 
standard.

    Question 4. The FAA is responsible for establishing the core 
curriculum for FAA-approved aviation maintenance technician schools 
(AMTS). In 2003, GAO identified serious problems with the curriculum, 
including the fact that the last major overhaul of the courses occurred 
about 50 years ago. In response, FAA stated that it would work with the 
aviation community to review current and future skill requirements for 
the mechanics, and identify and revise the curriculum as needed.
    What progress has been made in updating the certification of 
mechanics?
    Answer. On January 18, 2005, the FAA published Advisory Circular 
(AC) 147-3A Certification and Operation of Aviation Maintenance 
Technician Schools (AMTS), allowing AMTS curriculum updates. AMTS 
applicants are encouraged to exceed the FAA minimum standards for 
facilities, curriculum, and teaching levels. AMTS applicants are 
encouraged to teach subjects beyond those required by the regulations 
such as composite material repair, solid-state electronics, 
nondestructive inspection techniques, and built-in test equipment. We 
also recommend adding courses in human factors and inspection 
principles. When an AMTS chooses to exceed FAA minimum standards, the 
proposal must be approved by the FAA. Once approved, the AMTS must 
follow the new curriculum which remains mandatory until the school 
modifies the curriculum in accordance with section 147.38.
    AC 147-3A reminds and allows an AMTS to strive to keep its approved 
AMTS curriculum current to meet industry needs by revising courses as 
appropriate while still maintaining the basic core elements of the 
curriculum. However all revisions to the curriculum require FAA 
approval before they can be implemented.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Hon. Marion C. Blakey

    Question 1. In the Administration' FY06 FAA budget, the 
Administration proposed reducing, by $500 million, the Airport 
Improvement Program citing a lack of need for this funding. Although 
Congress has rejected this cut to airport construction funding, I would 
like to know:
    Why did the Administration not originally request that this funding 
be reprogrammed to other FAA accounts such as the Facilities and 
Equipment Accounts that had been drastically reduced the year before if 
the agency is really facing a long-term financial crisis?
    Answer. The Facilities and Equipment (F&E) appropriation is 
separate in its purpose, mission, and funding requirements from the 
Airport Improvement Program (AIP). The F&E budget request contains 
projects to manage the National Air System (NAS) and maintain air 
traffic control systems. The AIP program, on the other hand, aims to 
improve surfaces and structures for both commercial airports and 
general aviation operations. The Administration's proposed reduction in 
AIP does not entitle F&E to a higher funding level.
    The Administration's proposed FY06 funding of $3.0 billion for AIP 
would have allowed the program to continue its basic structure of 
entitlement formulas and discretionary resources. In the National Plan 
of Integrated Airport Systems (NPIAS) Report issued in September 2004, 
the FAA projected a 15 percent reduction in estimated development needs 
from FY 2005-FY 2009. GAO reviewed and found that the NPIAS estimates 
were credible. Our FY 2006 AIP budget request matched this reduction in 
capital requirements.

    Question 2. Looking back on the Air Midwest crash in 2003 in 
Charlotte, NC, the NTSB cited both the FAA and the company for lax 
oversight of aircraft maintenance as a contributing factor to the 
crash.
    How common is it for air carriers to outsource the evaluation of 
``quality assurance'' of their contract of outside maintenance 
facilities? How does the FAA certify these outside inspectors? How 
often must they secure re-approval to be engaged in this business? 
Aren't the risks for failing to catch a critical mistake greater if we 
allow outsourced maintenance to be validated by outsourced inspections?
    Answer. By regulation, air carriers are required to evaluate the 
effectiveness of their maintenance programs whether or not it performs 
the maintenance (14 CFR section 121.373). A carrier cannot contract out 
the responsibility for quality assurance, but the FAA may authorize the 
use of a third-party to perform baseline audits in support of the air 
carrier's overall quality assurance program.
    It is a common practice for air carriers to contract baseline 
audits to a third party. For example, the carrier might use the 
Coordinating Agencies for Supplier Evaluation (C.A.S.E.). In order to 
use this provider to perform audits, the air carrier must join C.A.S.E. 
as a member-organization, and obtain the authorization from the FAA to 
use the audit function as part of its continued airworthiness and 
surveillance program. C.A.S.E. is the accepted industry standard as 
auditor and shares non-prejudicial vendor information and quality 
control data with its members. The FAA does not certificate C.A.S.E. 
since it must report audit findings to the carrier for review and 
action.
    It is ultimately the carrier's responsibility to maintain their 
aircraft in accordance with the regulations and its FAA-approved 
manuals. It is also the carrier's responsibility to perform risk 
analysis and evaluate the results of an audit in light of the potential 
risk.

    Question 3. The (Airport Surveillance Radar Model-11) (ASR-11) was 
scheduled to replace aging analog radars at over one hundred airports 
when the FAA first announced the radar upgrades. It is my understanding 
that this program has been delayed and the number of airports that were 
to receive the program dramatically reduced.
    What is the status of the ASR-11 radar program? If the FAA is not 
going to install upgraded radar at dozens of smaller airports around 
the country, what other steps will the agency be undertaking to make 
sure that these airports have the necessary equipment?
    Answer. In September 2005, the FAA established a new ASR-11 program 
baseline to address significant budget deferrals that contributed to 
schedule extensions and cost increases. Based upon a benefit-to-cost 
analysis the program baseline was divided into two segments. Segment 1 
supports the procurement of 66 ASR-11 radar systems through Fiscal Year 
2007 and Segment 2 will address the need for any follow-on purchases. 
Purchases of systems through FY07 will be used to replace the ASR-7 
radars, the oldest of the radar systems.
    The FAA is updating program cost, safety, and performance benefits 
to build the business case for Segment 2 systems. As part of Segment 2 
analysis, the FAA will review the remaining ASR-8 radar locations to 
determine if sufficient business justifications exist to replace these 
systems. The business case will focus on validating legacy radar 
operations and maintenance (O&M) costs as well as quantifying the 
additional FAA and user benefits provided by the ASR-11 radar. In 
addition, the FAA will consider the Next Generation Air Traffic Control 
System (NGATS) strategy as part of the Segment 2 analysis.
    Once the business case is developed, then a new baseline will be 
proposed. If the FAA determines that replacement of the systems is not 
warranted, then more detailed planning and analysis will be undertaken 
to ensure continuation of the ASR-8 radar system service life.

    Question 4. As you know, a number of U.S. carriers are aggressively 
entering global alliances to improve their reach and improve 
profitability. The GAO has questioned the FAA's processes and oversight 
of the safety code-sharing partners of U.S. airlines. Although the GAO 
did not state that the lack of effective oversight threatens passenger 
safety, it raises a number of questions, especially in light of the 
DOT's recent notice to potentially allow greater foreign ownership 
interests greater control over U.S. carriers.
    Did DOT consult with you regarding potential safety issues that may 
arise from the NPRM? Do you have any concerns that foreign owners may 
not take maintenance and safety as seriously as their U.S counterparts 
given an investor's desire to make a fast return on its investment?
    Answer. Senior FAA staff were contacted by the Office of the 
Secretary (OST) before the NPRM was issued. The FAA will continue to 
work closely with OST as they review the comments and the Secretary 
decides whether to issue a final rule. Safety is of paramount 
importance to all the agencies in DOT; FAA will continue to work 
closely with OST and the aviation community as DOT considers what, if 
any, further action to take in this rulemaking.

    Question 5. The FAA recently announced that it was installing new 
safety technology at 15 major airports over the next year. The 
equipment, Airport Surface Detection Equipment, Model X (ASDE-X), helps 
air traffic controllers spot potential collisions by integrating data 
from a variety of sources. The FAA is to be commended for installing 
new safety equipment at 15 major hub airports, but I understand that 
this equipment was originally developed for mid-sized facilities. While 
I certainly welcome the installation of this technology, which everyone 
seems to agree will greatly improve safety, the aviation industry is 
changing quickly and a number of mid-sized airports are seeing a surge 
in passengers and operations.
    Given your limited resources, how will FAA prioritize which 
airports receive this equipment in the future?
    Answer. Last year the FAA reevaluated the sites scheduled to 
receive ASDE-X capability. A benefit/cost analysis was conducted for 59 
candidate airports including the 34 ASDE-3/AMASS sites and the original 
ASDE-X baseline sites. Both safety and efficiency benefits associated 
with incorporating ASDE-X functionality at the candidate airports were 
analyzed in developing the business case justification. The business 
case presented to the FAA's Joint Resources Council (JRC) on September 
9, 2005 showed that maximum benefit is achieved by deploying ASDE-X 
capability to airports with larger traffic counts and/or more complex 
operations, e.g., airports that use the same runway(s) for arrivals and 
departures.
    The JRC recommended approval of the plan to install ASDE-X 
capability at 35 airports. The initial list of 14 airports was released 
November 2, 2005. Plans are being made to announce the remaining 
airports soon. We are in the process of developing the deployment 
schedule taking all of the following factors into consideration: safety 
and efficiency benefits; available funding; personnel resources; and 
other planned airport activities.
    There are currently four operational ASDE-X airports: General 
Mitchell International (MKE); Orlando International (MCO); Theodore 
Francis Green State (PVD); and William P. Hobby (HOU). Another six 
systems are currently installed and being optimized: Seattle-Tacoma 
International (SEA); Hartsfield-Jackson Atlanta International (ATL); 
Lambert-St. Louis International (STL); Bradley International Airport 
(BDL); Charlotte Douglas International (CLT); and Louisville 
International-Standiford Field.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                         Hon. Marion C. Blakey

    Question 1. Why doesn't the FAA require all major commercial 
airports and all airports receiving Federal assistance to meet its 
runway safety standards, as the NTSB has recommended after 
investigating aircraft overrun accidents?
    Answer. The FAA promotes standard runway safety areas (RSA) at 
airports in two ways:
    First, the FAA requires that airport runway projects comply with 
RSA standards as a condition of receiving a Federal grant for the 
project. This applies at all federally assisted airports--both 
commercial and general aviation.
    Second, FAA safety regulations require commercial airports to 
upgrade their RSAs to the agency's standards ``in a manner authorized 
by the Administrator.'' This has consistently been interpreted as ``to 
the extent practicable,'' in recognition that it is simply not feasible 
to get a full standard RSA at every runway end.

  <bullet> Because many airports did not meet the new standards when 
        they were adopted, FAA regulations require that airports 
        upgrade an RSA during the next major construction work on the 
        runway.

  <bullet> To complete upgrades sooner than the rule requires, FAA has 
        funded the upgrade of RSAs through a priority grant program.

  <bullet> All of these upgrades cannot be completed right away. The 
        accelerated schedule will still take several years, because 
        planning and environmental review take time, and because 
        available AIP funds can support only a portion of the remaining 
        projects each year.

    The FAA's regulatory authority applies only to commercial airports. 
(Specifically, 49 U.S.C. Sec. 44706 authorizes the agency to 
certificate airports served by air carriers operating aircraft with 
more than 10 seats in scheduled service or aircraft with more than 30 
seats in any commercial service.) Therefore, the agency cannot compel 
general aviation airports to meet RSA standards. However, as mentioned 
above, a general aviation airport will not receive Federal grant funds 
for a runway construction project unless that project complies with FAA 
standards, including standards for runway safety areas.

    Question 2. By letter to the NTSB, you claimed that FAA had a plan 
to bring all Part 139 airports and all airports receiving Federal 
assistance into compliance with Federal RSA standards by 2007. Is it 
still possible to meet this goal? Is it possible to meet this goal by 
2015?
    Answer. Following the American Airlines accident at Little Rock, 
Arkansas in 1999, the FAA initiated an accelerated funding program to 
upgrade RSAs earlier than required by Part 139. The FAA strongly 
encouraged airport sponsors to upgrade RSAs in advance of major runway 
work, and made Federal grant funding available on a priority basis for 
those upgrades. FAA surveyed runways at Part 139 airports in 2000 to 
establish a baseline of runways with nonstandard RSAs. At the more than 
500 Part 139 airports with more than 1,000 runways, 42 runways did not 
meet standards and could not be improved at all. FAA found that RSAs 
for 456 runways could be brought up to standards or at least improved.
    FAA began tracking upgrade projects in 2001 with the goal of 
initiating all upgrade projects by 2007. Unfortunately, our 2003 letter 
to the NTSB was not clear on several points. We regret any confusion 
that it has caused. Specifically, it gives the impression that actual 
physical work would be completed on all RSAs by 2007, which was never 
the agency's intention and would not have been possible given the time 
required for planning, budgeting, and environmental review of each 
project and given the AIP funds available each year. Also, that letter 
must be read to refer to airports certificated under Part 139, and not 
general aviation airports. This corresponds to the actual NTSB 
recommendation, and reflects the fact that FAA's regulatory authority 
under Part 139 does not extend to general aviation airports.
    In Fiscal Year 2005, given the progress in initiating projects as 
planned, the FAA changed from a goal of initiating projects to a goal 
of completing projects. ``Completing'' a project means upgrading it to 
the extent practicable, even if it does not fully meet design 
standards.
    In FY 2005, the FAA again inventoried Part 139 airport runways with 
nonstandard RSAs. This new survey was intended to revalidate and update 
the funding plan for completion of all RSA upgrades, and also to 
consider the availability of Engineered Material Arresting System 
(EMAS) technology. That inventory, completed in August 2005, showed 
that since 2000, the FAA has completed more than 200 projects. Of 1,007 
Part 139 runways, more than 650 now substantially comply with FAA 
standards--about 66 percent.
    Based on the 2005 inventory, FAA's Office of Airports Business Plan 
for Fiscal Year 2006 sets the following goals:

        Complete 34 additional improvements by September 30, 2006;
        Complete 92 percent of practicable improvements by 2010; and
        Complete all practicable RSA improvements by 2015.

    We are confident that remaining Part 139 RSAs can be upgraded by 
2015. We have developed a multi-year plan that considers expected 
funding levels and the time requirements to accomplish environmental 
work and the actual construction. When the program is completed in 
2015, an estimated 86 percent of Part 139 runways will substantially 
meet RSA design standards. The remaining 14 percent will have been 
improved to the extent practicable to do so.

    Question 3. Of the 782 Mitsubishi MU-2 aircraft produced, 188 have 
been involved in accidents, causing 241 deaths. In the last year and a 
half, 10 more people have died in MU-2 crashes. In many instances, 
investigators could not determine the cause of the loss of engine 
power. Why is the FAA not reviewing this aircraft's certificate?
    Answer. In response to an increasing number of accidents, the FAA 
initiated a comprehensive safety evaluation of the Mitsubishi MU-2B 
airplane in July 2005. The safety evaluation included an in-depth 
review and analysis of MU-2B series airplane accidents, incidents, 
safety data, engine reliability, service difficulty reports (SDR), 
Mandatory Continued Airworthiness Information (MCAI) and Airworthiness 
Directives (AD), pilot training requirements, maintenance, and 
commercial operations. The team also reviewed the airplane's type 
certification basis and operating environment.
    We have concluded that the airplane does have some unique 
characteristics that warrant follow on action. We have proposed a 
Special Federal Aviation Regulation to require MU-2B specific initial 
and recurrent pilot training, specific testing of pilot skills, 
maintenance training for technicians, and other changes as to how the 
airplane is flown and maintained. In addition, the FAA will propose 
airworthiness directives (ADs) for five airframe, and two engine 
issues.

    Question 4. Has the FAA investigated the possible causes of the 
loss of engine power involved in many of these accidents? What did you 
conclude?
    Answer. Yes, reviewing engine failures in the MU-2B airplane was a 
key part of the safety evaluation. FAA review of the available in-
flight shut down data for the Honeywell TPE331 series engines from the 
past 10 years does not indicate a trend in engine problems. However, 
the safety evaluation did uncover two possible unsafe conditions and 
the FAA will propose two airworthiness directives (ADs) relating 
thereto. One will propose the use of a modified fuel control unit and 
the other will propose a change in how turbine wheel cycles are 
determined.

    Question 5. Is the FAA considering additional training requirements 
for pilots of MU-2 aircraft? If so, why?
    Answer. Yes, additional training requirements for the Mitsubishi 
MU-2 aircraft are being considered. After evaluating operating 
characteristics and techniques, the FAA's MU-2 Safety Evaluation Team 
concluded that the MU-2 is a complex aircraft requiring operational 
techniques not typically found in other light turboprop aircraft, but 
similar to those of turbo-jet aircraft, which requires a type rating. A 
full understanding of the system complexity becomes even more critical 
during emergency situations.
    After a thorough evaluation, the team made the following 
recommendations:

  <bullet> that pilots attend annual (every 12 months) training for the 
        MU-2 aircraft that must conform with an FAA Approved Training 
        Program; and

  <bullet> that completion of a flight review to satisfy the 
        requirements of 14 CFR 61.56 is valid for operation of an MU-2 
        only if that flight review is conducted in an MU-2.

    All training and checking for the MU-2 aircraft must be conducted 
in accordance with an FAA Approved Training Program. These training 
requirements are far more extensive than what an aircraft-specific type 
rating typically requires.
    A draft copy of the recommendations was released on December 19, 
2005. Based on the Safety Evaluation Team Report, FAA is proposing a 
Special Federal Aviation Regulation (SFAR), which would make aircraft 
specific training for the MU-2 mandatory for all users, including Part 
91,129, 135 and 121.

    Question 6. Has the FAA determined that there are aircraft with 
comparable safety records as the MU-2? What action has FAA taken with 
respect to such aircraft?
    Answer. The FAA is unable to develop an accident rate for general 
aviation aircraft because we do not have accurate data on hours flown. 
We did, however, attempt to normalize the MU-2B accident data versus 
similar airplanes as part of the safety evaluation. We developed a 
``rate'' based upon fleet size using the assumption that most similar 
airplanes flew a similar number of hours on average. One analysis of 
fatal accidents in air taxi operation indicated that the Swearingen SA 
226/227, the Beechcraft 99, and the Embraer 110 warrant further 
analysis. We will complete this analysis as a part of the MU-2B safety 
evaluation action plan.

    Question 7. What will be the effect of reducing the budget for the 
Traffic Flow Management initiative within the Air Traffic Management 
program from the President's requested level of $83.3 million to $53.6 
million?
    Answer. The Fiscal Year (FY) 2006 budget ultimately passed by 
Congress reduced the Traffic Flow Management (TFM) funding by $10 
million vice the initially proposed $29.7 million. The primary impact 
of the $10 million reduction will be an estimated 6 month schedule slip 
of the initial operating capability for the processing center 
deployment. The processing center is roughly equivalent to the hub site 
at Volpe in the current system and represents the core of the new 
architecture. Without the funds, we are cutting back on some of the 
development staff, which impacts production in late FY 2006 through the 
start of FY 2007.
    In addition to the impact to TFM modernization described above, we 
are cutting some of the software functionality from our version 8.3 
release for next fall. Specifically, we are looking to cut enhancements 
to eSTMP (enhanced Special Traffic Management Programs) and pop-up 
handling, which are intended to help us improve the use of airspace 
flow programs to be initially deployed in the spring.

    Question 8. How will this reduction impact the modernization 
program and the ability to deal with air traffic demands, especially 
during events like the hurricanes?
    Answer. As discussed in the previous answer, the primary impact of 
the $10 million reduction is on the schedule for the initial operating 
capability of the new processing center deployment.
    Severe weather, including hurricanes, is a challenge every spring 
and summer. The FAA, drawing on years of experience managing the 
National Airspace System, has developed special plans and procedures to 
ensure rapid, effective action in any weather. When the weather or 
other conditions threaten to cause problems, specialists at the Air 
Traffic Control System Command Center adjust air traffic flow to keep 
the system safe and efficient. The reduced funding level in Fiscal Year 
2006 will impact our ability to enhance the existing system 
capabilities, specifically in the application of lessons learned from 
each severe weather season and translation into new capabilities to 
better deal with the next year's severe weather season.

    Question 9. What oversight steps is the FAA taking to ensure that 
the transition to a new air traffic control communications system does 
not cause outages that have occurred in recent months?
    Answer. Please see the detailed responses to questions 30 through 
32 below, which address essentially the same inquiry made here.

    Question 10. Does FAA have a comprehensive plan that involves the 
new and old carriers to ensure that safety is not compromised in the 
transition from one network to the other? If so, please describe it.
    Answer. Yes, FAA has a comprehensive plan to transition new and old 
carriers from our ``legacy system'' of surveillance using the National 
Work Program Guidelines (NPG) to the Air Transportation Oversight 
System (ATOS).
    Using a comprehensive process, FAA certificate management teams 
(CMTs) are converted to ATOS. The plan directs the CMT to pass through 
five ``gates'': outreach, staffing, automation, training, and 
transition. These gates are sequenced so that converting CMTs can 
continue to accomplish required inspections under the legacy 
surveillance system without interruption. When the final gate of the 
plan is complete, the CMT terminates work functions under the NPG and 
immediately begins to execute the comprehensive surveillance plan 
prescribed by ATOS. Consequently, there is no interruption of safety 
oversight during the conversion to ATOS.

    Question 11. Given recent survey results concerning government 
employee satisfaction, what are you doing and what do you plan to do to 
address concerns about FAA employee morale? Do FAA contract negotiators 
have such concerns in mind as they work to formulate new employment 
agreements with FAA personnel? What specific actions are they taking?
    Answer. The morale of FAA employees is good overall as measured by 
our Employee Attitude Survey (EAS) and by government surveys such as 
the Federal Human Capital Survey (FHCS). The EAS provides more accurate 
results since we usually survey all employees and in 2003 the overall 
job satisfaction result was 71 percent positive, for the over 20,000 
respondents. FAA's FHCS 2004 result for overall job satisfaction was 66 
percent positive, very comparable to the government average of 68 
percent.
    In addition, other possible indicators of employee morale have 
shown increasing positive trends on the EAS between 2000 and 2003. For 
example, the organizational commitment of employees has improved from 
77 percent positive to 81 percent. Employee perceptions of the quality 
of work life (improved from 63 percent positive in 2000 to 66 percent 
in 2003) and availability of training opportunities (improved from 67 
percent positive in 2000 to 70 percent in 2003) have shown improvement.
    Although we have made progress in key areas, we still have more 
work to do. The results have been lower for employee perceptions of 
various management processes, such as communication. Starting with EAS 
2003, FAA identified issues in four Focus Areas: Leading Performance 
(performance management, accountability); Recognizing and Rewarding 
Performance; Communication; and Conflict Management. We have 
implemented ongoing actions to address these issues. Progress on 
actions, including FAA-wide (Corporate) actions and actions tailored 
for each FAA organization is tracked monthly as part of the 
Administrator's Flight Plan Assessment meeting.
    To ensure an emphasis on effective management of employees, FAA's 
Flight Plan includes targets for an Organizational Effectiveness metric 
using EAS results. The next EAS will be administered in mid-2006 and 
will provide feedback on job satisfaction and other morale-related 
issues, as well as the impact of our EAS action plans.
    FAA's contract negotiations are guided by the objective of 
obtaining a balanced agreement that is fair to employees, the agency 
and the taxpayer. The impact and intent of both union and agency 
contract proposals regarding employee conditions of employment are 
fully explored and considered by both parties in the collective 
bargaining process.

    Question 12. How much funding did FAA let in contracts related to 
Hurricane Katrina relief?
    Answer. As of January 6, 2006, the FAA has let a total of 
$270,162,492 in funding towards the Hurricane Katrina relief effort. Of 
this amount, 98 percent, or $265,822,754, was for FEMA contracts, and 2 
percent or $4,339,738 was FAA awarded contracts. Under the Emergency 
Support Function #1 (ESF-1) of the National Response Plan, the FAA is 
tasked by FEMA through mission assignments to provide specialized 
support services that result in FEMA contracts. These contracts are 
reimbursed by FEMA. A copy of the most recent Stewardship Report on 
Hurricane Katrina, Wilma, and Rita is attached.

    Question 13. What oversight steps did FAA take with respect to such 
contracts?
    Answer. The FAA developed a stewardship plan as a tool to assist in 
tracking and monitoring all Hurricane Katrina relief related 
expenditures on a weekly basis. A working group was established to 
ensure constant oversight. Procurement and program officials worked in 
partnership with their applicable financial office to ensure taxpayer's 
dollars were spent wisely. Approval levels and type of contract (e.g. 
Firm Fixed Price) were verified via weekly reports submitted to the 
Office of the Secretary of Transportation for overall agency inclusion. 
In addition, the FAA:

  <bullet> fully utilized existing contract oversight policies;

  <bullet> commissioned a DCAA audit of the contract for FEMA 
        transportation support with Landstar, where approximately 
        $241,973,538 was tasked;

  <bullet> agency internal control division completed an additional 
        review of contracting activities to ensure that proper controls 
        were in place; and

  <bullet> mandated proactive communications at all levels by 
        immediately establishing a stewardship workgroup under the 
        direction of the agency CFO, to oversee all financial and 
        reporting aspects of our relief and recovery efforts.

    Question 14. What oversight steps has FAA taken since the DOT 
inspector General's announcement of investigation into oversight of 
such contracts?
    Answer. The FAA instituted procedures to require the contractor to 
provide documentation for all quotes and efforts to obtain competition 
for subcontractors to perform specific relief tasks. The FAA also 
mandated a written verification of invoices and documenting receipt of 
goods from a Federal Government representative.

    Question 15. You spoke about both short and long-term plans for 
hiring controllers to deal with the current staffing crisis and the 
wave of retirements that are expected in coming years. The number you 
intend to hire for 2006 is, I believe, 1,249. The longer term plans 
involve hiring 12,500 between now and 2014. I understand that training 
those controllers is very intense and that trainees have high failure 
rate. What are the specific steps being taken by FAA to ensure enough 
trained controllers will be available to meet staffing needs?
    Answer. Based on our updated and most recent plan, the FAA intends 
to hire 1,129 controllers in FY 2006. Between now and 2015, the longer 
term plans involve hiring 11,500 controllers. While controller training 
is intense, the failure rate is not as high as you might think. The 
failure rate through initial qualification training at the FAA Academy 
has been approximately 5 percent. The anticipated failure rate through 
on-the-job training at the facility is approximately 10 percent. These 
percentages, and other factors, were used to calculate the appropriate 
number of new controllers needed to be hired to meet our staffing 
goals. The FAA is also taking a detailed look at the entire controller 
selection and training process to find additional efficiencies. These 
steps include streamlining the controller hiring process, evaluating 
the Air Traffic Collegiate Training Initiative to determine how best to 
take advantage of advanced training capabilities at certain colleges, 
and analyzing the on-the-job training process to determine where 
additional efficiencies can be gained.

    Question 16. Do you believe that you can realistically meet the 
hiring targets given the training complexities?
    Answer. The training complexities and historical wash out rates 
were calculated into the non-attrition losses and has allowed us to 
accurately predict future hiring needs and meet the staffing targets.

    Question 17. When and how will the FAA hire new airworthiness 
inspectors?
    Answer. All ASI hiring is normally conducted throughout the year at 
our regional and international field offices.
    The FY 2006 appropriation provided funding for additional ASI 
positions. Due to the continuing resolution in early FY 2006 we were 
unable to begin the hiring process. Therefore, the process of hiring 
ASIs began in the second quarter of FY 2006. This will provide 
additional support for expanded repair station oversight and replace 
some of the safety critical staff lost in FY 2005.
    While the FAA received additional funding in support of hiring, the 
one percent rescission and unfunded pay raise resulted in a funding 
reduction almost $10m for the Flight Standards Service. With this 
funding reduction, AFS will be able to support new hiring and training 
for only the original 80 inspectors requested in FY 2006.
    All new aviation safety inspectors (ASI) attend an extensive 
training curriculum. On average, an inspector receives all training, 
including indoctrination and required on-the-job training, within 12 
months of their entry into the FAA. Every new hire inspector attends a 
``string'' of courses separated into 3 phases.
    In general, examples of Phase 1 training for an air carrier 
operations ASI totals 160 hours (20 days), and for an airworthiness 
maintenance ASI it takes 168 hours (21 days). Phase 2 training is 176 
hours (22 days) and 200 hours (25), respectively. However, the 
individual inspector training varies greatly according to their 
specialization. Specialties include: air carrier (operations, 
maintenance, avionics, and cabin safety) and general aviation 
(operations, maintenance, avionics).
    One of the goals of the Curriculum Transformation initiative, which 
has just started, is to reduce the time required to get new-hire 
inspectors through their initial training and credentialing by 
restructuring the training and expanding the service's use of distance 
learning.

    Question 18. Why has there not been more of a focus on increasing 
this workforce in light of the increase of outsourced maintenance, 
especially considering the work being sent to foreign repair stations?
    Answer. The FAA has been forced to trim its safety workforce as a 
result of budget cuts in 2005, specifically the rescission and 
partially funded Federal pay raise in last year's omnibus 
appropriations law.
    The FAA's FY 2006 appropriation provided for our request for 80 
additional positions plus additional funding. However, as noted above, 
because of the 1 percent rescission and the unfunded pay raise, we will 
not be able to hire as many as anticipated. Funding will support 
inspector hiring of critical safety staff lost in FY 2005 and provide 
some support for repair station oversight.
    Safety will always come first, and the FAA will not reduce its 
oversight of the air carriers. Instead, if our budget is cut further, 
the agency will continue to delay or defer new certification activities 
related to the growth of existing operators, or applications for new 
operators in order to absorb further reductions without resorting to 
cuts in current services.

    Question 19. How will the FAA ensure that worked performed outside 
of the United States is done in accordance with U.S. Federal standards?
    Answer. Although located outside the U.S., repair stations that 
service U.S. registered aircraft are still FAA-certificated and must 
comply with the requirements contained in 14 CFR Part 145 of our 
aviation safety regulations. Repair stations, whether located in the 
United States or outside, are held to the same safety standards.
    FAA rules are clear: whether maintenance is performed at an air 
carrier's maintenance facility or a repair station, it is the air 
carrier's responsibility to ensure that the work is done to the same 
high safety standards.
    The air carrier's maintenance program must include oversight of its 
contractors and vendors to ensure they are following the air carrier's 
procedures. The air carrier must maintain a vendor list, and its 
operations specifications (OpSpecs) must identify those vendors 
performing substantial maintenance for the air carrier. The FAA reviews 
the results of air carrier audits of vendors and performs its own 
inspections of contractor facilities, focusing on the repair station's 
adherence to the air carrier's maintenance program.
    The FAA has two sets of inspectors to oversee contracted 
maintenance if this maintenance is being done by a repair station--the 
air carrier's principal maintenance inspector as well as the repair 
station principal inspector. When deficiencies arise, each communicates 
the concern to the other FAA office as well as to the facility and air 
carrier to ensure the appropriate actions are taken.
    Foreign repair stations also receive additional surveillance from 
their country's civil aviation authority.

    Question 20. Does FAA currently certify foreign repair facilities 
who do not meet drug testing, alcohol testing, or security standards 
which domestic repair facilities are required to meet? If so, why?
    Answer. The United States is a signatory of three trade agreements 
with provisions that specifically affect aircraft and aircraft engine 
repair stations. These agreements all specify, to some degree, that the 
U.S. must extend free trade privileges to the other signatories as much 
as possible. If barriers to trade are erected by the U.S., the 
agreements specify the repercussions that could take place, which 
includes retaliatory action by other signatories. For example, one such 
barrier would be the U.S. imposing its drug testing requirements on the 
personnel of foreign repair stations.
    The FAA's drug and alcohol testing regulations require the 
regulated air carriers to ensure domestic contracted maintenance 
personnel are covered under FAA approved drug and alcohol programs. In 
accordance with international trade agreements, foreign repair stations 
are not subject to U.S. drug and alcohol testing requirements. However, 
repair stations outside of the U.S. may have drug and alcohol 
requirements, depending on the regulations within their own countries.
    Currently there are no security requirements for repair stations. 
Establishing security requirements is a responsibility of the 
Transportation Security Administration (TSA). Although TSA has proposed 
requirements, they are not finalized. The FAA continues to assist TSA 
with technical resources regarding repair stations.

    Question 21. Does FAA intend to require foreign repair facilities 
to meet all standards required for domestic repair facilities? If so, 
how and when would such requirements be made equivalent?
    Answer. In January 2004, 14 CFR Part 145 was revised requiring 
foreign and domestic repair stations to meet the same performance 
standards. Both foreign and domestic repair stations must demonstrate 
that they have the training, equipment, facilities, and technical 
skills to be certificated as a repair station and retain that 
certification.
    There are administrative differences between domestic repair 
stations and those outside the U.S. borders. For example, repair 
stations outside the U.S. are required by regulation to renew their 
certificate every twelve to twenty four months.

    Question 22. What is the FAA doing to monitor and/or control the 
introduction of substandard components into the country's aviation 
system, either into aircraft themselves or the air traffic control 
system? How does the FAA ensure proper oversight of the possible use of 
these parts at foreign facilities?
    Answer. In 1995, the FAA established the Suspected Unapproved Parts 
(SUP) Program Office to operate as the focal point for the 
investigation of substandard aviation components, or unapproved parts. 
The program supplements other mechanisms for industry to report 
problems to the FAA, and for the FAA to issue alerts or Airworthiness 
Directives to the industry.
    The SUP Program Office receives complaints of suspect parts and 
coordinates the FAA's efforts to identify, investigate and ultimately 
remove any such parts from spares inventories or aircraft. The reports 
of suspect parts are provided to a network of law enforcement 
authorities, including DOT/OIG, FBI, DCIS, NASA, Customs and Coast 
Guard, for coordination if criminal activity is involved. If a part 
that is suspect is not in compliance with Title 14 of the Code of 
Federal Regulations, it is deemed unapproved.
    When a SUP has been determined to be an unapproved part, several 
things happen. The unapproved parts must be accounted for or the 
potential end users must be notified. If end users cannot be notified 
directly, then the FAA sends out an Unapproved Parts Notification (UPN) 
alerting the aviation community to the problem. Unapproved Parts 
Notifications are posted on the Internet for worldwide accessibility 
and distributed by other modes to more than 70,000 people.
    This surveillance of aviation parts is global in scope since the 
office coordinates investigations with foreign Civil Aviation 
Authorities and FAA International Field Offices. In addition, the SUP 
Program Office interacts with the aviation industry so that there is a 
collaborative effort in keeping industry informed and involved in 
preventing the entry of unapproved parts into aviation's stream of 
commerce.
    The office's Parts Reporting System database tracks the aviation 
companies and parts that have been reported, yielding important 
information on possible problems and trends.
    To increase awareness of unapproved parts in the aviation industry, 
the office develops presentations and seminars that are given worldwide 
to government agencies and businesses.

    Question 23. Why is the FAA employing aviation consultants, who are 
focused on fast-tracking safety certification, when current inspectors 
are not authorized to oversee this work?
    Answer. FAA does not employ certification consultants, nor does FAA 
require applicants for an air carrier certificate to use certification 
consultants. FAA has established a program, however, to approve 
certification consultants who meet minimum standards and to list these 
consultants on an FAA Internet site. At this time, there are three 
certified consultants: CAVOK International, JDA Aviation Technology 
Solutions, and Murray Air Associates.
    FAA's certification process is the same for all applicants, whether 
or not they choose to use consultants. In either case, FAA inspectors 
are the only ones authorized to issue an air carrier certificate to 
successful applicants.

    Question 24. What is the current status of the remaining bargaining 
impasses with FAA employee organizations? What are the FAA plans for 
resolving the remaining impasses?
    Answer. The only contract negotiations currently at impasse involve 
a collective bargaining agreement that would cover multiple bargaining 
units represented by the Professional Airways Systems Specialists 
(PASS). The FAA's labor relations system is subject to the procedures 
set forth in 49 U.S.C. Sec. 40122. While the Agency is generally 
subject to the provisions of the Federal Service Labor Management 
Relations statute (5 U.S.C. Chapter 71), in Sec. 40122 Congress 
provided a specific procedure governing the negotiations over pay 
related issues and changes to the FAA personnel management system. If 
agreement cannot be reached, the law calls for mediation through the 
Federal Mediation and Conciliation Service (FMCS). If the services of 
the FMCS do not lead to an agreement, the Administrator's proposed 
changes to the personnel management system are submitted to Congress. 
Implementation cannot not take place until 60 days after Congressional 
notification.
    A decision to submit items that have reached impasse to Congress 
has not yet been made. In addition, a lawsuit filed by PASS and the 
National Air Traffic Controllers Association over whether the Federal 
Services Impasses Panel has jurisdiction to resolve the current impasse 
is currently pending before the U.S. Court of Appeals. The agency 
remains open to considering any revised union proposals that could 
resolve the impasse.

    Question 25. Due to low staffing and budgetary problems, several 
FAA certificate managing offices with oversight over several carriers 
are requesting waivers from staffing requirements in order to 
transition to ATOS, and I understand you are granting these waivers. 
When the FAA is attempting to address the system safety issues raised 
up by the IG and GAO, how can you issue waivers that deviate from these 
safety standards?
    Answer. FAA has not and will not issue waivers that deviate from 
safety standards. Nor has FAA issued waivers to staffing requirements 
in order to convert certificate management teams (CMTs) to ATOS. FAA 
has issued waivers to enable ATOS CMTs to share personnel such as data 
evaluation program managers, operations research analysts, and 
inspectors who collect surveillance data. At the same time, FAA has 
waived the requirement for some of these personnel to be physically 
located in the CMTs home office. These waivers are necessary for 
efficiency and do not compromise oversight functions or safety.

    Question 26. In light of FAA's budget concerns, has the FAA 
considered increasing fees for certification and services to foreign 
entities who perform maintenance on aircraft used in the U.S.? If not, 
why not? If so, when will FAA take action to impose the fee increase?
    Answer. FAA charges for airman and repair station certification 
services performed outside the U.S. The user fees are reviewed annually 
and adjusted, if needed, to recover costs. Last year, the user fee for 
these services was increased from $80 per inspector hour, plus any 
transportation and subsistence costs, to $137 per inspector hour, plus 
any transportation and subsistence costs. The fees are scheduled for 
the next annual review in July 2006.

    Question 27. In regard to the FTI contract, can you explain the 
distinction between ``site acceptance'' and ``service acceptance'' of 
new communications equipment? How does the FAA ensure that the network 
is fully functional?
    Answer. The following definitions explain the distinction between 
site acceptance and service acceptance:
    Site Acceptance is a contractual milestone that is achieved when 
the service provider successfully demonstrates (in accordance with 
documented site verification test procedures) that its network 
infrastructure deployed at a government facility is functioning 
properly and has connectivity to the FAA's Network Operations and 
Control Center (NOCC) so that it can be monitored and controlled. Once 
the site acceptance milestone has been achieved, the site is ready to 
support the implementation of individual telecommunications services.
    Service Acceptance is a contractual milestone that is achieved when 
the service provider successfully demonstrates (in accordance with the 
documented service verification test procedures) that a service meets 
the government-specified performance requirements and is ready for use 
by the end user system. For each distinct service class defined under 
the FTI contract, there is a tailored set of service verification test 
procedures that must be successfully executed in order to achieve the 
service acceptance milestone.
    With respect to the question of how does the FAA ensure that the 
network is fully functional, it is important to understand the 
following key points:

  <bullet> Before a specific service class is made available to users, 
        extensive performance testing is conducted at the Harris test 
        lab in Melbourne, Florida and additional integration testing 
        with the FAA's end user systems is performed using the FTI test 
        bed at the FAA Technical Center in Atlantic City, New Jersey.

  <bullet> Unlike FAA's legacy operating environment where a service 
        may be implemented in segments, FTI services are implemented 
        end-to-end and so there are not operational dependencies 
        between individual services from a network standpoint.

  <bullet> Services are being implemented on the FTI network one 
        service at a time. For example, the operation of a point-to-
        point service between air traffic control facilities in 
        California is not dependent upon the operation of a point-to-
        point service between air traffic control facilities in Ohio. 
        As a result, there is no distinct milestone where the network 
        as a whole achieves a status of ``fully functional,'' rather 
        the assurance is obtained on a service-by-service basis.

  <bullet> There are some special circumstances where services are 
        implemented on a dedicated subnetwork within FTI. For example, 
        FTI has a separate subnetwork for users who require an ``IP 
        interface.'' In this situation, additional testing is conducted 
        to ensure that the user can properly communicate with each IP 
        address with which it requires connectivity. In this situation, 
        there is an explicit effort to make sure that the subnetwork is 
        fully functional before users are connected.

    Question 28. Can the FTI network, as designed, provide for less 
reliable service levels than the current standards? If so, why? Are 
lower reliability levels tied to any cost savings? If so, please 
describe such identified expected sources, levels, and timing of such 
savings.
    Answer. The FTI network is specified and designed to provide higher 
levels of reliability and service availability. In addition, FTI offers 
a greater number of availability levels so that the FAA can better 
match price to performance. As shown in the table below, FTI provides 
six different levels of service availability compared to the two 
service availability specified on the LINCS contract--one of the legacy 
networks that are being replaced by FTI.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In comparing these availability levels, it is important to note 
that FTI services are truly end-to-end whereas the legacy services are 
inter-connected to FAA-provided communications equipment that reduces 
the end-to-end service availability to the end user. As a result, the 
magnitude of the improvement in end-to-end service availability under 
FTI is actually greater than suggested by the table above.
    The selection of which service availability level to implement for 
a particular end user system is based upon the criticality of the 
functions supported. The FAA does not systematically use lower than 
required levels of service availability to obtain cost savings. The 
selection of services is based upon level of service availability 
required by the user application based upon the criticality of the 
function performed.
    By offering a greater number of service availability levels, FTI 
provides the potential to select a level that is closer to what the 
user requires and possibly support the user's requirement more cost 
effectively. However, this determination is made as service 
requirements are identified--there is no projection or timetable for 
potential cost savings that could be realized from the broader 
selection of service availability levels offered by FTI.

    Question 29. Why is FAA using a method called ``simultaneous 
deployment'' in incorporating the FTI contract? Did FAA determine the 
safety impact of such an approach? If so, what did FAA find?
    Answer. The FTI transition approach can be described as nation-wide 
or National Airspace System (NAS)-wide. As described in the response to 
question #27, there are generally no dependencies between services in 
different geographic areas. \1\ As a result, the transition of those 
services can take place in parallel without impacting each other.
---------------------------------------------------------------------------
    \1\ With respect to the National Airspace System (NAS), the 
distinct geographic areas are referred to as ``airspaces.''
---------------------------------------------------------------------------
    Another key consideration is the availability of personnel to 
support the FTI transition. The FAA workforce supporting the FTI 
transition is based in Sector Maintenance Offices (SMOs), which are 
distributed throughout the country. The SMO personnel have the specific 
expertise required to support the facilities in that geographical area. 
Proceeding with transition and implementation activities in multiple 
geographic areas at the same time makes the most effective use of the 
available FAA resources. This is the same approach that was used 
successfully when the FAA transitioned to the LINCS network.
    To concentrate all transition and implementation activities in a 
limited number of airspaces would represent a significant risk to air 
traffic control operations in those areas. So, in addition to making 
the most effective use of the available resources, the NAS-wide 
transition approach also mitigates the risk to NAS operations.

    Question 30. I understand that there have been several recent 
incidents of network interruptions caused by telecommunications 
equipment and power supplies--that were in service--being moved or 
removed by FTI technicians trying to install new equipment. Does the 
FAA have a transition plan that involves the incumbent provider and the 
new vendor, so that everybody knows what the other party is doing so 
that wires and equipment that are providing service are not unwittingly 
disturbed?
    Answer. The FAA has a Transition Master Plan (TMP) for the FTI 
Program. The incumbent service providers and the new vendor are fully 
aware of the content of the TMP and are encouraged to recommend any 
adjustments to the plan they feel would be beneficial to accomplishing 
the transition consistent with the FAA's defined objectives for 
minimizing risk while operating within financial constraints.
    The TMP describes the individual steps involved in transitioning 
sites and services to the FTI network. No portion of the TMP calls for 
moving or removing legacy network equipment to facilitate the 
installation of FTI network equipment.
    The TMP describes the transition approach as it generally applies 
to all sites. For a detailed description of installation requirements 
unique to a particular site, the FTI vendor produces a site specific 
implementation plan (SSIP) for each major site. The SSIPs are reviewed 
by FAA regional and facility-level points-of contact, updated based 
upon FAA feedback, and formally approved as a contractual deliverable.
    There have been a few isolated incidents where human error by FAA 
employees resulted in a minor disturbance to legacy network equipment, 
but these incidents did not result in what could be considered a 
``network interruption.'' Following these incidents, the FTI Program 
issued guidance to reaffirm existing policies to field personnel with 
the objective of ensuring that the mistakes that led to the disruptions 
are not made again.

    Question 31. What was the cause of the September San Juan, Puerto 
Rico, communications outage? Was the FTI transition involved? Did the 
failure of the FTI system to adequately provide for backup power have 
any impact on the outage?
    Answer. The outage was caused by an automatic protection switch 
that did not function properly. The FTI vendor identified the source of 
the problem and worked with their equipment supplier to develop a 
firmware revision to correct the problem. The firmware revision has 
been implemented and the problem has not reoccurred. The failure was 
not related to back-up power. It should be noted that FTI provides 
back-up power as ordered by the government. As a standard practice, the 
FAA orders back-up power at all facilities that support critical air 
traffic control operations.

    Question 32. On October 31, the Chicago Tribune reported that a 
faulty phone line knocked out the primary radar serving O'Hare 
International Airport forcing controllers to switch to a backup system. 
This incident resulted in a 5 to 40 minute delay for about 35 aircraft 
around the country. My understanding is that the faulty phone line was 
a circuit that had been transitioned to the new FTI system just the day 
before. What was the cause of this outage? Was it related to the FTI 
transition? Did the FTI circuits include an appropriate backup path? If 
not, what impact did this have on the outage?
    Answer. The outage was caused by the loss of the primary DS3 access 
circuit. The outage was related to the FTI transition to the extent 
that the FAA incorrectly ordered the radar services without diversity 
(i.e., a back-up path). This had a direct impact on the outage because 
if the back-up path were available, the service would have switched to 
the back-up path and it is likely that no disruption to air traffic 
control operations would have occurred.
    Lessons learned from this incident have resulted in the following 
corrective actions for future cutovers:

  <bullet> FTI program management will conduct in-depth reviews with 
        the local system support personnel prior to service acceptance 
        at the facility.

  <bullet> Appropriate site personnel will validate the functional 
        operation of the service by end-to-end testing. FAA system 
        maintenance personnel will utilize the draft cutover flowchart 
        developed by the FTI program office for all future cutovers.

  <bullet> Harris and its subcontractors will review and validate 
        responsiveness to meet the needs of FAA operations.

  <bullet> New RMA-1 services are being ordered for the O'Hare radar 
        and a review of all terminal radar services nation-wide has 
        been initiated by the FTI program office.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
